<html>
<title> - A NATIONAL COMMITMENT TO END VETERANS' HOMELESSNESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                        A NATIONAL COMMITMENT TO
                       END VETERANS' HOMELESSNESS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2009

                               __________

                           Serial No. 111-25

                               __________

       Printed for the use of the Committee on Veterans' Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE
51-864                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.










                            C O N T E N T S

                               __________

                              June 3, 2009

                                                                   Page
A National Commitment to End Veterans' Homelessness..............     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    51
Hon. John J. Hall................................................    14
    Prepared statement of Congressman Hall.......................    52
Hon. Doug Lamborn................................................     2
    Prepared statement of Congressman Lamborn....................    53
Hon. John Boozman, prepared statement of.........................    52

                               WITNESSES

U.S. Department of Veterans Affairs:
    George P. Basher, Chairman, Advisory Committee on Homeless 
      Veterans...................................................    42
          Prepared statement of Mr. Basher.......................    79
    Peter H. Dougherty, Director, Homeless Veterans Programs, 
      Veterans Health Administration.............................    45
          Prepared statement of Mr. Dougherty....................    81
U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary, Veterans' Employment and Training Service...........    47
    Prepared statement of Mr. McWilliam..........................    85

                                 ______

Columbia Center for Homelessness Prevention Studies:
    Carol L. Caton, Ph.D., Director, and Professor of Clinical 
      Sociomedical Sciences (in Psychiatry), Columbia University, 
      New York State Psychiatric Institute, New York, NY.........    35
          Prepared statement of Dr. Caton........................    74
    Brendan O'Flaherty, Executive Committee Member, and Professor 
      of Economics, Department of Economics, Columbia University, 
      New York, NY...............................................    37
          Prepared statement of Mr. O'Flaherty...................    76
Illinois Department of Human Services, Carol L. Adams, Ph.D., 
  Secretary......................................................    25
    Prepared statement of Dr. Adams..............................    69
Manna House, Johnson City, TN, Chief Warrant Officer James S. 
  Fann, USA (Ret.), Director.....................................    11
    Prepared statement of Chief Fann.............................    66
National Coalition for Homeless Veterans, John Driscoll, Vice 
  President for Operations and Programs..........................     3
    Prepared statement of Mr. Driscoll...........................    53
New York City Department of Homeless Services, New York, NY, 
  Robert V. Hess, Commissioner...................................    27
    Prepared statement of Mr. Hess...............................    72
United States Veterans Initiative, U.S. VETS, Dwight A. Radcliff, 
  Sr., President and Chief Executive Officer.....................     5
    Prepared statement of Mr. Radcliff...........................    58
Veterans Village of San Diego, CA, Phil Landis, Chief Executive 
  Officer........................................................    13
    Prepared statement of Mr. Landis.............................    67
Vietnam Veterans of America, Marsha (Tansey) Four, RN, Chair, 
  Woman Veterans Committee, and Director, Homeless Veterans 
  Services, Philadelphia, PA, Veterans Multi-Service and 
  Education Center, Inc..........................................     7
    Prepared statement of Ms. Four...............................    60

                       SUBMISSIONS FOR THE RECORD

Buyer, Hon. Steve, Ranking Republican Member, Committee on 
  Veterans' Affairs, and a Representative in Congress from the 
  State of Indiana, statement....................................    88
Herseth Sandlin, Hon. Stephanie, a Representative in Congress 
  from the State of South Dakota, statement......................    88
Metropolitan Housing and Communities Center, Urban Institute, 
  Mary Cunningham, Senior Research Associate, statement..........    89
Mitchell, Hon. Harry E., a Representative in Congress from the 
  State of Arizona, statement....................................    92
National Association of Concerned Veterans, Cecil Byrd, Executive 
  Director, statement............................................    92
U.S. Department of Housing and Urban Development, Mark Johnston, 
  Deputy Assistant Secretary for Special Needs, statement........    93

                   MATERIAL SUBMITTED FOR THE RECORD

Hon. Bob Filner, Chairman, Committee on Veterans' Affairs, to 
  Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans 
  Affairs, letter dated June 11, 2009, transmitting questions 
  from Chairman Filner, Hon. Stephanie Herseth Sandlin, and VA 
  responses......................................................    97
Hon. Bob Filner, Chairman, Committee on Veterans' Affairs, to 
  Hon. Hilda L. Solis, Secretary, U.S. Department of Labor, 
  letter dated June 11, 2009, and response from John C. 
  McWilliam, Deputy Assistant Secretary, Veterans' Employment and 
  Training Service, U.S. Department of Labor.....................   103

 
                        A NATIONAL COMMITMENT TO
                       END VETERANS' HOMELESSNESS

                              ----------                              


                        WEDNESDAY, JUNE 3, 2009

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10:12 a.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.

    Present: Representatives Filner, Snyder, Michaud, Hall, 
Halvorson, Perriello, Teague, McNerney, Walz, Adler, 
Kirkpatrick, Brown of South Carolina, Lamborn, and Roe.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. Good morning. I apologize for being late this 
morning for this important hearing.
    While I am saying a few words, if the first panel would 
take their seats, it would save us a few minutes. Thank you all 
for being here.
    I ask unanimous consent that all Members may have 5 
legislative days in which to revise and extend their remarks. 
Hearing no objection, so ordered.
    I want to thank everyone on the Committee, our witnesses 
and those who are in the audience for being here to discuss an 
issue which a lot of people in our country do not want to face 
and that is the issue of homelessness.
    I have decided, and many of us here have decided, that if 
people will not look at homelessness in general, maybe they 
will look at homeless veterans. Depending on what statistics 
you use, veterans are anywhere between 40 to 50 percent of the 
homeless.
    If our Committee and the VA can deal with that issue, we 
will have dealt with almost half the homeless issues that the 
local communities will no longer have to deal with.
    I know that our Secretary of the U.S. Department of 
Veterans Affairs (VA), General Shinseki, has taken on this 
battle himself. Working together, we want to eliminate 
veterans' homelessness.
    Whether that number is 200,000 veterans or 130,000 veterans 
does not matter. There are too many and it is our 
responsibility as a Nation to deal with it. We will hear about 
how those numbers have been arrived at when the VA testifies, 
but we know it is a major problem and one that may increase 
with the worsening economy and with the new veterans that are 
coming back from Iraq and Afghanistan.
    What we have tried to do with our panels is to bring people 
who have confronted this issue directly in their communities. 
We want to hear some of the best practices that are being done 
and what local communities are doing because we feel you can 
give us help in deciding policy at the national level. You know 
what works. You know what does not work. You know what we have 
to do. You know what kind of help you need.
    Just be very direct with us. Tell us what you are doing. 
Tell us how we can help you because, as I said, the Secretary 
and this Committee have made it a major priority to say that 
the two words--``veterans'' and ``homeless''--should not be in 
the same sentence for this Nation.
    Mr. Lamborn, I see you are Ranking Member today. We welcome 
you and you are recognized for an opening statement.
    [The prepared statement of Chairman Filner appears on p. 
51.]

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman. I will be sitting in 
for the time being for the full Committee Ranking Member, Mr. 
Buyer from Indiana.
    And at this point, I would like to ask that his statement 
be included for the record.
    The Chairman. Without objection. So ordered.
    [The statement of Congressman Buyer appears on p. 88.]
    Mr. Lamborn. Thank you.
    Mr. Chairman, each night approximately 131,000 veterans, 
the men and women who have served our country, are among the 
Nation's homeless. This number is alarming, but we have seen a 
steady decrease in this number over the past few years, 
including a decrease of 15 percent from the 2007 estimate and 
33 percent lower than 2006.
    This reduction is encouraging, but we must take time to 
examine how to reduce this number even more and consider how to 
improve the effectiveness of the billions of dollars spent by 
our Government every year to fund programs to end homelessness 
for veterans.
    Future funding for homeless veterans' programs must 
continue to focus on providers that offer and provide job skill 
training and transitional services and new programs that focus 
on the needs of rural veterans.
    That is why I was proud to support H.R. 1171, as amended, 
the ``Homeless Veteran Reintegration Program Reauthorization 
Act of 2009,'' which was sponsored by Dr. Boozman and passed 
the House earlier this year.
    H.R. 1171, as amended reauthorized the successful Homeless 
Veterans Reintegration Program (HVRP) that provides grant money 
to local homeless veteran providers who offer job skill 
training.
    I was also happy that the Committee accepted the amendment 
offered by Ranking Member Buyer to create a new HVRP grant 
program for providers offering services to homeless veterans 
with children and to homeless women veterans.
    Many of today's witnesses discuss the needs of this 
emerging homeless population and I look forward to hearing more 
about what we might do to help them and other homeless 
veterans.
    Thank you, and I yield back the balance of my time.
    [The prepared statement of Congressman Lamborn appears on 
p. 53.]
    The Chairman. Thank you, Mr. Lamborn.
    I will quickly introduce the panel. John Driscoll is the 
Vice President for Operations and Programs with the National 
Coalition for Homeless Veterans (NCHV). Mr. Radcliff is the 
President and Chief Executive Officer for U.S. VETS. Marsha 
Four is the Chair of the Vietnam Veterans of America (VVA) 
Woman Veterans Committee. Chief Warrant Officer James Fann is 
the Director of the Manna House in Tennessee. And, Phil Landis 
is the Chief Executive Officer of Veterans Village in my 
hometown of San Diego.
    We thank you all for being here. We will start with Mr. 
Driscoll. Each of you will have 5 minutes for your oral 
testimony and your written testimony will be part of the 
record.
    I know, Mr. Roe, that when we get to Chief Fann that you 
will have a few words to say about him.
    Mr. Driscoll.

STATEMENTS OF JOHN DRISCOLL, VICE PRESIDENT FOR OPERATIONS AND 
 PROGRAMS, NATIONAL COALITION FOR HOMELESS VETERANS; DWIGHT A. 
 RADCLIFF, SR., PRESIDENT AND CHIEF EXECUTIVE OFFICER, UNITED 
 STATES VETERANS INITIATIVE, U.S. VETS; MARSHA (TANSEY) FOUR, 
  RN, DIRECTOR, HOMELESS VETERANS SERVICES, PHILADELPHIA, PA, 
 VETERANS MULTI-SERVICE AND EDUCATION CENTER, INC., AND CHAIR, 
 WOMAN VETERANS COMMITTEE, VIETNAM VETERANS OF AMERICA; CHIEF 
  WARRANT OFFICER JAMES S. FANN, USA (RET.), DIRECTOR, MANNA 
   HOUSE, JOHNSON CITY, TN; AND PHIL LANDIS, CHIEF EXECUTIVE 
           OFFICER, VETERANS VILLAGE OF SAN DIEGO, CA

                   STATEMENT OF JOHN DRISCOLL

    Mr. Driscoll. The National Coalition for Homeless Veterans 
is honored to participate in this hearing, to herald and to 
serve the legacy of this Committee and our partners in the 
campaign to end and prevent homelessness among veterans.
    For two decades, largely due to the leadership in this 
chamber, the partnership NCHV represents has built a community 
of service providers that has turned the tide in this campaign. 
Where once we considered the magnitude of our mission with 
caution and hope, we now celebrate phenomenal success in 
reducing the number of homeless veterans on the streets of this 
Nation by more than half in just the last 7 years.
    VA officials have testified before Congress that the 
Department's partnership with community and faith-based 
organizations is the foundation of this success. The NCHV 
believes it is also the incontrovertible evidence that we can 
succeed in this battle.
    The campaign to end veteran homelessness is now handed to 
the 111th Congress and with the Nation ready to respond to your 
leadership as never before in its history.
    The VA Grant and Per Diem (GPD) Program is the foundation 
of the VA and community partnership and currently funds more 
than 14,000 beds in every State. Under this program, veterans 
receive services that include housing, access to health care, 
dental services, substance abuse and mental health supports, 
family and personal counseling, education, and employment 
assistance.
    The program provides funding for about 500 community-based 
programs across the Nation and to its credit, the VA has 
increased its investment in this program more than five-fold in 
just the last decade.
    The Grant and Per Diem Program now provides funding for 
Special Needs Grants for under-served populations, women 
veterans, the frail, elderly, those with terminal illness.
    The need to add service beds despite considerable budget 
constraints has impacted grantees' ability to provide outreach 
services which is an integral part of this program.
    We offer two recommendations. The first is to increase the 
annual authorization of appropriations for Grant and Per Diem 
to $200 million. H.R. 2504 introduced by Representative Teague 
of New Mexico would do that.
    We believe this documented need for expansion of the 
program, its successful outcomes, and the VA's emerging 
emphasis on prevention justifies this request.
    The second is to change the mechanism for determining per 
diem payments. Under the Grant and Per Diem Program, service 
providers are reimbursed for expenses they incur on a formula 
based on the reimbursement provided to State veteran homes. 
Those rates are then reduced based on the amount of funding 
received from other Federal sources. The current ceiling is 
about $33.00 per day.
    We feel the reimbursement formula should reflect the actual 
cost of providing services to help veterans rebuild their lives 
based on each grantee's demonstrated capacity to provide those 
services rather than a flat rate based on custodial care.
    We also believe that decreasing an organization's per diem 
rate due to funding from other Federal agencies contradicts the 
fundamental intent of the program. To compete for funding under 
Grant and Per Diem, applicants must demonstrate they can 
provide a wide range of services in addition to the 
transitional housing they offer.
    The Department of Labor (DOL) Veterans Reintegration 
Program awards fundings to government and private organizations 
that provide employment preparation and placement assistance to 
homeless veterans. It is one of the most successful programs in 
the Department of Labor. It is successful because it does not 
just fund employment services. It guarantees job placement and 
retention.
    Administered by Veterans' Employment and Training Service 
(VETS), the program is responsible for placing 12,000 to 14,000 
thousand homeless veterans into gainful employment each year at 
a cost of under $2,000 per client.
    We ask this Committee to prevail to the extent possible to 
fully fund HVRP at its authorized level.
    The return to focus on prevention, and we have the full 
prevention platform on our Web site at www.nchv.org, and I know 
many of the other presenters are going to be talking about some 
of the programs that would address prevention initiatives.
    The analysis of 2000 census data performed by 
Representative Robert Andrews of New Jersey showed that about 
1\1/2\ million veteran families live at the Federal poverty 
level, including 634,000 below 50 percent of the Federal 
poverty threshold.
    So we certainly advocate expansion of the U.S. Department 
of Housing and Urban Affairs Veterans Affairs Supportive 
Housing Program (HUD-VASH), which you will hear about.
    Pass the ``Homes For Heroes Act,'' please. We learned 
yesterday that it was dropped in Senate by Senator Schumer of 
New York.
    And we also in terms of increasing access to health 
services, one thing NCHV believes very strongly in is an open-
door policy for veterans, particularly combat veterans, in 
areas that are under-served by VA. Do not make these people go 
80 and 100 miles down the road. Bring together U.S. Department 
of Health and Human Services (HHS) and VA health services so 
that every combat veteran has access to these.
    Mr. Chairman, in closing, I would like to say that the work 
of this Committee has been an inspiration for me for 10 years. 
And much of the success that we celebrate right now has 
occurred in just the last 5 to 7 years. And I would like to say 
personally thank you for your service.
    [The prepared statement of Mr. Driscoll appears on p. 53.]
    The Chairman. Thank you, Mr. Driscoll.
    Mr. Radcliff.

              STATEMENT OF DWIGHT A. RADCLIFF, SR.

    Mr. Radcliff. Mr. Chairman and Committee, I am certainly 
honored to be here this morning and to participate in providing 
information and feedback from the field to this Committee, 
especially in relation to such a passionate topic as our 
Nation's homeless heroes.
    As a veteran who has once walked in their shoes and now as 
the leader of the community-based organization (CBO) whose sole 
mission is to provide housing and service to homeless and at-
risk veterans and their families, responsible for the 
operations of housing and services to more than 2,200 veterans 
in 5 States and the District each night, I hope to bring a 
broad insight from a provider's perspective.
    U.S. VETS operates currently 727 Grant and Per Diem beds 
and a service center. As an active Member of the National 
Coalition for Homeless Veterans, we realize the value of 
government working with community and their existing network 
that can solve and eradicate the problem of homelessness among 
its veterans.
    Since 1992, U.S. VETS programs have served more than 18,000 
homeless veterans, with more than 65 percent making successful 
transitions into permanent housing and into the community while 
achieving self-sufficiency.
    These veterans are receiving a wide array of services 
according to their needs. The services we provide include 
outreach, transportation, secure and sober housing, food, 
nutritional advice, counseling, mental health treatment, 
alcohol and substance abuse treatment, case management 
services, permanent housing placement, assistance in education 
and job training, including veterans' benefits.
    All of our programs are a collaborative effort with local 
providers, including VA medical centers, bringing the community 
as a whole into the solution.
    Since the initial opening of our VA Grant and Per Diem 
Program in 1997 and now currently operating 727 beds in 5 
States, making it one of the largest single recipient of Grant 
and Per Diem fundings as a community-based organization.
    We have programs that include Veterans in Progress 
Employment Reentry Program. We have a Noncustodial Fathers 
Program. We have an Advanced Women's Program, which includes a 
module for serving female veterans who are suffering Post-
traumatic stress disorder (PTSD). We have the Social 
Independent Living Skills for senior veterans, Critical Time 
Intervention for mental health veterans and we also have the 
service center, a drop-in center for homeless veterans seeking 
information, resources, and employment needs.
    Our current predicament, while the Department of Veterans 
Affairs, which we applaud, is designed to help homeless 
veterans, specifically the Grant and Per Diem Program, utilizes 
what we view as the most effective model in that it supports 
collaboration with community-based organizations.
    Community-based organizations to me represent the most 
efficient means of service provision in that they are able to 
do more with less.
    Currently the Grant and Per Diem regulations allow for a 
payment of $34.40 per day. And this is based upon the cost 
reimbursement model which is paid approximately 60 to 75 days 
after the service has been delivered to the homeless veterans.
    The cost reimbursement model adds an administrative burden 
leaving up to 15 percent of the cost, which leaves $29.24 for 
service providers to provide a daily service to these veterans.
    Typically salaries, housing, and food costs consume most of 
our operational expenses. This compels the CBOs to seek other 
resources and collectively patchwork programs together with 
additional funding oftentimes resulting in pursuit of funding 
that is not driven toward or specifically targeted toward our 
mission.
    Grant and Per Diem funding is distributed over a 12-month 
period with a reconciliation funding at the close of the 
grantee's fiscal year. Each year, Grant and Per Diem grantees 
are required to reconcile the funds and reimburse VA costs for 
overruns. At $29.00 a day, Mr. Chairman and Committee Members, 
we feel like it would be very effective to provide a fee-for-
services contract that allows VA to pay a recipient at least 
$35 to $65 a day.
    None of these CBOs are thriving off of this. All of us are 
struggling to keep our cash flows going and to keep the doors 
open in the provision of services.
    Additionally, we are asking that the per diem rate be 
higher. Geographically it is not the same cost in Phoenix, 
Arizona, as it is in Los Angeles.
    In the event of natural disasters, which we have witnessed 
over the past 4 years, we operate programs in Houston, Texas, 
where we have been impacted by Hurricane Katrina, Hurricane 
Rita, and Hurricane Ike. None of the programs are allowed to 
keep a reserve of Grant and Per Diem or a reserve fund that 
allows us to execute a disaster relief plan.
    I have watched programs in New Orleans close as a result 
with veterans sleeping in housing and on buses until they can 
be reached.
    Oftentimes we operate programs in Hawaii, California, and 
Texas where disasters are likely to occur. We would like to be 
able to have reserves each year so that if a disaster hits, we 
are able to relocate those veterans temporarily and house them.
    Additionally, disallowance of match, currently VA, there 
are three major funding sources that are utilized for our 
programs. Department of Labor, DOL-VETS funding, Department of 
Housing and Urban Development, and VA Grant and Per Diem are 
pursued in order to put together much needed funding and 
resources to operate successful programs. Currently VA funds 
are not eligible to be used as a match for HUD programs.
    We would ask for our solutions to include an increase in 
appropriations of the Grant and Per Diem to allow VA to pay 
providers up to $65 a day utilizing current per diem Federal 
guidelines which provide consideration to geographic and 
location.
    We would ask that VA utilize a fees-for-services model. We 
would ask that VA be allowed to reimburse grantees at the close 
of each fiscal year when eligible expenses exceed the Grant and 
Per Diem rate. We ask that VA allow Grant and Per Diem 
recipients' programs to maintain disaster relief reserves. 
Again, we would also ask that VA be allowed to use as a match 
to other homeless services' money.
    Unless the Federal Government demonstrates a political will 
to tackle this problem in a substantial way, there will 
continue to be veterans who are falling through the cracks and 
end up on our streets.
    Homeless prevention requires early intervention to include 
rental subsidies, domestic violence, substance abuse counseling 
at an outreach stage.
    We advocate also that this Committee recommend approval and 
appropriation for the ``Homeless for Heroes Act.''
    Thank you.
    [The prepared statement of Mr. Radcliff appears on p. 58.]
    The Chairman. Thank you very much, sir.
    Ms. Four, please proceed.

             STATEMENT OF MARSHA (TANSEY) FOUR, RN

    Ms. Four. Good morning, Mr. Chairman and distinguished 
Members of the Committee. Thank you for giving Vietnam Veterans 
of America the opportunity to provide testimony.
    I think that it is very well understood that the Homeless 
Grant and Per Diem Program (HGPD) is one of the major 
investments that has been made by Congress and by the VA in 
approaching the issue of homeless veterans, and I think it is 
also well understood that the nonprofit agencies are the life 
blood of this program.
    In fact, I can reiterate some of the comments that Mr. 
Radcliff made because there is a resounding concern over what 
the nonprofit are facing and it is threatening them; the 
financial difficulties that are facing them today.
    If these are not addressed, VVA feels that you will 
diminish the ability of these nonprofit agencies to provide 
quality service and you may actually lose these valuable 
assets. VVA believes legislation really must be considered to 
address these program issues.
    One is the reimbursement method. If we look at the 2 to 3 
months that are necessary for the reimbursement to come back to 
the nonprofits, if they have a line of credit, they have to use 
that in order to keep functioning and pay their staff until 
reimbursements are made. And in this case, they incur interest 
rates that cannot be written off in any fashion.
    Another challenge, of course, is the justification for an 
increase in per diem when the previous year's audit is utilized 
to prove that agencies need more per diem to operate. 
Nonprofits cannot overspend in the previous year in order to 
justify a request for increased per diem.
    One of the things VVA is looking at is the idea of a fee-
for-service rather than the per diem reimbursement process. 
This is, in fact, could be considered much like that money that 
goes to the State home programs now, where money is put in the 
bank for the per diem for all the beds they have and, on a 
monthly basis, they draw down from that on the beds that 
actually are occupied. And it is a very simple process. It 
makes it more efficient and effective not only for the 
nonprofits but for the VA in the accounting process.
    Another topic that has not been mentioned, though, is the 
issue of the service centers. They are, in fact, one of the 
greatest outreach tools that we have under Grant and Per Diem. 
However, because agencies only get service centers rates of 
$4.30 an hour for every hour that a veteran is actually on the 
premises, many of the service centers that have opened have 
been closed and many of those that have been awarded have never 
opened. They simply do not have the money to function. Staff is 
required to work 8 hours, sometimes longer, on the needs of 
veterans, but they only get $4.30 per hour for the time the 
veterans are actually on-site.
    VVA believes there needs to be a consideration for possible 
legislation that would address service center staffing/
operational grants so that these front-line outreach programs 
are not lost to this very valuable system.
    I would like to spend the rest of my time talking about 
homeless women veterans. There certainly is a question, of 
course, on the actual number of homeless veterans. It has been 
fluctuating dramatically in the last few years.
    When it was reported at a 250,000 level, 2 percent were 
considered females. This was roughly about 5,000. Today, even 
if we use the very low number that VA is supplying us with, 
131,000, the percent of women in that population has risen up 
to four to 5 percent. In some areas, it is larger so that even 
a conservative method of determining this has placed the number 
conservatively at 65,000.
    The VA actually is reporting that they are seeing that this 
number is as high as 11 percent for the new homeless women 
veterans. This is a very vulnerable population. There is a high 
incidence of past sexual trauma, rape, and domestic violence. 
They have been used, abused, and raped. They trust no one.
    Some of these women have sold themselves for money; been 
sold for sex as children. They have given away their very own 
children. They are encased in total humiliation and guilt the 
rest of their lives.
    In order to survive on the streets, moving from home to 
home, bed to bed, they become calloused, aggressive, and 
develop attitude. This behavior can often be a means, however, 
to remain safe and it can keep predators at bay. For others, 
though, they wither within themselves. The women who find their 
way to the Grant and Per Diem Programs have great advantage.
    The Homeless Special Needs Grants that were provided by 
Congress are a tremendous asset. The first came online in late 
2004, early 2005. Although I will be speaking about the women's 
special needs programs, some of the considerations can be 
generalized in all the special needs grant populations.
    While I speak on behalf of Vietnam Veterans of America, I 
am employed by the Philadelphia Veterans Multi-Service and 
Education Center, a nonprofit agency with a 30-year history of 
working exclusively with veterans. I am its Program Director 
for Homeless Veteran Services and also serve as the daily 
Program Director for the Mary E. Walker House. It is a 30-bed 
transitional residence for homeless women veterans under Grant 
and Per Diem and it was awarded one of the first Special Needs 
Grants.
    The Walker House opened its door in January of 2005 and it 
is the largest women veteran specific program funded under 
Grant and Per Diem. It accepts applications from anywhere in 
the country. To date, applications have been received from 13 
Veterans Integrated Services Networks (VISNs) and women have 
been admitted from 10 VISNs. To date, 145 women veterans have 
been at the Walker House with an average length of stay of 305 
days. Thirty-six percent are service connected.
    The reality of the day-to-day operation of this program is 
complex beyond imagination. This is due in part to the quality 
and characteristics of this gender population, women.
    And just as a side bar, women are much more verbal than 
men. In part, the complexity is due to multiplicity of the 
presenting issues, histories, medical problems, debt, legal and 
court issues, employability, and mental health diagnosis for 
each woman.
    Factor into the equation the fact that so few gender 
specific program locations are available for the women. These 
are women who fit nowhere else in the system; women who are 
considered too sick for general homeless programs, not sick 
enough to be admitted to psych units, and those who cannot 
survive in mixed-gender programs.
    For some of the demographics of our program, childhood 
sexual trauma, 37 percent; pre or post military sexual trauma, 
24 percent; military sexual trauma, 63 percent; multiple 
categories of sexual trauma, 48 percent; combined military 
sexual trauma and other sexual abuse, 80 percent; domestic 
violence, 46 percent. Mental health issues include, PTSD, 51 
percent; bipolar, 26 percent; adjustment disorder, 10 percent; 
personality disorders, 12 percent; self harm, which are cutters 
and burners, 12 percent. And the list goes on and on, 
borderline personalities, suicidal ideation, paranoia.
    The foresight of the Special Needs Grant Program to include 
the ability of the local VA medical centers to request 
additional funds for itself has allowed a very expansive 
infusion of dedicated staff and treatment components. This 
element is vital to the special needs grant and it hopefully 
will not be lost in the future.
    But this element needs to also provide accountability for 
its funding just as we are held accountable for the funding 
that we receive from the VA.
    The Special Needs Grant gives recognition and an 
understanding to the challenges faced by these special program 
populations. It has allowed for the development of intensive 
treatment opportunities vital to this population, one necessary 
if we are going to actively address the issues of these 
veterans.
    Per diem alone could never meet the demand for staffing 
these programs. What we are looking at is the fact that without 
the special needs grant, there would be an enormous gap in the 
system for women veterans and the other special needs 
populations. The programs would fail these veterans. They would 
ultimately be lost, perhaps forever.
    And we hope that in the renewal process in 2011, Special 
Needs Grants will be reconsidered and that renewals for 
existing programs that are productive and successful be 
considered separate from new requests for Special Needs Grants.
    I also want to mention the VA military sexual trauma 
specific residential programs detailed in my written testimony 
because this is another issue that I believe plays a very 
active role in the prevention of homelessness.
    The Chairman. Ms. Four, we need you to wrap up quickly.
    Ms. Four. Yes. We believe that there should be more of 
these residential programs across the country, perhaps in every 
VISN.
    And I thank you very much for the opportunity.
    [The prepared statement of Ms. Four appears on p. 60.]
    The Chairman. Thank you so much.
    Mr. Roe, I know you want to say a few words about Chief 
Fann.
    Mr. Roe. Thank you, Chairman, for the opportunity to 
introduce Mr. Fann and thank the Chairman and Ranking Member 
for inviting Mr. Fann to testify here today.
    James Samuel Fann is the Director of the Manna House, a 
transitional housing and recovery facility for homeless 
veterans in my hometown of Johnson City, Tennessee.
    Chief Fann is himself a veteran of the Vietnam War, having 
retired from the United States Army as a Chief Warrant Officer. 
Chief Fann has valuable experience helping homeless veterans. I 
want to welcome him to Washington and look forward to his 
testimony.
    And, Sam, thank you for your service to our country and 
also your effort to end homelessness for veterans. And as you 
know, we have the traveling wall that will be in Johnson City 
tomorrow through Saturday. I will see you tomorrow morning. 
Thanks, Sam.
    The Chairman. Thank you, Chief Fann. You have a fan here.

               STATEMENT OF CHIEF WARRANT OFFICER
                   JAMES S. FANN, USA (RET.)

    Chief Fann. Thank you very much. I appreciate the 
opportunity to be here.
    I was going to wear my rolling thunder vest and all that, 
but I thought you all had enough of that last weekend. So, some 
of the folks that were here with rolling thunder up here at the 
wall, Dr. Roe and myself will be at the wall in Johnson City 
this coming week. So, if any of you are down in that area, 
please come by and see us.
    As Dr. Roe said, at Manna House, we are collocated with 
Mountain Home VA Center. It is just up the road from us. We 
have a lot of veterans. It is a 21-bed transitional facility. 
About 50 percent or better of our men who come there are 
veterans.
    We are funded through the Department of Housing and Urban 
Development and the VA Center with some funds in the past. 
Right now we are funded through HUD Continuum of Care Grant and 
we are working closely with the VA Center in helping our 
veterans.
    We have all talked about how many veterans are homeless at 
this point in time. The Appalachian Regional Coalition on 
Homelessness, which is our regional coalition, we did a 24-hour 
survey, our last survey. A count of the 8-county region of 
upper east Tennessee reported nearly 30 percent of the 1,600 
homeless that were counted were veterans.
    Homelessness is not just a problem of middle-age and 
elderly veterans. Younger veterans from Iraq and Afghanistan 
are now showing up in our homeless shelters. At this time, we 
have more than 20 men on our waiting list in Manna House. Ten 
of those men are veterans. Four fought in Iraq.
    Mental illness, especially post-traumatic stress disorder, 
and substance abuse have long been seen as the major causes of 
homelessness among our veterans. While those are certainly 
factors, they are not the only reason veterans are left 
homeless.
    Affordable housing, medical care, mental health counseling, 
case management, education and employment assistance to 
transfer the military jobs into marketable civilian positions 
need to be expanded in an aggressive outreach program for our 
veterans.
    The HUD and VA Continuum of Care grants and other Federal 
and State grant programs have certainly helped to expand our 
ability to provide services for our homeless veterans. However, 
we need to dedicate even more services to help these men, 
women, and families.
    I personally believe that people who do not have shelter 
are houseless, not homeless. Homelessness has nothing to do 
with the lack of shelter. We can define homelessness as an 
inadequate experience of connectedness with family and/or 
community. This fact is now recognized by Habitat, the United 
Nations Human Settlements Program.
    Think of the to illness, poor nutrition, exposure to the 
elements, and even the elective crime some of our homeless may 
be involved in just to be able to eat or to have a roof over 
their head.
    Also imagine only having contact with people in the 
community who are paid to have contact with you. That is what I 
call chronic homelessness.
    In my opinion, the vet suffers from all the same problems 
that other people or other persons who may be homeless, but add 
one more factor. Finding a job that you can do as a civilian 
that you were trained for in the military. This creates a 
problem for the vet. He is trained to fight the enemy and do a 
job, but there are none of those jobs available in the civilian 
world. We need to reeducate and retrain our veterans for 
reentry to the civilian world.
    We are looking for a quick fix solution to the problem, 
housing first. Let us give them an apartment or a room, but who 
are they going to invite to their apartment? Other homeless 
people. And how long will they last isolated from our 
community?
    If the problem was a lack of shelter for the homeless, why 
aren't all the homeless shelters always full? During the winter 
months, yes, they are more busy, but more shelters will not 
solve the problem.
    Give them an address that they can get their mail, a 
telephone number for messages, a place to get services that 
they need. They apply for services, but we cannot reach them. 
They have to change the dates or bring them back to obtain the 
services.
    Even at the VA, if you miss an appointment, you may be 
dropped from the treatment rolls. We need a way to better 
communicate and case manage the veteran.
    Get to know some of the homeless in order to understand 
what they need to change their lives. Make the homeless a 
priority. We can feed the world, but we let some of our own go 
hungry. We can rebuild countries. We cannot make housing 
affordable for a person who is homeless.
    Our veterans cannot get a job, work for a temporary 
service, or even open a bank account because they have no State 
identification card. In order to get a card, they need proof of 
physical address, their birth certificate, Social Security 
card, and another picture ID. The VA ID card is not acceptable 
because it does not have the veteran's Social Security number 
on it for privacy reasons.
    Even if they have all this, they may not have the 
transportation to get to the driver's license station. Without 
a bank account or physical address, they cannot receive the 
benefit check or other checks designed to help them, which is 
required to be direct deposited.
    Consolidate services that can be effective for the average 
homeless person as well as our homeless veterans.
    We at the Manna House believe that the majority of persons 
falling through the cracks of society are middle-aged males who 
are perceived to be drunk and lazy bums. These individuals have 
the most difficulty accessing and navigating the system because 
the system is designed to defeat them.
    Manna House is attempting to be a safety net for those 
persons who society has deemed criminal, worthless, or even 
expendable. Our residents, especially our homeless veterans, 
are real people with real problems that can be solved. We can 
and do set them on the path to becoming productive citizens in 
our community. Our discharge history will bear this out.
    The programs we have in place are effective, but could be 
more effective if we were to expand our transportation, 
education, and communication services for the veteran.
    Some of our veterans have given all for the freedom of our 
returning veterans. Are we as a country giving all to ensure 
our returning veterans have what they need to be a contributing 
part of our community and country?
    I thank the Committee of Veterans' Affairs, especially my 
Representative, Dr. Phil Roe, for inviting me to add my 
comments to this hearing.
    [The prepared statement of Mr. Fann appears on p. 66.]
    The Chairman. Thank you, sir.
    Mr. Landis.

                    STATEMENT OF PHIL LANDIS

    Mr. Landis. Mr. Chairman, Members of the Committee, I am 
honored and somewhat humbled to be before you today to talk 
about the veterans' issues and specifically that population 
that we serve in San Diego through Veterans Village of San 
Diego, formerly known as Vietnam Veterans of San Diego.
    I would like to take a moment and just tell you a little 
something about what this population looks like. We all have 
heard of safety nets. Well, the safety net starts way up here 
and it takes time normally for a human to fall through these 
safety nets. By the time that they have fallen through the last 
safety net and hit the concrete and then fallen about 12 feet 
below the concrete, that is where they found Veterans Village 
of San Diego.
    We have over 400 veteran-specific beds scattered throughout 
the county. We currently, at our main campus, have over 140. I 
think the population this morning was 142 men and women that 
are in our treatment facility for homeless, dually diagnosed 
veterans, some of whom have chronic mental illness. This is 
probably the toughest population to serve in the country.
    Many of our newer veterans coming from the current conflict 
also suffer with mild Traumatic Brain Injury, TBI. When you 
couple that with PTSD, you have a real issue for treatment.
    We have been in this business of treating homeless 
veterans, working with homeless veterans for 28 years. I think 
we know a little something about it.
    Veterans Village of San Diego created what is now known as 
stand-down. In 1988, we conducted the first stand-down in San 
Diego. It is now replicated in over 200 locations around the 
country.
    We created something called Homeless Court. If you are 
homeless and you have court issues, where do you go? Well, now 
there is a Homeless Court, which is very effective in helping 
formerly homeless individuals get back on the street, having 
first demonstrated to the court that they have, in fact, done 
something to help themselves.
    Our program is a pretty tough place to be. It is based on 
an ARD 12-step model. It is zero tolerant. And when you 
graduate from our program, you really want to do it. You are 
very motivated.
    It takes more courage, and some of us all know of the 
different kinds of courage, it takes more raw courage to 
graduate from our program than anything I have ever seen before 
because it takes the courage to face your demons and do 
something about it. That is what you are asking to do in a 
program such as ours. We are looking at prevention.
    We have a Warrior Traditions Program which is designed 
specifically to outreach to the current group of warriors. It 
is a tough sell, I will tell you that. We are trying it in two 
locations around San Diego County. We have been at it now a 
little over a year. We are just beginning to earn their trust. 
It is a tough sell.
    But outreach is the name of the game. You want to prevent 
homelessness, you have to get to them before they become 
homeless. That sounds axiomatic. It is not as easy as it 
sounds.
    I want to speak just a moment about per diem. Our program 
could not exist without it, but it covers less than 50 percent 
of the cost of treatment and we scramble on a monthly basis to 
keep our doors open to find that other 50 percent. It would be 
very helpful to us if there was a cost-of-living, if you will, 
adjustment. As was said earlier, it costs more money in San 
Diego than it might in Kansas to run a similar program.
    How do we end it? I am not sure I know. When we started 
this over a quarter of a century ago, everybody thought we 
would be doing it for a few years, we would clean up the mess, 
get everybody off the beaches, from underneath the bridges, and 
then we would all go home. It did not work out that way and I 
do not think that it will.
    Permanent housing, I will say it again, permanent housing 
with services linked to an organization like ours is the 
answer, folks, permanent housing with services. The services 
will help bring a number of those folks into treatment over 
time.
    Statistics tell us that the combination of permanent 
housing with services will create the portal for a number of 
folks to finally decide wait a minute, I just do not want to 
live like this anymore and do something about it and get 
involved in a treatment program. And that, of course, is the 
whole reason why we are doing this.
    I want to thank you for the opportunity to testify this 
morning and look forward to your comments.
    [The prepared statement of Mr. Landis appears on p. 67.]
    The Chairman. Thank you.
    We thank all of you for your commitment and your energy. We 
also understand your frustration with trying to do a job that 
requires more resources.
    Mr. Hall, do you have any questions?

             OPENING STATEMENT OF HON. JOHN J. HALL

    Mr. Hall. Thank you, Mr. Chairman and Ranking Member 
Lamborn.
    And thank you to our panel for the work you do for our 
veterans and your service to our country.
    It is a shame on the face of this country that on any given 
night, somewhere upwards of 130,000 veterans, the numbers have 
changed a little bit as we hear the testimony and estimates are 
obviously just that, but at least 130,000 of our veterans who 
served this country in uniform and risked their lives and gave 
parts of their bodies and sacrificed a normal, what we would 
consider to be a normal life and comforts of home to defend our 
country and follow their orders find themselves on the streets 
and the alleyways of this country whether it is the beaches of 
San Diego or the heating grates of New York City or anywhere 
else.
    I would just say I do have a statement to enter for the 
record, Mr. Chairman.
    I just want to mention that because approximately 45 
percent of homeless veterans have, in some instances higher 
from your experience, have mental illnesses that I have 
introduced legislation to try to alleviate the burdens 
currently placed on veterans trying to gain disability 
benefits, particularly for PTSD.
    And the Subcommittee on Disability Assistance and Memorial 
Affairs will be marking up this legislation, the ``Combat PTSD 
Act,'' H.R. 952, later on this afternoon to try to make it 
automatic that a man or woman who serves in uniform and 
subsequently at any time after returning home has a diagnosis 
by a psychiatrist or a doctor that they do, in fact, have the 
symptoms that comprise a PTSD diagnosis will automatically be 
eligible not just for treatment but for compensation and not 
have to connect it to a particular incident or a particular 
battle or a particular attack or a particular medal.
    We know that the conflicts we are facing today are 
different than the ones we had in the past and I think that the 
VA should be and the country should be of the attitude that our 
veterans have done enough and should not have to prove that 
they are suffering and prove that they are traumatized after 
some of the things that they have done and seen and experienced 
that the rest of us who have not served may only be able to 
imagine, may not be able to imagine.
    So I thank you for your work.
    I have no questions and I will submit my statement. Yield 
back, Mr. Chairman.
    [The prepared statement of Congressman Hall appears on p. 
52.]
    The Chairman. Thank you, Mr. Hall.
    Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    I do not know where to begin. The testimony was fairly 
stark and I appreciate your honesty. I appreciate your hard 
work.
    One of the themes that was recurring was that the per diem 
needs to be increased. I think every single person on the panel 
said that much. So we will be looking at how to do that.
    A couple of things also stood out. Mr. Radcliff, I would 
like to ask how you advertise your programs, and maybe everyone 
on the panel can answer this, how widely known are the programs 
available to homeless vets? If you go out to a place where you 
see homeless vets, do they know what is available to them or 
how widely known is that and how easily can we get to them?
    Mr. Radcliff. As we know, they do not know typically. In 
fact, one of the dilemmas that exists is the returning veteran 
has no idea of this network of service. Marketing is a huge 
issue and, you know, there is really not a lot of money to pay 
for marketing.
    We try to connect with the veteran based upon where there 
is an active crisis that is happening. Typically it is a jail 
or it is a court hearing or it is a substance abuse dilemma or, 
you know, we are seeing the veteran during active crisis.
    Our marketing is very limited. We typically, as I mentioned 
before, we are barely thriving, we are barely surviving, let 
alone not thriving as community-based organizations. And we are 
used to living there. We are on the edge.
    Mr. McNerney. So how do you get in touch with a veteran 
that is having a crisis? Do the police contact you or----
    Mr. Radcliff. We usually work with local government 
entities to be referred veterans, yes. And in this case, we 
would have veterans who are in crisis, who are in jail.
    We are actually doing outreach now where we are seeing 
those veterans. We are referred. Local VA have homeless centers 
where veterans are referred to different programs depending on 
the veteran's needs.
    We do have a 1-800 number and we try to advertise that 
through street outreach. But typically the veteran finds us.
    Mr. McNerney. Is there a way we could be more effective? 
Does anyone want to take this? It does not have to be you, Mr. 
Radcliff. How can we be more effective in reaching out? And if 
we did contact veterans, would that be effective and would they 
respond to outreach on the street?
    The Chairman. Ms. Four.
    Ms. Four. I think one of the real integral parts of this is 
there is a connection between the VA and the city and 
municipalities, the government entity under which these 
programs fall, and that we also as nonprofits have a direct 
communication with those at the city level who are dealing with 
social services and their address of the homeless.
    Most social service arenas do not know the benefits and 
entitlements for veterans. They do not know what to do with the 
veterans and they certainly do not know how the VA works. That 
is one major thrust that is very important.
    I also see the VA enhancing the outreach of its programs 
and Grant and Per Diem as they communicate with other VAs and 
other VISNs on what programs are available for homeless in 
their area.
    In the case of Special Needs Grants, I will mention the 
women's program, that the VA actually has communication with 
all mental health directors and other directors of the mental 
health and domiciliary programs within the VA so that their 
homeless outreach team Members know of specific specialized 
programs for veterans that are homeless.
    Mr. Driscoll. I would like to add, if I could, when I talk 
about the VA community organization partnership, and I have 
seen this develop over 10 years, it is pretty incredible. Ten 
years ago, there were vet centers who would refer walk-ins to 
community resources as they existed at that time. But that 
number has increased dramatically over the last 10 years.
    The VA vet centers, every VA medical center has a homeless 
liaison who knows who in their communities provide transitional 
housing or lesser services.
    What is missing in my estimation, because once you have 
reached out and asked for help, there are referral systems that 
will get them to the organizations that can help them, what is 
missing in my mind is the person who realizes he has got 
stressors at work. He does not know what to do.
    And so the idea of public service announcements, you know, 
we see all of these advertisements about join the Army and join 
the Marines, and so obviously there can be Federal dollars 
spent to put out public announcements. And I believe that is 
what is missing.
    If I am marginal and I know I have stressors, but I am not 
sure exactly who I should turn to, it would be nice to see a 
message saying no matter what the need, you have earned this 
right, call this number, and then the VA resource call center 
takes over. And they are putting that together now and I meant 
to mention that in my testimony. That is a tremendous resource.
    Mr. McNerney. If the Chairman will allow Mr. Landis.
    Mr. Landis. In San Diego, Veterans Village truly has become 
a community resource. Of course, we have been working at this 
for a very long time. One of our partners, and we think in 
terms of the VA in San Diego as a partner truly with us, works 
with us on a daily basis. The VA representative from the 
hospital actually has an office in our facility and is there on 
a weekly basis.
    Outreach, outreach, outreach. It really falls to us as the 
providers of the services to create the avenues within the 
community.
    San Diego has created something called the United Veterans 
Council. The United Veterans Council is a group of all of the 
service providers, all of the veterans' organizations within 
San Diego that meet on a monthly basis. And, of course, our 
organization, outreach is through them as well to the homeless 
community.
    If you are a veteran and you live in San Diego and you are 
homeless or you are about to become homeless, I guarantee you 
you know about our organization. And then we are referred, we 
have referrals from every conceivable avenue within the 
community to our organization as well.
    Mr. McNerney. Thank you.
    I have exceeded my time. I thank the Chairman for allowing 
that.
    The Chairman. Thank you, Mr. McNerney.
    Mr. Teague.
    Mr. Teague. Yes. Thank you, Mr. Chairman and Ranking 
Member.
    I also thank the panel for what I thought was some very 
interesting comments.
    I am Harry Teague from New Mexico and while I was home on 
the Memorial break, we actually had dedication of a 20-room 
facility for homeless veterans, a transition home of sorts. So 
I am glad to see that more people and especially the nonprofits 
are coming to help us take care of this. You know, the VA 
cannot do it alone.
    But what I wanted to ask the Members of this panel, how do 
you feel that your individual programs define success in 
getting the veterans off the street and how do you measure 
that?
    Mr. Landis. Sir, if I can, it is pretty easy, sir. First 
you have to graduate the program and then we do follow-up. And 
we look 6 months and a year out and we try and contact our 
graduates at that point in time. We are fairly successful.
    And what we look for are benchmarks, no nights of 
homelessness, no days in prison. And I want to add that 50 
percent of our population at any one time comes to us from 
prison, which is a whole different subject. These are veterans.
    We want this individual to have a life-sustaining job, 
employment, and we help with that as well so when they leave us 
after a year of staying with us, they have a job, it is enough 
to support themselves. And we want them to engage with us and 
with our alumni groups as well.
    About 70 percent of those that graduate from the program 
have remained viable at the 6 month and a year mark.
    Chief Fann. If I could add to that, at Manna House, we 
basically do the same thing. We have a 2-year program, that 
they can stay there up to 2 years, but the average is about 6 
to 8 months.
    But we do a 2-year follow-up program with all of them for 2 
years after that in order to see that they are remaining in an 
apartment, permanent housing is the key, or they are back with 
their family, which is in a lot of cases at Manna House, we end 
up with many going back to their families. Once they have their 
lives back together, they can go back with their families and 
be in permanent housing. So we measure it that way.
    Mr. Radcliff. I would like to say also, Congressman, there 
are measurable objectives and goals that are provided with the 
funding that we certainly look at. You know, I would think that 
a veteran who is able to--we are finding out statistically that 
a third of those veterans are noncustodial fathers. As we start 
finding out the needs and the dilemmas that these veterans 
have, we try to identify and source programs to meet that need.
    So I would define success as long-term, you know, and 
various benchmarks, including income, housing, stability, you 
know, the ability to interact with their family, social support 
networks, and a long-term outcome that really says that the 
quality of life of that veteran has improved. That is done 
qualitatively and quantitatively.
    So those measurements exist. I think we are working with 
universities and research providers to really look at how much 
we are helping and how much we are impacting those lives.
    Mr. Teague. Yes.
    Ms. Four. Yes. We are all sort of working in the same arena 
and do those same kinds of things. But the other thing that we 
also track is their ability to remain within their treatment 
regimes, their ability to stay on their medications, their 
ability to handle their own daily living construct.
    Someone would say this may not be very positive, but even 
when we do have veterans who leave the program for one reason 
or another, especially if it is a recovery issue, we find that 
they come back into a program much quicker. They do not fall as 
far because they have seen life from the other side. So, in 
fact, in our minds, this is also a positive outcome of the 
program.
    I would add that, too, not all of them make it and some of 
them will ever make it. It is their choice. Our programs 
emphasize that all actions produce consequences, whether that 
is positive or negative, and they understand that.
    Mr. Teague. Okay. Thank you for your response.
    Thank you, sir.
    The Chairman. Thank you, Mr. Teague.
    Mrs. Halvorson.
    Mrs. Halvorson. Thank you, Mr. Chairman.
    And, panelists, thank you so much for being here.
    During our break, I held several roundtables and one of 
them I held were with not only some veterans' assistants, not 
for profits or people that helped, but also my area agencies on 
aging and people that help with homelessness in general, and 
they all want to help.
    And some of the problems they see are the veterans that do 
not want to be helped. They cannot get them to come into their 
places, their shelters. They want to be homeless. They do not 
trust anybody.
    How do we help those who do not want to be helped and do 
you have any sort of things that you would suggest that we do?
    Mr. Driscoll. I would like to answer that and then yield to 
the direct service providers.
    This is the one of the things in the Grant and Per Diem 
Program that has maybe not flourished the way it might were 
there more funding and why we asked for the $200 million.
    Allowable under Grant and Per Diem is the drop-in center, 
and Marsha had mentioned that. Not everybody is ready to go 
into a housing program. In a lot of places, there is no 
capacity. Even once you present yourself and ask for help, 
there is no bed for you.
    And then, yes, questions of trust. When somebody has lost 
everything and they are not sure who to turn to, it takes a 
long time to get that trust back sometimes.
    The drop-in center is ideal for that outreach because it 
allows the client to start the resocialization process at their 
pace and each time they walk in that door and get a meal, get a 
shower, or get a counseling session, that they are not even 
aware that is what is happening, that trust starts to build. 
That is the center for referral to more stable services and 
housing and other supports.
    So that is one of the functions that needs to be increased 
under Grant and Per Diem, I would submit, and also the other 
allowable thing is the vans, mobile service vans that go into 
rural areas or into encampments where veterans feel comfortable 
with each other but nobody on the outside. Once you develop 
that trust on that mobile center coming out and talking to you 
on your terms, that is another way to bring those folks into 
the service delivery system.
    Mr. Radcliff. I would also like to express that that 
dilemma exists with the returning veterans also. They do not 
want to be identified as having problems and oftentimes kind of 
live on the periphery in kind of this rebellious state. And 
that is probably the hardest veteran to interact with and 
engage into a process that is going to help them, you know, get 
housing, to get quality of life issues addressed. Those are 
difficult.
    We do have outreach that is performed by veterans who, you 
know, that the adage that there is nothing more therapeutic 
than another one helping another one. Certainly that applies in 
this case.
    Service center is one of the best interventions that I know 
of that exists, but at the same time, it is veterans 
outreaching to other veterans and kind of that connection, that 
trust factor that grows, and then having resources. You know, 
sometimes it is just giving a lunch. Sometimes it is banding 
together at stand-downs. Sometimes it is banding together at 
functions where veterans gather.
    Mrs. Halvorson. But these are people living on the street, 
have no place to go, and they have to find that.
    Mr. Radcliff. Yes. And our street outreach is probably the 
best connection to doing that.
    Mrs. Halvorson. And that is everywhere?
    Mr. Radcliff. No, it is not everywhere. No. I would suggest 
that in your area that there would be a community-based 
organization that would do street outreach to those veterans 
and utilizing veterans. I think that the vet peer-to-peer type 
counseling is the best intervention.
    Mr. Landis. If I may, with the younger veteran population 
which we are beginning to treat at our center, we find that not 
surprisingly they hit and then bounce out. And a lot of what 
was just spoken is certainly true.
    And in discussing this with other veteran providers across 
the country, it seems to be a trend. Part of it, I think, is 
the fact that they are just young. You know, they are in their 
early twenties. They do not want to admit to themselves or 
anybody else that they have a problem. They are not really 
homeless because they have a car, right? They are not really 
homeless because they can sleep under a bridge. It is a 
mindset.
    Plus this generation brings with them their own unique set 
of issues which are going to be different than my generation.
    Our model at Veterans Village was established over a long 
period of time and designed specifically for the Vietnam 
veteran, my generation, you know, with the cluster of issues 
that we brought to the table.
    They bring the same cluster of issues plus. They have TBI, 
different generation. They have a completely different way of 
communicating than we had. We had to adjust that.
    They live in a world of instant gratification, of gains. 
You win or you lose. You are playing the game. It goes quickly.
    They also have a sense of entitlement which is a little bit 
out of whack with reality and a sense that it can be fixed. I 
can fix anything. I can do it right now. There is nothing wrong 
with me. I am here 3 weeks. I am ready to get out of here.
    What we feel we are going to see is this going on for a 
number of years and then perhaps 5 years from now, 10 years 
from now, 15 years from now when these men and women, I want to 
add women, are in their thirties and forties and have run out 
of excuses, run out of friends, run out of money, run out of 
relatives and living on the street, in and out of shelters, 
cannot hold a job, that is when we are going to see them.
    I would hate that 10 years from now when the service 
providers begin to see a flood of folks like this that there is 
no money for it because it will not be popular anymore. Nobody 
is going to want to hold hearings about it, talk about it. That 
is when I think the service providers around this country are 
going to start to be hit.
    Mrs. Halvorson. Thank you all.
    I yield back.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    We have touched on success earlier in response to a 
previous question. Can any of you tell me what the long-term 
success rate is for your graduates?
    Mr. Radcliff. I will comment on that because it varies and 
it varies depending on the population we are looking at.
    We have some fixed-income veterans who have remained at 
some of our facilities for more than 7 years. Their quality of 
life and their income is such that they will not be 
transitioning to other places. They like being there with other 
veterans. They for some reason like telling war stories. They 
trust the environment in which they live and they do not want 
to transition.
    So those veterans remain with us and their income is not 
going to go up very much, you know. So with those veterans, we 
would measure quality of life issues. Are they engaging? Do 
they have a social support network? Is there family? Do they 
have activities in their life? Are they giving back to veterans 
that are in the process?
    So those measurements are different from the veteran who is 
looking at gaining employment. Employment and I think any one 
of our agencies can say that we have probably an 80 to 85 
percent placement rate into employment of the veterans that we 
see.
    If you are looking at, you know, a younger veteran, that is 
going to change because they are going to go through career 
changes. The average person loses employment or changes 
employment every so often. So we measure that based upon, you 
know, retention, placement, wage at placement.
    We do follow-up services a year, 18 months afterward. And 
so those figures drop off a little bit as you look out long and 
as you start really reviewing longevity.
    Additionally, you know, we have female veterans who require 
extremely long lengths of stay. And you measure that. Are they 
reunifying with their children if they have children that are 
in the system? Are they reengaging in housing that is outside 
of our housing and getting into permanent housing? So there are 
various ways to measure based upon the veteran's desires and 
outcomes and needs.
    Mr. Lamborn. Okay. Thank you.
    Mr. Radcliff. Yes, sir.
    Mr. Lamborn. Does anyone else have a figure or statistic on 
that?
    Ms. Four. Yes. I have a 95-bed male veteran program also. 
And somewhere around 72 percent actually leave the program 
having completed it and the other 28 percent have left either 
because they were not able to follow the policies and 
procedures of the program or because they had used drugs or 
alcohol.
    Even of those who left having used drugs or alcohol or for 
not following program protocols, less than 4 percent have not 
had a job. Most are able to find a place to live because they 
had been employed, they had been saving money because it is 
part of the program to have a savings plan. We begin the 
process of discharge as soon as they come into the program.
    So a successful discharge is an ongoing process.
    Looking at the employment issue, residents are all employed 
if they are employable. If they are not and have a disability 
or have no income, we work with them to get either service-
connected disability, VA nonservice-connected pension, or 
Social Security interventions. And so they all leave the 
program with some type of income.
    Mr. Lamborn. Okay. Thank you.
    Now, can I assume that all of you have separate facilities 
for homeless women veterans?
    Mr. Radcliff. We do not necessarily have separate 
facilities, but they are encompassed in some of our programs. 
So depending on the stage, you know, transitional or long-term 
permanent housing, oftentimes you will see women veterans in a 
co-ed facility.
    Early on when they are going through the treatment process, 
you probably want to separate out the women veterans. Their 
needs are unique and the resources are unique. So we do have 
female veteran programs that are both at permanent housing and 
programmatically.
    Ms. Four. I believe, sir, that there are very few programs 
in the country that are set up and designed specifically for 
homeless women veterans that are separate. One of the problems 
that we have run into in a mixed-gender setting is sort of 
twofold.
    One, the women veterans do not have the opportunity to 
actually be in a separate group therapy environment because 
there are many issues that they simply will not divulge in 
mixed-gender populations. And so those issues are never 
attended to.
    The other is, we believe that in a program, you need to 
focus on yourself. And this is the time and place to do your 
issue deal. In a mixed-gender program, there are too many, let 
us say, other interfering factors. Relationships are one of 
them.
    Many of the veterans, too, come from the streets and so 
there is a lot of street behavior going on. Some of the women 
and men, have participated in prostitution and so this is a 
difficult setting for any of them to actually focus on 
themselves without having all of these other stressors come 
into play. So we feel that is an important issue.
    Mr. Lamborn. Okay. Thank you.
    And with the Chairman's indulgence, could I ask one more 
question?
    The Chairman. Yes.
    Mr. Lamborn. Okay. Thank you.
    Do any of you charge any type of service fee or co-payment 
to those who are receiving service-connected compensation?
    Mr. Radcliff. Yes, sir. We talked about sober housing, zero 
tolerance. We talked about kind of the regulatory discipline 
environments which we have and operate at each of our programs.
    One of the key factors is the sense of community and 
ownership in your own recovery. Most of these veterans want to 
participate.
    In fact, we operate a 500-bed program in Inglewood, 
California, near the airport. Veterans who are going through 
our programs when they are required to pay their program rents, 
I think this is the first time that they are beginning to pay 
any part of a productive process. And they cannot wait to come 
and pay and then tell our staff what to do. You know, there is 
a sense of pride and ownership that comes with that and dignity 
that comes with that.
    The issue is clearly for me that someone who can should.
    Ms. Four. I think the other side to that, too, is, and I 
agree with everything that Mr. Radcliff says, but the real 
dollar and cents part of it is that the nonprofits could not 
live if there was not some other income coming to them in order 
to hire the staff that is necessary for these complex programs. 
That is another added issue.
    Mr. Lamborn. Okay. Thank you all for your answers and for 
your testimony and even more than that for the work that you 
do. I appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just some quick questions, if I may. Do I understand 
correctly that in the Grant and Per Diem Program, you are only 
eligible if you have a majority of veterans in your facility? 
Is that correct?
    Mr. Radcliff. That is correct. I think Grant and Per Diem 
allows for up to 25 of the beds to be used for nonveterans.
    The Chairman. Should that follow the veteran rather than 
the facility?
    Mr. Radcliff. Possibly.
    The Chairman. Okay, thank you. We have some major providers 
in San Diego who may only be serving a 25 or 30 percent group 
of veterans. They do not get any other per diem as I understand 
it.
    Mr. Radcliff. That is correct.
    The Chairman. Can you all give me your gut reaction? We all 
know the NIMBYism [Not In My Back Yard] that comes to housing 
homeless people. Mr. Landis talked about when his operation was 
established in the eighties. I was on the City Council then and 
it was hard to find a place to establish the facility.
    Has anyone thought about building permanent or transitional 
housing on VA property, perhaps near a medical center? In 
general the NIMBY issues would be greatly reduced, and you 
would have the medical attention right there on the campus. Has 
anyone dealt with that issue, or tried, or thought about it?
    Mr. Radcliff. Well, you know, Mr. Chairman, I have. And our 
organization elected to not. The VA was in an RFP process and I 
think they have awarded that to provide permanent housing on-
site in a building that would require almost $300 a square foot 
of renovation in a historical building, on a historical 
setting, on those historical grounds.
    I think it is a good use of the land. I am not sure that it 
is the most easiest thing to do in that type of arena where you 
have to pay for, you know, all the historical retrofitting and 
preservation. It was too expensive for us.
    The Chairman. In that setting, okay.
    Mr. Driscoll. I know the VA has an enhanced use lease, 
mission-driven policy that they put into effect in the last 
couple years. The idea was to streamline the enhanced use lease 
program which some of you already have those things. But they 
identified about 45 VA campuses that have surplus properties 
suitable for use for homeless services and they are bringing 
those RFPs up online and requesting----
    The Chairman. How many actually have been let?
    Mr. Driscoll. So far, I believe the number is eight or 
nine. I am sure the VA team will address that. But up to 45, I 
believe, are going to be in the works.
    The Chairman. That is good.
    Have you had success in taking some of the VA benefits 
folks into the streets with you to help those people? Is that 
easy or hard? Is that done or not done?
    Mr. Radcliff. Not done with us. We typically do not perform 
side-by-side outreach or in-reach for that matter. The benefit 
staff, you know, I just hear they are overwhelmed and I know 
that there are some dilemmas there.
    And what the Veterans Service Organizations (VSOs), the 
Disabled American Veterans (DAV), and Vietnam Veterans of 
America and American Legion, you know, there is almost a dying 
breed of the VSOs doing that intervention for you. There is a 
need to really buff it up.
    The Chairman. I do not know. The homeless liaison that 
somebody mentioned, is that generally a full-time position?
    Mr. Radcliff. That is a full-time position.
    Ms. Four. I believe it is a full-time position.
    The Chairman. At each of the medical centers?
    Ms. Four. In Philadelphia, sir, we have a very close 
relationship with the Regional Office Homeless outreach person. 
I mentioned earlier, a day service center. We have a fairly 
large one under Grant and Per Diem in Philadelphia. That 
representative comes to the service center once a week and also 
goes out onto the local streets and the shelter areas actively 
looking for the veterans also.
    The Chairman. Again, I thank you all for your commitment. I 
know you have a lot of frustration.
    I was at the first stand-down that Mr. Landis mentioned in 
San Diego and I will tell you what you see there is incredible 
cooperation and a sense of commitment but also knowledge that 
this is a comprehensive solution. You have to bring everything 
to bear.
    I will tell you that at the last five or six stand-downs I 
have been to, I give the same speech. I tell everyone that I am 
sick of coming to stand-downs. We know what to do. Why are we 
not doing it 365 days a year?
    I do not understand why we focus all of our attention on 
just 3 days when we should be using our resources every day of 
the year. We are the richest Nation in the history of the 
world. This problem is not insoluble. You all do so much and, 
you have little successes relative to the big problem, but we 
should be able to solve this in my opinion.
    The VA Secretary has said to me that it is a top priority 
with him and we are going to set a goal of zero just so we have 
that goal. And I hope that working with all of you, we can get 
as close to that as possible.
    Thank you so much.
    Ms. Four. Thank you, Mr. Chairman.
    Mr. Radcliff. Thank you, Mr. Chairman.
    Mr. Driscoll. Thank you, sir.
    The Chairman. We appreciate your being here.
    Panel two, if you will come forward. We have the Secretary 
of the Illinois Department of Human Services (DHS), Carol 
Adams; the Commissioner of the New York City Department of 
Homeless Services, Robert Hess; accompanied by Ronald Marte, a 
veteran from the Iraq War, who has benefited, in fact, from the 
New York City Homeless Program.
    We thank you for your testimony, for you being here, and we 
look forward to hearing from you. Dr. Adams, please proceed.

   STATEMENTS OF CAROL L. ADAMS, PH.D., SECRETARY, ILLINOIS 
DEPARTMENT OF HUMAN SERVICES; AND ROBERT V. HESS, COMMISSIONER, 
 NEW YORK CITY DEPARTMENT OF HOMELESS SERVICES, NEW YORK, NY, 
        ACCOMPANIED BY RONALD MARTE, BRONX, NY (VETERAN)

               STATEMENT OF CAROL L. ADAMS, PH.D.

    Dr. Adams. Good morning, Mr. Chairman and Honorable Members 
of the Committee. I bring greetings from Honorable Patrick 
Quinn, Governor of Illinois, and the State's 13 million 
citizens.
    It is an honor to appear before you today to speak about 
the efforts of the Illinois Department of Human Services to 
serve homeless people in the State, including our veterans of 
whom we are very proud.
    These data that I present today represent numbers from the 
State fiscal year 2008, our most current accounting.
    In 2008, the Illinois Department of Human Services 
Emergency Food and Shelter Program served 45,418 people who 
were actually living in shelters. This number does not include 
people who do not access shelters, people who are living with 
friends and relatives, nor does it include people who receive 
services in other facilities.
    That same year, there were 12,441 households served by the 
Illinois Department of Human Services Homeless Prevention 
Program. Sixty-five percent of all households served that year 
were families defined as any household with children under the 
age of 18.
    The total number of homeless veterans served was 2,562 
people or 5.64 percent. Ninety-four percent of homeless people 
served were not veterans.
    Our Homeless Prevention Program is designed to help 
stabilize people and families in their existing homes, decrease 
the amount of time that they live in shelters, or help 
individuals and families secure affordable housing.
    Our program includes rental and/or mortgage assistance, 
security deposit assistance, payment of utility bills, to bring 
legal services to people who are involved with illegal 
evictions, rental or mortgage arrears paid in the amount 
established as necessary to defeat eviction or foreclosure. 
This payment must not exceed 3 months of rental or mortgage 
arrears, security deposits not to exceed 2 months' rent, and 
bringing utility payments current, also supportive services 
where appropriate for the prevention of homelessness or 
repeated episodes of homelessness.
    Prior to 1999, people who were at risk of homelessness with 
us would have been referred to a shelter or to a short-term 
stay for a hotel. But we found that it was much more cost 
effective for us and preserve family self-respect and help keep 
families intact if we could invest our resources in homeless 
prevention rather than assistance after the fact.
    So the ``Illinois Homeless Prevention Act'' was signed into 
law in December 1999 and it allowed for maximum flexibility of 
the various localities within the State, minimum income 
restrictions, and various kinds of assistance, broad 
definitions of allowable uses.
    People eligible for assistance from our Homeless Prevention 
Program includes again-households that are in imminent danger 
of eviction, foreclosure or homelessness, or currently 
homeless.
    Applicants for this service must document temporary 
economic crisis beyond their control such as loss of 
employment, medical disability or emergency, loss or delay of 
some form of public benefit, a natural disaster, substantial 
changes in household composition, victimization by criminal 
activity, illegal actions by a landlord, displacement by 
government, private action, or some other condition.
    Homeless veterans or veterans at risk of homelessness can 
apply for homelessness prevention funds. The State of Illinois 
does not have a specific set-aside for veterans. Our Homeless 
Prevention Program is also administered by a network called the 
Illinois Continuum of Care Systems. This was developed by HUD 
and it is a network that helps people who are or who have been 
homeless or who are at imminent risk of homelessness.
    In Illinois, there are 21 Continuum of Care and they serve 
the State's 102 counties and work to fulfill the needs of 
homeless people.
    The network addresses problems of homelessness by providing 
comprehensive service delivery from emergency shelters to 
permanent housing. Its strong prevention strategy provides 
seamless services to help people achieve independent living.
    When this program first started in 2000, it was funded 
through TANF dollars to the tune of only $1 million. This past 
year, it was funded to the tune of $11 million through a 
dedicated fund called the Affordable Housing Trust Fund.
    In 2000, a mere 221 households were serviced at an average 
cost of $450. But by, say, fiscal year 2008, 12,500 households 
were served with the average cost per household of $883. That 
represents about 8,100 families.
    Fiscal year 2007 was a peak year with the highest number of 
services provided when nearly 10,000 households received rental 
assistance. Twenty-five hundred households received utilities 
assistance. Security deposits were paid for 2,500 and 
supportive services related to illegal evictions were provided 
to over 100,000 families.
    By 2008, rental assistance had declined a little, but we 
are again experiencing in 2009 an increase in the numbers of 
people who are looking for this assistance.
    Without question, our Homeless Prevention Program has been 
successful. Prevention is cost effective. The program services 
an average of 700 households per continuum and there are 21 
continua in the State.
    The program has promoted permanent housing options. Eighty-
six percent of all households served in 2008 were still housed 
6 months later at the end of the fiscal year.
    On average, 70 percent of participating households retain 
their current housing while 22 percent move into other 
permanent housing. Nine percent of those served are able to 
move from emergency shelters into permanent housing.
    The Illinois Department of Human Services conducts an 
annual evaluation measuring the effectiveness of the Homeless 
Prevention Program and its overall impact on reducing 
homelessness via a comprehensive follow-up strategy. It 
requires a 6-month follow-up to be conducted with every 
household served to help determine if participants are 
maintaining independent living and self-sufficiency.
    In addition to the families that are served through our 
Homeless Prevention Program, the Illinois Department of 
Veterans Affairs also provides permanent beds at the veterans 
home in Manteno.
    They also serve through a lottery ticket called Vets Cash. 
We raise additional money to provide services for veterans. In 
3 years, that has been close to $7 million and about a sixth of 
that has been used for homeless prevention, the rest for a 
range of other services for veterans. So that also has been 
very helpful.
    We think we have a unique opportunity to collaborate and 
coordinate our prevention funds with those that we will receive 
from HUD through the ``American Recovery and Reinvestment Act'' 
(ARRA) for the 2009 program. Working with the Illinois 
Department of Commerce and Community Affairs, we think we can 
fill in gaps that are not covered by that program.
    Specifically HUD's ARRA prevention funds cannot be used for 
mortgage assistance, but our funds can. People who may have 
fallen behind on their mortgage for up to 3 months can get 
assistance through DHS.
    Very often we see participants that fall behind on their 
mortgage due to illness or a loss of a job or any other 
condition. And we can step in and assist them. And once this 
assistance is provided, they can continue to pay their 
mortgage.
    By coordinating with the ARRA prevention funds, 
participants can also receive rental assistance for an extended 
period of time. So we think that working together, we can help 
to fill in gaps and service more people.
    So on behalf of the people of the State, we are grateful to 
have had this opportunity to share information with you about 
the Homeless Prevention Program in Illinois and the successes 
we have managed to achieve.
    [The prepared statement of Dr. Adams appears on p. 69.]
    Mr. Snyder [presiding]. Thank you, Dr. Adams, and thank 
you.
    Before we go to Mr. Hess, what was your Ph.D. in?
    Dr. Adams. Sociology.
    Mr. Snyder. Sociology?
    Dr. Adams. Yes.
    Mr. Snyder. I should have guessed that maybe. Thank you.
    Mr. Hess.

                  STATEMENT OF ROBERT V. HESS

    Mr. Hess. Good morning, Chairperson and Members of the 
Committee on Veterans' Affairs. My name is Rob Hess. I am the 
Commissioner of the New York City Department of Homeless 
Services.
    Thank you for inviting me here to share with you innovative 
strategies that New York City is using to end veterans' 
homelessness.
    I am pleased to join my colleague, Secretary Carol Adams of 
Illinois, and Members of the other panels from around the 
country. And I am heartened by their dedication to serving the 
unique needs of homeless veterans.
    Joining me here at the table is a true hero, Ronald Marte. 
Ronald returned to us after a tour of duty in Iraq where he 
served as an Army Communication Specialist. He recently moved 
from a shelter to a home of his own with the assistance of the 
Veteran Affairs supportive housing voucher and is living a life 
of independence. I am more proud of him than I can say with 
words.
    As a veteran myself, I speak from personal experience when 
I say that we have to do everything we can to ensure that the 
men and women who served their country receive the housing, the 
services and supports they need, and are treated with the 
dignity and respect they deserve.
    I would like to take this opportunity to applaud the 
leadership of President Obama, Secretary Shinseki on this 
issue. As you know, they have set the ambitious goal of 
preventing and ending veterans' homelessness for the 
approximately 150,000 homeless veterans living in this country 
on any given day. And this is the right goal for our country.
    I believe this because in New York City, we are already 
starting to see the success that is possible when there is a 
strong partnership between the United States Department of 
Veterans Affairs, the local VA offices, and local leaders. This 
is an issue that I am passionate about. As someone who has 
spent my entire career advocating for creating policy and 
talking one on one with homeless veterans, we cannot stand by 
and allow our fellow veterans who have served and fought for 
our country to live on our streets or to call a shelter a home.
    In New York City, we are continuously moving toward meeting 
our goal of ending homelessness for veterans. In fact, from 
December 2006 to May 2009, we have reduced the number of 
veterans living in our city's shelters by 60 percent. We have 
done this by creating new short-term housing models and other 
innovative strategies to better serve homeless veterans.
    However, I would not be able to stand before this Committee 
today and tell you of this great success had it not been for 
the shared commitment of New York City Mayor Michael Bloomberg 
and then U.S. Department of Veterans Affairs Secretary James 
Nicholson.
    In December 2006, they created the Operation Home Task 
Force and charged it with creating the blueprint for a new 
veterans' service system, a dedicated service system outside 
the traditional homeless service system to meet the unique 
needs of homeless veterans and tie them to the rich array of 
resources already provided by the VA.
    We were ultimately successful in creating our new veterans' 
service system because of the partnership between the Federal 
and local VA and the city that this fostered. However, another 
key to our success was the creation of specific and measurable 
goals that would transform services for homeless veterans, ones 
that we continuously held ourselves accountable for.
    One tangible first step was an intense effort to house 100 
veterans in 100 days. We did not waste a second. As we worked 
to develop the blueprint, we took the immediate action to 
permanently house homeless veterans. Much of the lessons we 
learned during this time helped shape our vision and focus for 
the new system.
    I am happy to report to this Committee that we not only 
exceeded our goal by housing 135 veterans during the first 100 
days, but since then, we have helped to move over 1,900 
veterans from temporary shelter into permanent housing, into 
their own homes.
    The system we created now includes a multi-service center, 
which serves as a single point of intake of access for homeless 
veterans and for those at risk of becoming the homeless. The 
center has been up and running since May 2008. It integrates 
DHS intake services exclusively for homeless veterans with 
access to medical, mental health, and substance abuse treatment 
available through the VA medical system, as well as housing and 
other support and benefit services. The center also makes 
available preventative services needed to divert those veterans 
who are at risk of becoming homeless.
    To date, over 1,066 homeless veterans have been served by 
this program. We will soon open the first veteran-specific safe 
haven, a low-threshold, harm-reduction housing model that has 
proven to be the most effective tool for engaging street 
homeless clients.
    Once veterans are placed in the safe haven, they will have 
access to on-site social services and other supports offered 
through the VA and various nonprofit partners.
    New York City's efforts to end veterans' homelessness have 
also been strengthened by the U.S. Department of Housing and 
Urban Development's Veterans Affairs Supportive Housing Program 
or HUD-VASH. New York City received $9.4 million of this 
funding to permanently house 1,000 homeless veterans with HUD-
VASH vouchers. I am happy to report that as of May 1st, 2009, 
the city has distributed 701 of these vouchers.
    I would like to take this opportunity to thank you and your 
colleagues, Mr. Chairman, for their past commitment to this 
important funding stream. Ending veterans' homelessness is the 
right goal for New York City and the right goal for our Nation. 
We all can do this. But as in the case of New York City, it 
will take a strong partnership between both the Federal and 
local VA and jurisdictional leaders.
    I realize that what works in New York City will not work 
everywhere. There cannot be a one-size-fits-all approach. What 
works in New York City may not work, for example, in Killeen, 
Texas. And so those Federal, local relationships will need to 
be developed with flexibility to the needs of each individual 
locality and allow them to create their own specific and 
measurable objectives to drive their success. The key component 
here is that as a locality, we need a strong Federal partner to 
help us bring our initiatives to scale if we are to truly end 
veterans' homelessness. Our continued progress in housing and 
better serving the needs of homeless veterans is a true 
testament to our strong partnership with both the local and 
national VA. Without their collaboration from the beginning, 
the system transformation would not have been possible.
    Once fully implemented, we believe that this system will 
serve as a national model for permanently ending veterans' 
homelessness.
    I thank you for the opportunity again to be here today and 
to answer any questions you may have. Thank you.
    [The prepared statement of Mr. Hess appears on p. 72.]
    The Chairman [presiding]. Thank you so much.
    Mr. Marte, I understand you served a tour in Iraq in the 
Army.
    Mr. Marte. Yes, sir.
    The Chairman. We appreciate your service. You were 
mentioned as a success story. Would you tell us a little bit 
about what----
    Mr. Marte. It was quite a journey----
    The Chairman [continuing]. How you--what happened to you?
    Mr. Marte [continuing]. To have a problem and now I am 
living proof of the solution. I am very grateful for the 
opportunity and it is priceless. Like I told Mr. Hess, you 
know, it gives you confidence, you know, to have your own 
place, and to go do your priorities in life.
    The Chairman. Could you tell us what was the key thing in 
turning your life around?
    Mr. Marte. You have to get over the pride, it is a big 
factor, you know, and ask for help. Being in that situation is 
not quite comfortable. And after that, you know, you have to go 
and do one better for yourself. And it plays a big factor. Go 
over those steps, you know. And after you achieve that, then it 
makes it kind of easy. It is easier from there.
    The Chairman. Habla Espanol?
    Mr. Marte. Yes, sir.
    The Chairman. Si. Waguyo, si?
    Mr. Marte. Yeah. Waguyo play a big factor.
    The Chairman. How did you even know about the program that 
was described here?
    Mr. Marte. Well, when I came from Iraq, I became homeless 
and I went through the shelter process and eventually ended up 
in their residence in Queens, New York. And that is how I met 
Mr. Hess, through an interview they did over there. And after 
that, I am here.
    Mr. Snyder. Mr. Chairman.
    The Chairman. Please.
    Mr. Snyder. May we ask. You said I became homeless. I would 
like to hear just one veteran's story about----
    The Chairman. Ask him.
    Mr. Snyder [continuing]. What happened that led you to 
become homeless if you are willing to share that story?
    Mr. Marte. I have a lot of family. I just did not want to 
ask for help then. You know, I wanted to do it on my own and 
one thing led to another, you know, bad choices I did while I 
was in the military, saving and doing, you know, what I was 
supposed to do. And eventually----
    Mr. Snyder. Once you got back, you did not have some money 
to sustain you?
    Mr. Marte. Exactly.
    Mr. Snyder. And difficulty finding a job?
    Mr. Marte. Exactly.
    The Chairman. We thank you again for your service and for 
your courage and talking about what is going on here.
    Are there additional questions, Mr. Snyder?
    Mr. Snyder. Dr. Adams, I am going to pick on you because 
you told me you have a Ph.D. in sociology. Chairman Filner 
likes people with Ph.D.s, by the way, so you are in good 
company.
    We have heard from several people today and others to come 
of different programs. Put on your scientific researcher hat 
here. How do we evaluate what is successful beyond anecdotal 
reports that we are helping a lot of people? How do we evaluate 
what works more effectively than doing nothing? How do we 
evaluate what works, that gets the best bang for the buck? How 
do we evaluate comparing one program to another when there are 
such a variety of programs that are set in such different 
geographic areas?
    Dr. Adams. Okay. That is several questions. But, first of 
all, just to evaluate the efficacy of a single program, what is 
most important is the follow-up because it is not just the 
help, but does it really do the job. If we find that over and 
over again we have to keep doing the same thing, something is 
missing in the array of services.
    So we do follow-up on the people who participate in our 
program to make certain they have continued to be homeless, 
that the short-term help that we gave was enough to keep them 
housed and so forth.
    Ongoing evaluation is what lets you know if there are 
problems in your program that you need to tweak. For example, 
our program in order for us to give the assistance for you to 
stay in your home, we have to be assured that after our 
assistance you can continue to stay there. So we have other 
supportive services like financial counseling and what have you 
associated with it.
    Now, to your other point, how do you tell if one program 
works better than the other, that is going to require some 
comparative research where you look at the kind of family or 
the kind of individual that has a similar kind of issue and see 
which track seems to work best for that setting and you have to 
sort of look at it over time.
    Most of the time----
    Mr. Snyder. We do not do that.
    Dr. Adams [continuing]. There is a little money. Most of 
the time, the dollars are such that----
    Mr. Snyder. We do not do comparative research----
    Dr. Adams. Exactly.
    Mr. Snyder [continuing]. Because it is not cheap research. 
I mean----
    Dr. Adams. It is expensive and it is longitudinal.
    Mr. Snyder. And it is longitudinal. But over the long term, 
it might save us money if we were to do good comparative 
research.
    I am a family practice doctor and when we talk about 
preventive care, we have figured out that we are better at 
research in this country on what is the latest gadget or what 
is the latest drug. We are not so good on what is the best 
delivery system for getting things out there. But that requires 
some longitudinal comparative research.
    Dr. Adams. Right.
    Mr. Snyder. And it is not cheap either.
    Dr. Adams. No doubt about it. It saves us money in the long 
run. But when you have challenges around budgets, I mean, I am 
looking at my agency with the challenges that we have and the 
first thing that is going to get cut is evaluation and training 
because you have to stick to the core mission of providing the 
service.
    Mr. Snyder. All right. Thank you, Mr. Chairman.
    The Chairman. Do you want to add anything?
    Mr. Hess. I would just say, Mr. Chairman, that I think one 
of the most important things we can do is set clear and 
measurable goals from the beginning. And so in New York City, 
the Mayor has been very clear. It is our job to see that we get 
to a point where no veteran needs to sleep on the streets of 
our city and no veteran needs to sleep in a shelter in our 
city, that we need to create a system that provides all the 
support that our veterans need and helps them move as quickly 
as possible, as in Ronald's case, into permanent housing and 
see that we provide the supports that people need in permanent 
housing, not in shelter and not on the street.
    And so with that kind of clear and measurable objective, I 
think it is easier for us to determine our level of success.
    Mr. Snyder. Mr. Hess, you are very familiar with Mr. Marte 
and other veterans. It sounds from his brief description of 
where he started having problems that it was very quickly after 
he got back home.
    Do you see things that the military could be doing that 
would perhaps set these folks up for a lower rate of trouble as 
far as homelessness or stability in the community?
    Mr. Hess. I think it is difficult, Congressman. I mean, I 
remember as a young veteran in my last days on active duty, I 
really did not listen too closely to the information that 
people were trying to convey to me about services that would be 
available after I left the military.
    And I suspect that that has not changed a great deal. When 
you get down to those last few days and hours, you are ready to 
move on. And it is not until sometime later that you may 
realize that you are in need of some support.
    And so I think the key for us is figuring out how, through 
our outreach teams and through our general communication--in 
New York City, we use 311 a lot, but we also do advertising and 
community service and other things to convey the message to 
folks that if you need help, we are here to help you and this 
is how you can access services.
    And so I think it is more on us at the local level than it 
is on the military side. I think the military does a better job 
today than it did 30 years ago and the VA certainly does a 
better job today than it did 30 years ago on communicating the 
services that are available and providing those services in a 
way that veterans are more likely to accept.
    But I think it really comes down to local jurisdictions 
reaching out as well and making those connections in 
partnership with the VA.
    The Chairman. I wonder if you are letting the military off 
too easy. There must be risk factors that you all could list 
that people could be looking for before a servicemember is 
released from the Armed Forces.
    I assume there is a correlation on mental health and 
homelessness, right? I could think there must be.
    Mr. Hess. Yes.
    The Chairman. So, I mean, if we were dealing with the 
issues of mental health before they were discharged, would that 
not be of big importance to help you all? It would prevent----
    Mr. Hess. No. Good question. Good question, Mr. Chairman. 
To the extent that mental health issues can be identified prior 
to discharge and a treatment regimen started prior to 
discharge, that is very helpful and that would make it less 
likely that folks would experience some of the problems and 
difficulties they experience.
    The Chairman. I think that is key to so many things. As I 
understand it, and I may be wrong in some of the details, but 
there is not a mandatory evaluation by competent medical 
personnel. There is no required----
    Mr. Hess. Uh-huh.
    The Chairman [continuing]. Evaluation for mental health 
issues or for brain injury, before most of our soldiers leave 
the Armed Forces. It seems to me that when you are in the Armed 
Forces, mandatory can be accomplished.
    Mr. Hess. That is certainly true.
    The Chairman. You can tell a servicemember that they are 
not being discharged until we have this evaluation. It would 
seem to me that this would not only save a whole lot of 
problems for families and communities from domestic violence to 
homicides, but it would give a head start on dealing with the 
situation you have to deal with.
    Mr. Hess. That is certainly true.
    The Chairman. By the way, everybody I see behind you is 
shaking their heads yes. So I am taking their cue that I am on 
the right track.
    Mr. Hess. I think it is certainly true. The question is how 
early and how much treatment can you provide before the active-
duty individual becomes discharged. And then what is the 
handoff to the VA.
    The Chairman. Is your experience as I described, that we do 
not get an adequate evaluation, that there is a self-
administered questionnaire? These servicemembers who want to go 
home quickly know how to check the right box or their CO 
[Commanding Officer] says be careful checking that one about 
demons and dreams because you will never get a job again.
    There is this dynamic that prevents adequate diagnosis both 
from self-denial and from systemic denial. It seems to me we 
have to confront that directly.
    Mr. Hess. I think that to the extent that could be done, it 
would be helpful.
    The Chairman. Mr. Marte, do you remember when you left the 
Army?
    Mr. Marte. Yes, sir.
    The Chairman. What kind of physical examination or mental 
health examination did they put you through; do you remember?
    Mr. Marte. Well, like they call it med board, medical board 
where they do a physical and the psychological. They basically, 
you know, ask you some questions, the doctor, but it is not 
that deep. The physical part is the more----
    The Chairman. It sounds like you might not have fallen into 
the situation that you did if you had been able to talk about 
them before discharge.
    Mr. Marte. Better guidance would have been a lot better. 
That is definitely true.
    The Chairman. You talked about how you were not really 
ready to listen to the Transition Assistance Program (TAP) 
lectures, which I understand. I think we are failing our 
soldiers by not doing a mandatory evaluation, again, not just a 
two-question questionnaire or an eight-question questionnaire, 
but a real evaluation. There are things you cannot see right 
away and we know that.
    Psychiatrists tell me that a slur in speech or a memory 
loss can come out in a 45-minute to an hour interview. Doctors 
can see things like that, if they had time, things that you 
might not observe in normal situations.
    I think we have to do that. When soldiers enter any of the 
services, they go through boot camp. We do not have a ``de-boot 
camp''--or a time for decompression or a time for integration.
    It should be mandatory. It should be with the family and 
with the unit of the soldier, maybe a company of soldiers. The 
isolation that comes when you leave your buddies and your 
comrades where the sense of belonging is there and then all of 
a sudden, you have to face all these issues by yourself. We 
should have that decompression, as it were, and a mandatory 
program.
    Are you going to help me in getting that, sir?
    Mr. Hess. We certainly would support, you know, identifying 
issues as early as possible and providing treatment as early as 
possible.
    The Chairman. I appreciate you being here. You have a tough 
job, especially in the bigger cities, and your commitment and 
your work is incredible, so thank you so much.
    Mr. Hess. Thank you, Mr. Chairman.
    Dr. Adams. Thank you.
    The Chairman. If the third panel will join us?
    Carol Caton, is it Caton?
    Dr. Caton. That is correct.
    The Chairman. Is the Director of the Columbia Center for 
Homelessness Prevention Studies. Brendan O'Flaherty is the 
Executive Committee Member of that Center. We thank you for 
being here and look forward to your testimony.

STATEMENTS OF CAROL L. CATON, PH.D., DIRECTOR, COLUMBIA CENTER 
FOR HOMELESSNESS PREVENTION STUDIES, AND PROFESSOR OF CLINICAL 
     SOCIOMEDICAL SCIENCES (IN PSYCHIATRY), NEW YORK STATE 
 PSYCHIATRIC INSTITUTE, COLUMBIA UNIVERSITY, NEW YORK, NY; AND 
BRENDAN O'FLAHERTY, EXECUTIVE COMMITTEE MEMBER, COLUMBIA CENTER 
ON HOMELESSNESS PREVENTION STUDIES, AND PROFESSOR OF ECONOMICS, 
   DEPARTMENT OF ECONOMICS, COLUMBIA UNIVERSITY, NEW YORK, NY

               STATEMENT OF CAROL L. CATON, PH.D.

    Dr. Caton. Mr.Chairman, Members of the Committee, I want to 
thank you for the opportunity to be here today to tell you 
about the Columbia Center for Homelessness Prevention Studies 
which is the Nation's only National Institutes of Health (NIH) 
funded advanced center for intervention and services research 
that is focused on the public health problem of homelessness. 
We are funded by the National Institute of Mental Health.
    The Center's investigators bring expertise on many issues 
related to homelessness, housing, mental health and 
intervention development, and they represent a broad range of 
academic disciplines from public health to psychiatry, 
medicine, social work, and the economic and social sciences.
    Providers, consumers, and stakeholders contribute 
significantly to the Center's activities and play an integral 
role in carrying out the center's mission.
    Today I want to tell you about some of the advances the 
Center's researchers have made in the past few years and about 
the work we are doing now. We know a lot more now about how to 
reduce homelessness than we did 10 years ago and in the near 
future, we should know even more.
    I hope that the Committee will be able to take advantage of 
these research advantages.
    Let us start with what we have done already. Most of the 
work that we have done to date, and that represents the work 
that has been done in the field, is focused on severely and 
persistently mentally ill people, many of whom have comorbid 
alcohol and substance abuse. And these people tend to be the 
chronically homeless population of people living in streets and 
shelters.
    Two interventions supported by the Center that have been 
demonstrated to help people exit homelessness and retain stable 
housing are Housing First which is a streets-to-home housing 
and services initiative that does not require sobriety or 
treatment engagement as a prerequisite for obtaining housing.
    Many Housing First programs are modeled after Pathways to 
Housing in New York City, developed by Dr. Sam Tsemberis, a 
Member of our Center. Such programs have become a staple in 
numerous 10-year plans to end chronic homelessness.
    Critical time intervention, another one of our 
interventions, was developed by Drs. Ezra Susser and Dan 
Herman. It was initially developed to assist long-term homeless 
mentally ill men to transition successfully from shelter life 
to community living. The men that they studied had been 
homeless for a very long period of time. They were, so to 
speak, institutionalized in the shelter system. They had lost 
contact with their families, with their communities. And in 
order to reengage them to stable housing and connection with 
treatment, a new neighborhood, landlord, neighbors, et cetera, 
Critical Time Intervention was developed.
    It is a time-limited, intensive case management 
intervention that is designed to transition or link people 
from, in this case, shelters, to living in the community. It 
has also been applied to other points of transition, 
specifically patients discharged from long-term psychiatric 
hospitals who have histories of homelessness and men and women 
with mental illness and homeless histories, who are being 
released from prison.
    I am pleased to say that Critical Time Intervention has 
been incorporated into some of the VA service programs. I 
believe Mr. Radcliff mentioned that in his program. It had 
already been implemented there.
    In terms of ongoing research, one of our studies currently 
underway involves looking at a new program that has been set up 
in New York City for outreach to the street homeless. This 
program is a little bit different from some outreach programs 
which just kind of go out and talk to people and maybe give 
them some coffee or chat and work on the process of engagement.
    This program, designed to not only engage the homeless 
folks but also to get them into stable housing. So it is a 
process. It is a new model and some of our researchers are 
studying this model. They are looking specifically at how 
people living in the streets get connected and how the staff 
who might have been used to some other kind of a program model 
are able to adapt to this new intervention.
    Another one of our programs is focused on frequent users of 
services. These are clients who have had at least four 
different shelter stays and four incarcerations in New York 
City correctional facilities, a very high-need, high-risk 
group.
    They are being offered housing and services and our 
researchers are trying to look at how they do in this program, 
how their program works for them, their ability to remain 
stably housed, and how they use other types of services, et 
cetera.
    Now, I mentioned that a lot of our research has been 
focused on the chronically homeless, severely mentally ill. 
More recently there have been some very interesting programs 
that have been developed that we call primary prevention 
programs. In other words, they are designed for people whose 
housing may be risky, but they are not yet homeless. And the 
idea is to see if it is not possible to help these folks to 
remain stably housed without entering shelters or ending up on 
the streets.
    One of these programs is based in New York City. It is 
called Home Base and it is run by nonprofits. It is funded 
through city government. And because it is based in the 
community, the idea is to try to reach out to those folks who 
might be in unstable housing and at risk of homelessness.
    The kinds of services that are offered, again neighborhood-
based services, are job training, entitlements advocacy, 
assistance with legal issues, housing relocation, and financial 
assistance for the payment of rent arrears and broker's fees.
    We are currently involved in helping New York City 
Department of Homeless Services to evaluate this program. And 
this gentleman sitting next to me, Dr. O'Flaherty, is leading a 
part of that evaluation program.
    We also have another research program that is focused on 
trying to understand the process by which people end up 
homeless. This question was asked just previously, can you 
chronicle the process by which you actually lost your housing 
and ended up on the streets.
    This is important because we want to find out when people 
might have periods of greatest risk. We want to know if they 
have tried to seek help and the help has not been successful. 
And the purpose of studying this question is to inform ways of 
positioning programs so that they can best work on the issue of 
preventing homelessness.
    The studies I just mentioned that are ongoing are going to 
be coming to fruition in the very near future.
    I want to mention something that some of you probably 
already know; good research takes time. So we cannot promise 
major breakthroughs like Housing First and Critical Time 
Intervention every month. But with all these projects ongoing, 
we are confident that we will be learning new ways to make life 
better for people at risk of homelessness on a regular basis.
    I will be happy to keep you informed about our findings. We 
would welcome any suggestions you may have, or any problems or 
questions that we should be looking at. We want our research to 
inform decisionmakers and to be put into practice.
    I want to mention also that in one of our planned studies, 
we are looking at social inclusion and community reintegration. 
We are not just going to be satisfied that people with these 
serious disabilities get into housing, but how they are able to 
achieve some measure of life fulfilment and participate in the 
life of society at large.
    We are studying a new program that is also based in New 
York City, a recovery center that is designed to work on the 
issue of community reintegration.
    We also have another intervention that again addresses the 
issue of engaging people in services. This is sometimes a very 
difficult thing to do, very challenging.
    Early on, believe early on, Congressman Teague asked if 
anyone had ever used a marketing approach in the field to try 
to inform people about the availability of services and what 
they might be able to get out of them. We think this is 
important.
    Therefore, a study is planned to see if marketing improves 
engagement in services.
    Again, thanks for the opportunity to be here. I will be 
glad to answer any questions you might have.
    [The prepared statement of Dr. Caton appears on p. 74.]
    The Chairman. Thank you.
    Mr. O'Flaherty, do you have a statement?
    Mr. O'Flaherty. Yes, I do.
    The Chairman. Please proceed.

                STATEMENT OF BRENDAN O'FLAHERTY

    Mr. O'Flaherty. Mr. Chairman, Members of the Committee, 
thank you for inviting me to testify. I am an economist. I 
teach at Columbia University.
    Your staff asked me to talk about homelessness prevention 
and primary prevention, prevention of homelessness among people 
who are housed now, but might become homeless in the future.
    Homelessness prevention is hard. It is hard because the 
onset of homeless spells is unpredictable. Probably it is 
inherently unpredictable like guessing which stock will go up 
tomorrow.
    For 15 years, really good scholars with really great data 
sets have been trying to make such predictions and the best 
that they can do is to isolate groups of families that have 
pretty high probabilities of becoming homeless pretty soon.
    But risk, even in these super high-risk groups, is nowhere 
near a third and most of the people who become homeless are not 
people from these super high-risk groups. No comparable studies 
for single adults have been done.
    Reasonable programs that humans could implement probably 
reduce point in time homelessness by no more than 5 to 8 for 
every 100 nonhomeless households they serve.
    The best relevant studies here are those of various kinds 
of housing subsidy programs. A wide variety of methods are used 
in these studies and they invariably come up with numbers in 
the range of 3 to 7 per 100 families served.
    I do not think the programs that I recommend below will do 
better than this. These are prevention programs that start with 
people who are not homeless. Some programs that start with 
people that are homeless do better on this metric, but they are 
not my topic.
    So prevention is hard, but hard does not mean not worth 
doing. Hard means that you have to think about what you are 
doing.
    I would like to use the analogy of fires. Fires, too, are 
inherently unpredictable. If you knew when and where a fire 
would occur, it would not occur. Unpredictability implies that 
fire departments do not invest a lot of effort in trying to 
predict individual fires. They respond in force to actual 
fires. But, still, they engage in fire prevention activities.
    Most buildings are covered by fire protection codes like 
this one even if they are unlikely to have fires today. When 
you read that smoke detectors save lives, you do not complain 
that millions of smoke detectors in this country are being 
wasted in buildings that are not burning now.
    Smoke detectors and fire codes work because they cover a 
lot of buildings. Fire prevention before the fact is wide and 
shallow. After the fact, it is narrow and deep. It is a good 
principle for homelessness too.
    What does this mean for veterans and homelessness? I have 
two recommendations because I think it is a time to think a 
little bit differently and I come from a different kind of 
background.
    I think these recommendations will help a lot of veterans 
and keep some of them from being homeless. I do not think they 
will cost a lot, but they are novel and I do not have direct 
evidence.
    First, rent insurance. For over 60 years, the VA has been 
insuring the mortgages of veterans who buy homes. I propose 
that the VA expand its insurance to cover veterans who rent 
apartments. Detail is in my written testimony. Give veterans 
who rent a safety net so that they do not lose their apartments 
when they are down on their luck.
    This program would also make it easier for veterans to rent 
apartments, especially leaving homelessness programs, since 
landlords would have more assurance that they would not get 
stuck with rent.
    In addition, they would be an excellent outreach device. If 
a veteran falls behind with rent, the landlord has to contact 
the Veterans Administration to collect the insurance. That is 
the signal that can get the Veterans Administration and the 
programs that we heard this morning get involved. We look for 
an outreach device. This is an outreach device.
    Rent insurance also would promote equity among veterans. In 
the last year, I have heard Members of Congress say repeatedly 
that homeownership is not for everyone. I agree. But every 
veteran, no matter what form of housing he or she chooses, 
deserves some protection against hard times.
    Since the veterans who rent are generally more vulnerable 
to homelessness than the veterans who buy, they seem like the 
veterans who need the insurance the most.
    Second is shared housing. Today there are lots of people 
who are hard strapped for cash, worried about foreclosure, and 
rattling around in houses that are bigger than they need. For 
some of them, a boarder or a relative who could pay some of the 
expenses would be a Godsend.
    Some households would also welcome an opportunity to help 
veterans. At the same time, there are lots of veterans who 
could use a temporary cheap place to live until the economy 
picks up. Why not bring the two together?
    This is not a program for everybody. This is not a program 
for the majority of people. This is not a program for 90 
percent of people. But if one household out of a thousand 
volunteered to house a veteran temporarily, 112,000 offers 
would come in. A lot of veterans might find some of these 
offers pretty good. Some people might avoid foreclosure. No one 
would be forced to do anything. It would not cost a lot of 
money. Why can't Congress promote this option?
    In summary, I suspect that this is not what you expected me 
to say. It is not what I expected me to say either. But the 
logic compelled it. When you cannot forecast who will be 
affected by a problem and when, the best way to prevent it is 
to treat many people in a cost-effective and intelligent 
manner. That is what fire departments do. That is how polio was 
eradicated. That is why every car has seat belts, not just 
those that are going to crash today. Wide and shallow before 
the fact, deep and narrow after the fact.
    Preventing homelessness requires building a better safety 
net for all veterans. Mr. Landis talked about a safety net. 
Problems come when the safety net fails. The raw materials for 
that better safety net are already in place. They are in place 
in the excellent programs the VA has been running in the 
housing field for 60 years. They are in place in the respect 
that Americans have for veterans.
    My suggestion is to use those resources in a new way. Thank 
you for the opportunity.
    [The prepared statement of Mr. O'Flaherty appears on p. 
76.]
    The Chairman. Thank you so much.
    Dr. Roe.
    Mr. Roe. Just a couple of questions briefly. I am sorry I 
got here a little late.
    When you are talking about the rent insurance, what figure? 
I read in your testimony $1,000 a month.
    Mr. O'Flaherty. Yeah. This is something to be developed. I 
am from New York. One thousand dollars a month for 6 months. It 
might not be the appropriate figure. I am thinking of an 
appropriate, reasonable rent for a reasonable period of time.
    Mr. Roe. Okay. That is fair enough. I have to think in 
various areas like in New York, that is probably not a lot of 
rent. I know it is not where we are. I can probably find you a 
year's worth of housing.
    Mr. O'Flaherty. It might be appropriately indexed to the 
different areas.
    Mr. Roe. You know, I think one of the great challenges we 
have, and as Mayor of Johnson City, Tennessee, where I am from, 
we have in the area there that we are in, upper east Tennessee, 
a plan to reduce homelessness for everyone in the next several 
years and specifically high on our list are veterans.
    And the Chairman, I will tell you, has helped. One program 
that we implemented last year was finding houses for veterans. 
We have reduced our veterans' homelessness rate a tremendous 
amount in our region by using this program.
    Also, just affordable housing in general is difficult. And 
we have one thing that we have done. It took us about 7 or 8 
years to finally get it done, but we took a public-private 
partnership and built homes that are 1,200, 1,300 square feet 
with garages, concrete driveways, curbs, gutters that a person 
making $25,000 a year can afford.
    So it can be done. This was some public land the city used 
and then we had a builder who came in and was willing to 
obviously do this at not a great profit, but we put in 15 units 
and we are going to have 50 units both, you know, sort of an 
individual home, some will be apartments, some will be assisted 
living.
    But it can be done, but it is a challenge and probably more 
so because property is so expensive where you are. I am sure 
that that would raise that, but it is a huge issue not just for 
veterans but for everyone in this country, homelessness.
    Interesting in your comments in your research, Dr. Caton. 
Have you found any particular factor that we could put our 
finger on, and I am sure it is regional and different in 
different areas, that you could go to for not a lot of expense 
to try to get the biggest bang for your buck? Have you 
identified anything in your research?
    Dr. Caton. Well, I think in terms of getting chronically 
homeless people off the streets and into housing, we think 
Housing First has a pretty good track record. About 85 percent 
of the people placed in Pathways to Housing have remained 
stably housed.
    That is for that particular population. I think you have to 
think carefully about this subgroup of homeless people that you 
are talking about or the people who might be at risk but not 
yet homeless.
    For homeless families who are at risk but not yet homeless, 
there are a number of different strategies that the home-based 
program in New York City is utilizing, again to get homeless 
families and some single individuals out of homelessness into 
housing. The housing vouchers, subsidized housing seems to be 
quite effective.
    In some cases, we know that a mix of housing and services 
is going to probably be required. The people who are more 
disabled, psychiatrically disabled, disabled by substance abuse 
or physical disabilities, they need services as well as 
housing. But there are other constituencies of homeless people 
or people at risk who may just need to have some assistance to 
get themselves over a hump and back into housing.
    So I think we have to have a lot of different options and 
have to keep in mind that the population of people who are 
either literally homeless, meaning that they are on the streets 
or in shelters, is only one group that could possibly be the 
benefit of some kind of housing assistance to prevent 
homelessness.
    Mr. Roe. We have a program at home that is faith based, 
that churches do where if--these are for families and when a 
family becomes homeless, they will--we have a family that will 
live in our church at night, be fed there. During the daytime, 
they go to a resource for training for jobs so that they are 
not on the street. They have a place to live.
    Do you have any programs like that in New York?
    Mr. O'Flaherty. Yes, we do.
    Dr. Caton. We do. Yes, indeed.
    Mr. O'Flaherty. Definitely in New Jersey and quite a bit in 
New York too.
    Mr. Roe. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We appreciate you keeping in touch on the research, Dr. 
Caton.
    Mr. O'Flaherty, thank you for your bold suggestions. We 
have the VA coming up as the panel after you, so I am going to 
ask them what they think about your bold suggestions.
    You will think about them, right? I think we have to start 
thinking a little bit differently about all these suggestions.
    You have helped us with new suggestions. Some of these 
suggestions seem to make common sense and, yet, the government 
and the political system, does not have the will to do 
something like this which would be a lot cheaper than what we 
are doing now. Whatever it costs for rental insurance, I am 
sure it would be cheaper than dealing with people who are then 
homeless and we have to deal with all those issues.
    Mr. O'Flaherty. You would be dealing with more people, but 
it would be cheaper.
    The Chairman. Yes, an insurance policy would be an 
incentive option since you do not use it unless someone needs 
it, right? You would be spending a little bit of money for a 
lot of people.
    We appreciate what you are all doing and we would like to 
keep in touch with you. Thanks so much.
    Dr. Caton. Thank you.
    The Chairman. We appreciate the folks from the VA listening 
to the testimony with us today. We have several witnesses from 
the Department of Veterans Affairs and the Department of Labor.
    George Basher is the Chairman of the VA Advisory Committee 
on Homeless Veterans. Peter Dougherty is the Director of VA 
Homeless Veterans Programs and he is accompanied by Paul Smits, 
who is the Associate Chief Consultant of the Homeless and 
Residential Rehabilitation and Treatment Programs. Is that the 
biggest title in VA? John McWilliam is the Deputy Assistant 
Secretary of the Veterans' Employment and Training Service at 
the U.S. Department of Labor.
    We thank you all for being here. I know for a fact that the 
Secretaries of both of your Departments have a personal and 
deep commitment on this issue.
    Secretary Shinseki said that there is going to be a goal 
over X number of years for you all to try to reduce veterans' 
homelessness to zero.
    When Ms. Solis was nominated to be the Secretary of Labor, 
the first thing she said to me on the floor of the House was 
that we have to work for the veterans. I know about her 
personal commitment, also.
    We appreciate you being here and look forward to your 
testimony.
    Mr. Basher.

STATEMENTS OF GEORGE P. BASHER, CHAIRMAN, ADVISORY COMMITTEE ON 
 HOMELESS VETERANS, U.S. DEPARTMENT OF VETERANS AFFAIRS; PETER 
 H. DOUGHERTY, DIRECTOR, HOMELESS VETERANS PROGRAMS, VETERANS 
  HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
   ACCOMPANIED BY PAUL E. SMITS, ASSOCIATE CHIEF CONSULTANT, 
HOMELESS AND RESIDENTIAL REHABILITATION AND TREATMENT PROGRAMS, 
  VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
  AFFAIRS; AND JOHN M. McWILLIAM, DEPUTY ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
                             LABOR

                 STATEMENT OF GEORGE P. BASHER

    Mr. Basher. Chairman Filner, Honorable Committee Members, 
and distinguished guests, I am pleased to be here today to 
discuss the views of the VA Advisory Committee on Homeless 
Veterans on various programs designed to end homelessness among 
America's veterans.
    As Chairman of the Advisory Committee, I want to thank you 
for this opportunity.
    Not one single VA program for homeless veterans has been 
improved or adjusted with our recommendations from the Advisory 
Committee.
    Our 15-member Committee consists of direct service 
providers, policymakers, and program administrators who are all 
dedicated to the elimination of homelessness.
    On VA Grant and Per Diem, VA Grant and Per Diem continues 
as a workhorse program largely responsible for reducing the 
number of homeless veterans over 40 percent to 131,000 during 
the past 5 years.
    However, over the past several years, the Advisory 
Committee has recommended a number of changes to the program 
that we feel would improve this record even further.
    The funding mechanism designed over 20 years ago is 
outmoded. It is not user friendly. It does not cover 
participation in high-cost areas and the reimbursement process 
is somewhat complex.
    Basing a program on actual cost of services provided 
instead of a rigid per diem would allow agencies to tailor 
programs to local needs and costs. The VA's Special Needs 
Grants take this approach and have been very, very successful.
    The Advisory Committee has also recommended the GPD Program 
be authorized at a level of $200 million for fiscal year 2010 
and that the sums necessary to successfully sustain the program 
be appropriate thereafter.
    Most homeless programs, with the exception of GPD, are 
covered under the ``McKinney-Vento Homeless Assistance Act,'' 
which allow other Federal funds to be used as matches for their 
program. GPD does not have the waiver allowing that, decreasing 
opportunities for participants to leverage a number of 
resources to increase their services to homeless veterans and 
expand their programs in ways that are common in mainstream 
programs.
    The Chairman. Mr. Basher, I do not mean to interrupt you, 
but I suggested earlier that the Grant and Per Diem might 
follow the veteran instead of the facility.
    Did your Committee look at that at all?
    Mr. Basher. We have discussed that, sir, and, you know, 
that is not a bad idea.
    The Chairman. That is the best compliment I have ever heard 
from the VA. That is great.
    Mr. Basher. Well, you have to recognize I am not speaking 
as a VA employee. I am the Chairman of the Advisory Committee.
    The Chairman. Okay, I have not had that good compliment. We 
will see what Mr. Dougherty says.
    Mr. Basher. Inspection of GPD providers is currently the 
responsibility of local VA medical center staff. With a growth 
of GPD to hundreds of providers over 10,000 beds, the 
inspection process has become very inefficient and inequitable.
    The Advisory Committee has recommended a national standard 
be established and a national contract created for inspections.
    On prevention of homelessness, the Advisory Committee has 
been concerned for some time about the need to increase efforts 
to prevent homelessness among those veterans returning to a 
weakened economy and less stable housing.
    We have noted a slow but steady increase in a number of 
recent returning veterans seeking VA assistance through health 
care for Homeless Veterans Program, now over 3,000 individuals. 
Over 500 of these have been referred to GPD providers for 
services as well.
    The current economic downturn is also affecting older 
veterans from Vietnam to the first Gulf War as well, exposing 
those on the economic edge to a great risk of homelessness.
    Returning Operation Enduring Freedom and Operation Iraqi 
Freedom (OEF/OIF) soldiers transitioning from active duty to 
veteran status, while all returning combat veterans have 
eligibility in the VA health care system, many do not enroll or 
take advantage of the services offered.
    The Advisory Committee has consistently recommended that 
separating soldiers be automatically enrolled with VA.
    We also look at PTSD and TBI as potentially something 
creating a risk for homelessness as a result of those 
conditions.
    The Advisory has recommended VA and DoD continue with the 
National Institutes of Health, Substance Abuse and Mental 
Health Services Administration (SAMHSA), and the Center for 
Disease Control to develop better screening and assessment 
tools and develop appropriate interventions to minimize the 
risk of homelessness for this population.
    And research has shown that persons who enter the service 
from backgrounds at risk for homelessness often are the most 
likely to experience homelessness once separated from active 
duty.
    The Advisory Committee recommends further research on this 
vulnerable population and prevention of homelessness be done as 
soon as it can be practically accomplished.
    Outreach to veterans means different things to different 
people. There are as many definitions as there are advocates. 
In the world of homeless veterans, VA has done a good job of 
outreach to the chronically homeless through VA health care for 
homeless veterans outreach workers and their community partners 
in providing transitional housing.
    That said, veterans in HUD or other mainstream programs 
frequently miss opportunities to connect to VA benefits and 
services because those programs do not identify veterans or 
opportunities available to them.
    Similarly those veterans at risk for homelessness in the 
community are more likely to be noticed first by the community, 
churches, schools, and the criminal justice system, as opposed 
to the nearest VA medical center.
    The Advisory Committee has recommended for some time that 
our partners at HUD and HHS identify veterans in their programs 
so that effective and timely access to VA services can be 
provided.
    We have also discussed the need for VA to connect with 
community-based resources to develop true local access to VA 
services. Basic education on programs, eligibility, and points 
of contact for community organizations are necessary to make 
outreach a true community effort.
    Over the past several years, the Advisory Committee has 
recommended to the Secretary while VA transitional housing was 
a good program, collective data indicated a significant number 
of veterans were cycling through the program a number of times. 
The result was HUD-VA Supportive Housing, HUD-VASH, providing 
Section 8 vouchers to those people on VA case management who 
are eligible.
    The Advisory Committee will be reviewing the progress of 
the HUD-VASH Program and making recommendations on the need for 
additional vouchers in its 2010 report to the Secretary.
    And as with any new program, there are issues in 
implementation. One difficulty with HUD-VASH is the absence of 
a reliable source of funds for things such as security 
deposits, utility deposits, and so forth for a population that 
typically lacks sufficient income for those charges. Because of 
this issue, mainstream programs that provide such assistance 
are reluctant to include veteran housing providers in these 
programs.
    VA should also consider contracting with community-based 
agencies to provide case management where appropriate as a way 
to extend the reach of VA staff while providing necessary 
services. Current GPD providers are a logical choice for 
permanent as well as transitional services in many cases.
    Congress and VA have done an admirable job in reducing the 
number of homeless veterans in the Nation. Nearly 15,000 GPD 
beds and 20,000 Section 8 vouchers are formidable tools to 
reduce the incidence of homelessness amongst veterans.
    Much remains to be done, however, especially in the areas 
of prevention and permanent housing. The Advisory Committee 
believes the key to success in providing programs that are 
adequately resourced and sufficiently flexible to meet the very 
needs of this group of veterans.
    Mr. Chairman, this concludes my testimony. I want to thank 
you for the opportunity and will be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Basher appears on p. 79.]
    The Chairman. I just want to say thank you for your 
leadership. You do not get a lot of thanks for chairing an 
Advisory Committee----
    Mr. Basher. No, sir.
    The Chairman [continuing]. Nor a lot of money, I wouldn't 
think.
    Mr. Basher. Yeah. It is one of those high paying Federal 
jobs, yes, sir.
    The Chairman. I wish we had adopted all of your suggestions 
by now. We do appreciate all the work that you put in and we 
are going to be looking more meaningfully at the 
recommendations.
    In fact, Mr. Dougherty can start off by saying why they 
have not accepted your recommendations on the Grant and Per 
Diem Program and its flexibility and size. I am sure there is a 
good reason.
    We appreciate you being here. You are known around the 
Nation for your work and we do appreciate it.

                STATEMENT OF PETER H. DOUGHERTY

    Mr. Dougherty. Thank you, Mr. Chairman and Members of the 
Committee. It is a very exciting time, as you have mentioned, 
for us who do this work.
    Your hearing entitled, ``A National Commitment to End 
Veterans' Homelessness'' is, in fact, very timely. As you have 
indicated, Secretary Shinseki has announced that he wants us to 
eliminate homelessness among veterans within 5 years.
    While the numbers are going down from an estimated 154,000 
published last year to 131,000, we all know that much still 
remains to be done. With the help of this Congress, we have 
been making unprecedented strides to expand current and to 
create new service partnerships with others.
    We will do this by actively reaching out to veterans who 
are homeless or at risk. We will spend about $2.4 billion in 
health care services this year and another $412 million on 
homeless-specific services at the Department of Veterans 
Affairs.
    We are going to continue to do more to get veterans the 
benefits that they have earned because we know that income 
support will get many of them out of homelessness faster and 
keep them out of homelessness.
    We are continuing to expand, you referenced stand-down, we 
continue to participate in more and more stand-down activities. 
Last year in calendar year 2007, there were 157 events that we 
participated in with community programs.
    Over 34,000 veterans and family members, over 30,000 
veterans and over 3,500 children and spouses of veterans came 
to those. Mr. Chairman, I think it was also due to note that 
over 24,000 volunteers and VA employees participated in those 
outreach events.
    We know the best strategy to end homelessness is to stop it 
at the beginning; homelessness prevention is really something 
that we are doing today in ways we never did before.
    Over the past 4\1/2\ years, we have seen over a thousand 
veterans in homeless-specific programs who have served in 
Operation Enduring Freedom and Operation Iraqi Freedom. We have 
seen about 4,000, 3,800 all tolled, but we have seen about 1000 
of them in homeless-specific programs.
    We do know that by expanding a new effort with HUD that 
Congress has appropriated funds to HUD and to VA we are going 
to for the first time offer pilots to work with at-risk 
homeless veterans.
    Now, Mr. Chairman, there is a lot of discussion about this, 
you know, those unknown, unseen. Let me suggest to you the 
analogy of one of the previous witnesses about a fire alarm 
system. No. What you want is a fire suppression system so when 
a small fire starts, you get to put it out now. And that is 
what we are trying to do.
    There are numerous studies that have already been done 
about what high-risk factors are there, who is likely to be 
homeless if we do not do prevention. I think this is going to 
give us for the first time a real opportunity to do that. We 
expect to start that later this year.
    The 20,000 units of HUD-VASH vouchers that are out there 
now are significantly aiding this. And we do expect that the 
next 10,000 units, the placement of them will be announced 
later this month.
    One of the discussions earlier was about women veterans. We 
argued for a long time that we needed this kind of program. 
What we have found to date is about 12 percent of the units are 
being occupied by women veterans and 14 percent of the units 
are occupied by veterans with children. Those are traditionally 
populations that have been very tough for us to serve 
otherwise.
    Our Transitional Housing Program, our Grant and Per Diem 
Program, we will have about 1000 new beds that we will announce 
sometime in the next few months. We will have over 15,000 beds 
across the country that will be there. We are continuing 
special needs assessment and we are doing more.
    We have told the Congress that we do not think the Multi-
Family Housing Loan Guarantee is an effective program and we 
are not going to continue it because it simply does not work. 
You asked us to try it many years ago. We have tried it 
repeatedly. We have not been able to do it.
    I want to thank the Committee. You have reauthorized the 
opportunity for us to work with veterans coming out of 
institutional settings. We think that is going to be a very 
effective not only for veterans who have been incarcerated but 
veterans who may come out of long-term psychiatric care.
    We have authority and we are acting on the authority, even 
though we did not get an appropriation specifically to move 
forward with supportive services for low-income veterans, those 
at 50 percent or less of median income.
    We think that that will help veterans who may be sliding 
toward homelessness. We also think those who are first coming 
out of homelessness will stay better and more healthy.
    There was a lot of discussion today about what we do not 
know. And I certainly would fail to do my job today if I did 
not reference that the Secretary has agreed and we are now 
starting a homeless research center. We are going to do the 
things that look at what communities are doing and how they are 
doing things effectively. We at VA have been doing program 
monitoring and evaluation, but we are going to meld those two 
together to see what we can do as best practice and to see what 
we can do to do it even better.
    Mr. Chairman, I appreciate the opportunity to be here today 
and certainly look forward to any questions you or the 
Committee may have. Thank you.
    [The prepared statement of Mr. Dougherty appears on p. 81.]
    The Chairman. Thank you, sir.
    Mr. Smits, do you have a comment or are you just 
accompanying Mr. Dougherty?
    Mr. Smits. Mr. Chairman, I do not have a prepared 
statement. I am accompanying.
    The Chairman. He needs all the accompaniment he can get. I 
need people too. I do not know why he has people.
    Mr. McWilliam.

                 STATEMENT OF JOHN M. McWILLIAM

    Mr. McWilliam. Chairman Filner, Mr. Roe, I am pleased to 
appear here today before you to discuss how the Department of 
Labor's Veterans' Employment and Training Service fulfills its 
mission of providing veterans and transitioning servicemembers 
with the resources and services to succeed in the 21st century 
workforce and particularly our work to help combat veteran 
homelessness.
    We accomplish our mission through three distinct functions, 
employment and training programs, transition assistance 
services, and enforcement of programs. All these activities 
form an effective frontline in the prevention of veteran 
homelessness.
    I would like to limit my remarks to one of those employment 
and training programs, the Homeless Veterans Reintegration 
Program.
    This is the only Federal nationwide program focusing 
exclusively on employment of veterans who are homeless. HVRP 
provides employment and training services to help reintegrate 
homeless veterans into meaningful employment and address the 
complex problems they face.
    Grants are awarded competitively to State and local 
workforce investment boards, State agencies and public 
agencies, private nonprofit organizations, and neighborhood 
partnerships. Grantees provide an array of services utilizing a 
case management approach that directly assists homeless 
veterans and provides training services to help them to 
successfully transition into the labor force.
    Homeless veterans receive occupational, classroom, and on-
the-job training as well as job research, job search and 
placement assistance, including follow-up services.
    Grantees network with Federal, State, and local resources 
for veterans' support programs to include the Departments of 
Veterans Affairs and Housing and Urban Development, the Social 
Security Administration, State workforce agencies, and local 
one-stop career centers.
    VETS has requested in the President's 2010 budget 
submission a total of $35.3 million for the HVRP Program, an 
increase of $9 million or 34 percent. We plan to serve 21,000 
homeless veterans with that money in 2010.
    Last year, VETS awarded a total of 91 grants, including 16 
newly competed grants and 2nd-year and 3rd-year funding for an 
additional 75 grants.
    The HVRP also supports stand-down activities. Approximately 
40 current grantees participate each year. In addition, last 
year, we funded an additional 46 stand-down events across the 
United States.
    Mr. Chairman, that concludes my statement. I would be 
pleased to respond to any questions.
    [The prepared statement of Mr. McWilliam appears on p. 85.]
    The Chairman. We thank all of you.
    When you throw out a figure that shows we are putting this 
much money in, it sounds like we are doing a lot. I hope you 
can tell us what you need, not just what you have. I hope the 
Secretary will have a plan and a budget for that 5-year goal.
    By the way, $412 million, which you mentioned----
    Mr. Dougherty. Yes.
    The Chairman [continuing]. That is half of 1 percent of the 
total budget of the VA? To me, that is not a commitment. I know 
$412 million sounds like a lot of money--and it is but, a half 
of 1 percent of the total budget is not really the kind of 
commitment I think we need to fulfill the Secretary's goal.
    You also mentioned $35 million. When I started on this 
Committee, it was like about $5 million. It was ridiculous.
    What is the Department of Labor's budget roughly?
    Mr. McWilliam. I cannot answer that, Mr. Chairman.
    The Chairman. I will bet this is even less than one half of 
one percent. You have to deal with what you have, but you need 
to tell us that you want more. You have to be more aggressive.
    Again, I hope there is going to be a budget for that plan 
at some point.
    Mr. Dougherty. Mr. Chairman, the Secretary is, as I have 
indicated and as you know, is pushing us to come up with a very 
robust plan to address this issue. And if we are going to 
address this issue, it will, in fact, I am assuming, will 
include resources, new resources, or certainly a reallocation 
of existing resources.
    The Chairman. Thank you.
    Mr. Roe, do you have questions?
    Mr. Roe. Just very quickly.
    First of all, I totally agree that we need to sign up all 
veterans, I mean, soldiers when they Expiration of Term of 
Service (ETS) in the military. I do not think that a bullet 
knows what your income level is when it goes by you. I have an 
objection to that.
    I am one of those veterans that cannot qualify. And I would 
be more than happy to get in the back of the line because I can 
afford my insurance. But I still ought to be able to go to the 
VA if I want to.
    I think a couple of things that I heard the Chairman say 
that make a lot of sense to me. We have 133,000 or so homeless 
veterans. And in 5 years, General Shinseki has wanted to reduce 
that to, obviously it will not get to zero, but to a very 
manageable number.
    A year from now, are we going to have 26,000 less or do we 
have a plan out there? We have a problem. Now, do we have a 
plan? And obviously homelessness, you can cure that with some 
job skills and a job. I mean, that is how you cure 
homelessness.
    Mr. Dougherty. Yes, sir. Joblessness is one of the issues, 
but you do not just cure it with a job because if I have mental 
illness and substance abuse, getting me a job is not going to 
solve the problem. I am going to lose my job and become 
homeless again.
    You have to deal with it in a complex system so that 
getting a job is, in fact, what the final result. But for many 
veterans, about 80 percent of the veterans that we see have 
substance abuse and mental illness problems. If we do not 
address that problem first, getting them a job is not going to 
solve the problem.
    Mr. Roe. I do not disagree with that. But back to my first 
question. Is there a plan? The Chairman asked this. And is 
there a plan so that 5 years from now when we are sitting up 
here, we are still going to be looking at 100,000 veterans?
    Mr. Dougherty. Well, yes, sir. That is what I was talking 
about in my statement and made in my oral statement was that we 
now have 20,000 units of permanent housing with case management 
services from VA. So HUD will provide housing. We will provide 
case management and direct services to those veterans.
    We now have supportive services, so many of those low-
income veterans who are at risk of homelessness will get 
support services from community providers so that hopefully 
they will never become homeless in the first place.
    Mr. Roe. I mean, 20,000 is not 133,000. Is that 20,000 a 
year or are we going to have 40,000 next year and 60,000 and so 
on? Is that the plan?
    Mr. Dougherty. Twenty thousand is what Congress has 
approved for us to get up to now. There is an appropriation 
that as I understand it has 80,000 units of undesignated 
Section 8 that is available, but the way that we got this to 
this point is Congress put a mark that said that we got 10,000 
the year before last, 10,000 this year in HUD's budget.
    The Chairman. We are asking what you need to meet the goal 
and are we providing enough? You need to tell us that.
    Mr. Dougherty. Well, certainly we do know that we would 
need more than 20,000 units of HUD-VASH housing. We know that 
we need and we are looking at doing something, I think, 
equivalent to sort of the rapid rehousing. That is conceptually 
where we are working on it with Secretary Shinseki's plan.
    Rapid rehousing means that if I do not have a place to stay 
now, I am going into homelessness, I am going to lose my 
housing, we will get you into housing and get you support 
services that you need to have.
    The Chairman. What did you think about the rental insurance 
idea?
    Mr. Dougherty. Well, I do not know that rental insurance 
itself is the answer because, the way it is described is I am 
the landlord, this is a veteran, I am calling you up and saying 
he is not paying his rent, give me the money for rent. That is 
keeping him in housing, but there may be issues that the 
veteran may have.
    I think rapid rehousing, that idea, which Congress has 
approved, does much of that, but it also makes sure that I, as 
the individual veteran, is being addressed.
    The Chairman. Okay, but I think Dr. O'Flaherty had a more 
comprehensive solution.
    If you will just at sometime give us an answer, Dr. 
O'Flaherty, to what he said. I am sure there is a more 
comprehensive--if you want to just briefly answer it now. I am 
sure you were thinking of something that could not be handled 
so quickly and then dismissed.
    Mr. O'Flaherty. No. I would agree that in many cases, there 
will be more serious problems. And one advantage of rental 
housing is that when the landlord asks for the money from the 
VA, you find out about it. And this automatically kicks in the 
process of all the other supports that you have in place and 
all the other agencies so that you do not have to wait for a 
veteran to show up at your doorstep. Six months before, you are 
hearing about this problem developing.
    And so it is an information system for the VA that VA does 
not have now.
    The Chairman. We do not have to debate this now, but I 
think it is a good idea that we should explore. I think there 
are some bold ideas, as Dr. O'Flaherty said, that we should be 
looking at.
    We have to get to a vote, unfortunately. I wish we could 
spend more time, but we are going to adjourn the hearing. We 
appreciate everyone's attendance, the commitment of everyone 
both in the community, the researchers, and those who are 
working in our agencies. We thank you for your commitment and 
we are going to do more. Between the Secretary and our 
Committee, we are going to get this job done.
    Thank you so much.
    [Whereupon, at 12:54 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bob Filner,
                Chairman, Committee on Veterans' Affairs
    I would like to thank the Members of the Committee, our witnesses, 
and all those in the audience for being here today. This hearing 
focuses on homeless veterans, an important issue which is a priority 
both for this Committee and for the new Administration.
    Certainly, this is an issue which reflects the current times as our 
country struggles with the downturn in the economy and it is more 
important than ever that we, as a country, make a national commitment 
to end veterans' homelessness.
    The VA reports that over the past 3 years, the number of veterans 
who are homeless on any given night has decreased from 195,000 in 2005 
to an estimated 131,000 in 2008. I will be honest and tell you that I 
am quite skeptical of these numbers.
    I hope the panel that is here today from the VA will elaborate on 
the process used to come to these figures, as well as discuss future 
plans to further pursue a more accurate picture of this population--
hopefully as a way to track success.
    We must also remain cognizant of the fact that there are also an 
unknown number of veterans who are considered near homeless or at risk 
for homelessness because of poverty and lack of support from family and 
friends.
    An increasing number of veterans of Operations in Afghanistan and 
Iraq are falling into this category and we must be vigilant in 
providing support to this population.
    Despite this recent reported decrease in homeless veterans, both 
male and female veterans continue to be overrepresented in the general 
homeless population.
    For example, male veterans are 1.4 times as likely to be homeless 
as their non-veteran counterparts while female veterans are between two 
and four times as likely to be homeless as their female non-veteran 
counterparts.
    Studies have also shown an indirect connection between combat 
exposure and homelessness. For example, combat exposure contributes to 
psychiatric disorders and substance abuse disorders which are directly 
linked to homelessness.
    In the most recent health care utilization report for Operation 
Enduring Freedom and Operation Iraqi Freedom, of the veterans who have 
accessed VA health care, 46 percent have received a diagnosis 
categorized as a mental disorder with post-traumatic stress disorder 
being the most common.
    These statistics are very concerning considering the reported 
steady increase of the number of returning veterans from OEF/OIF who 
are turning to shelters for their housing. As a Nation, we cannot 
afford to repeat the mistakes made when servicemembers returned from 
Vietnam. As a Nation, we cannot afford to lose another generation of 
veterans to the streets of our cities.
    To address this problem, the VA has a number of programs in place 
to help homeless veterans, including collaborations with the Department 
of Housing and Urban Development and the Department of Labor. There is 
an urgent need for improved collaboration between these agencies in 
order to keep the promises we have made to our veterans.
    Furthermore, there are concerns with the way the VA currently 
operates its Grant and Per Diem program, which helps public and 
nonprofit organizations establish and operate supportive transitional 
housing and service centers. Today the VA partners with more than 500 
community organizations and has authorized 15,000 beds through the GPD 
program.
    The per diem amount is critically low and uses an antiquated 
payment calculation mechanism which does not account for geographic 
differences or changes in service costs. These concerns must be 
addressed.
    In addition, a recent oversight hearing held by the Subcommittee on 
Health revealed room for improvement in the area of outreach. This 
raises questions about the VA's targeted outreach efforts to homeless 
veterans, including media outreach.
    Additionally, most of the VA's existing programs are targeted to 
veterans who are currently homeless, as these services aim to help 
prevent repeat episodes of homelessness by providing employment 
opportunities and housing assistance. However, a more comprehensive 
strategy to combat homelessness would help prevent veterans from 
becoming homeless in the first place.
    While the President's 2010 Budget requests $26 million to support a 
pilot program for the VA to partner with non-profits and consumer co-
ops to provide supportive services designed to prevent homelessness, I 
am interested in learning more about the VA's thoughts and plans on 
homeless prevention to include early intervention.
    We have an opportunity to learn from our past history and keep the 
promises we have made to our servicemembers and heroes. I look forward 
to addressing these issues and also look forward to hearing from 
today's witnesses as we join together in making a commitment to end 
veterans' homelessness.

                                 <F-dash>
                Prepared Statement of Hon. John J. Hall
    Thank you for yielding Mr. Chairman, and more importantly thank you 
for holding this critical hearing. It shows a deep commitment to our 
Nation's veterans and for their continued respect and well-being.
    Today, in our time, we have the chance to truly make a difference. 
We have the opportunity to rid our Nation of one of its greatest 
tragedies--the scandalous amount of homeless veterans.
    It is estimated that one out of every three homeless adults is a 
veteran. This bears repeating: one third of the adult homeless 
population has served in the Armed Forces. On any given night 
approximately 131,000 veterans find themselves on the streets and the 
alleyways of this great country. Over the course of a year, nearly 
twice that many experience homelessness for a short period of time, and 
an even greater number lie on the cusp of complete homelessness and 
poverty. I can think of no greater call to action than these 
irrefutable, shameful facts.
    Men and women who have worn the uniforms of our Nation's armed 
forces, men and women who have sacrificed to preserve the quality of 
life the rest of us enjoy; men and women who, for various reasons, have 
fallen through our safety nets. As long as these men and women can be 
found without shelter, without jobs, and without hope on our Nation's 
streets, we have work to do.
    Today, we have a clear window of opportunity to build a better 
delivery system that will provide 21st century services to 21st century 
veterans. This is why I am proud to be on this Committee and part of 
this Congress which not only holds hearings such as this one, but has 
gone to great lengths to provide increased funding and outreach to our 
Nation's veterans so that less fall through the cracks, and gives a 
hand up to those who already have. We have increased outreach programs, 
funded reintegration projects, modernized medical care, and constantly 
strive to do more.
    Personally, because about 45 percent of homeless veterans have 
mental illness, I have introduced legislation to alleviate the onerous 
burdens currently placed on veterans trying to gain well deserved 
disability benefits, particularly for PTSD. My Subcommittee will be 
marking this legislation, H.R. 952 the COMBAT Act, later on this 
afternoon, and will be pushing hard for its passage before this 
Congress adjourns.
    However, there is still a great deal of work left to be done, and 
the bar must be set higher. To quote Secretary Shinseki in a recent 
meeting with me and other Members of this Committee, he said that 
``eliminating all homelessness among veterans may be impossible. 
However if we shoot for only 1,000 homeless veterans, that will be 
1,000 too many. We must aim for zero, and perhaps someday with enough 
hard work--we can get there.''
    I wholeheartedly agree with this sentiment. As long as these 
capable women and men go to sleep hungry, cannot provide for their 
families, and suffer from the physical and mental torments made even 
worse by their aimless wanderings, there is unfinished business that 
must be done.
    I look forward to the discussion of this hearing and all potential 
solutions to one of the greatest problems facing our country today.

                                 <F-dash>
                Prepared Statement of Hon. John Boozman
    Good morning.
    That any American is homeless is a tragedy, but that any veteran is 
homeless is doubly so and unacceptable.
    Mr. Chairman, that is why I am especially proud that the 
Subcommittee on Economic Opportunity, chaired by the distinguished 
Member from South Dakota, Ms. Herseth Sandlin, chose early in this 
session to pass H.R. 1171, a bill I introduced to extend the operation 
of the Homeless Veteran Reintegration Program for another 5 years. I am 
also pleased that the Full Committee saw the wisdom to report the bill 
to the floor and included an amendment by Ranking Member Buyer that 
would establish a new program targeting programs that served homeless 
women veterans and veterans with children.
    VA now estimates about 130,000 veterans are homeless on any night. 
That is a reduction from an estimated 250,000 just a few years ago so 
we must be doing something right. Can we do more, absolutely, but with 
significant resources being allocated to serving homeless veterans by 
VA, the Department of Labor, and HUD, the basic programs are in place 
and, in my estimation, the right way to continue reducing homelessness 
among veterans.
    Mr. Chairman, the Federal Government has to play a central role as 
a national coordinator and resource center for programs serving 
homeless veterans. In that role, Federal agencies must continue to 
foster and rely on the many local service providers, who in many areas, 
are the sole source of help for homeless veterans. The agencies have 
programs and staffs in place, and with some tweaking, such as some of 
the improvements suggested by today's witnesses, the Federal Government 
and local providers can do even more.

                                 <F-dash>
                Prepared Statement of Hon. Doug Lamborn
    Thank you Mr. Chairman.
    Each night approximately 131,000 veterans, the men and women who 
have served our country are among the Nation's homeless. While this 
number is alarming, we have seen a steady decrease in this number over 
the past few years, including a decrease of 15 percent from the 2007 
estimate and 33 percent lower than 2006. This reduction is encouraging, 
but we must take time to examine how to reduce this number even more 
and consider how to improve the effectiveness of the billions of 
dollars spent by our government every year to funds programs to end 
homelessness for veterans.
    Future funding for homeless veteran programs must continue to focus 
on providers that offer provide job skill training and transitional 
services and new programs that focus on the needs of rural veterans.
    That is why I was proud to support H.R. 1171, as amended the 
Homeless Veteran Reintegration Program Re-authorization Act of 2009, 
which was sponsored by Dr. Boozman and passed the house earlier this 
year. H.R. 1171, as amended, re-authorized the successful Homeless 
Veteran Reintegration Program that provides grant money to local 
homeless veteran providers who offer job skill training. I was also 
happy that the Committee accepted the amendment offered by Ranking 
Member Buyer to create a new HVRP grants for providers offering 
services to homeless veterans with children and to homeless women 
veterans.
    Many of today's witnesses discuss the needs of this emerging 
homeless population and I look forward to hearing more about what we 
might be able to do to help them and other homeless veterans.
    Thank you and I yield back the balance of my time.

                                 <F-dash>
Prepared Statement of John Driscoll, Vice President for Operations and 
           Programs, National Coalition for Homeless Veterans
    Chairman Filner, Ranking Member Buyer, and Distinguished Members of 
the Committee:
    The National Coalition for Homeless Veterans (NCHV) is honored to 
participate in this hearing to herald and to serve the legacy of this 
Committee and our partners in the campaign to end and prevent 
homelessness among our Nation's veterans.
    For two decades, largely due to the leadership in this chamber, the 
partnership we represent has built a community of service providers 
that has turned the tide in this historic campaign. Where once we 
considered the magnitude of our mission with caution and hope, we now 
celebrate phenomenal success in reducing the number of homeless 
veterans on the streets of America by more than half in just the last 7 
years, according to the most recent estimates by the Department of 
Veterans Affairs (VA).
    VA officials have repeatedly testified before Congress that the 
Department's partnership with community- and faith-based service 
providers and other Federal agencies with veteran-focused programs is 
the foundation of this success. NCHV believes it is also 
incontrovertible evidence that this battle can be won.
    The campaign to end veteran homelessness is now handed to the 111th 
Congress with the Nation ready to respond to your leadership as never 
before in its history. And once again NCHV pledges its resources, 
experience and vision to support your efforts in this noble cause.
VA Grant and Per Diem Program (GPD)
    GPD is the foundation of the VA and community partnership, and 
currently funds approximately 14,000 service beds in non-VA facilities 
in every state. Under this program veterans receive a multitude of 
services that include housing, access to health care and dental 
services, substance abuse and mental health supports, personal and 
family counseling, education and employment assistance, and access to 
legal aid.
    The purpose of the program is to provide the supportive services 
necessary to help homeless veterans achieve self sufficiency to the 
highest degree possible. Clients are eligible for this assistance for 
up to 2 years. Most veterans are able to move out of the program before 
the 2-year threshold; some will need supportive housing long after they 
complete the eligibility period.
    The program provides funds for nearly 500 community-based 
assistance programs across the Nation, and to its credit the VA has 
increased its investment in this program more than fivefold in the last 
decade. That funding increase is directly responsible for the proven 
success of the program in reducing the incidence of homelessness among 
veterans.
    Since its inception, the GPD program has served as a clinical 
intervention to help veterans overcome mental health and substance 
abuse barriers to successful reintegration into society as productive 
citizens. As it has evolved, it has increasingly been taxed to provide 
funding for under-served populations--women veterans, incarcerated 
veterans, and the frail elderly. The need to add service beds despite 
considerable VA budget pressures has further impacted grantees' ability 
to provide outreach services, an integral part of the program.
    In September 2007, despite the commendable growth and success of 
this program, the GAO reported that the VA needed an additional 11,100 
beds to adequately address the need for assistance by the homeless 
veteran population based on 2006 estimates. The VA has come close to 
half of that target in the last three funding cycles.
<bullet>  Recommendations:
       1. Increase the annual authorization and appropriation for the 
GPD program to $200 million, and establish this as a funding minimum, 
not a ceiling--(H.R. 2504, Rep. Harry Teague, D-NM)--The projected $144 
million in the president's FY 2010 budget request will allow for 
expansion of the GPD program, but not to the extent called for in the 
September 2007 GAO report. While some VA officials are concerned about 
the administrative capacity to handle such a large infusion of funds 
into the program, we believe the documented need to do so and the VA's 
emerging emphasis on prevention justifies this as a baseline funding 
level. As the VA moves to institutionalize its homelessness 
intervention and prevention strategies, the agency needs access to 
discretionary funds beyond the current constraints of the GPD program.
       Additional funding would not only increase the number of beds, 
it would enhance the level of other services that have been limited due 
to budget constraints. GPD funding for homeless veteran service 
centers--which has not been available in recent grant competitions--
could be increased.
       These drop-in centers provide food, hygienic necessities, 
informal social supports and access to counselors that would otherwise 
be unavailable to men and women who are unable to enter a residential 
program. Funding for mobile units to provide services to at-risk 
veterans in rural areas could be increased. For veterans of Operation 
Enduring Freedom and Iraqi Freedom (OEF/OIF) in particular, this 
outreach is vital in preventing future veteran homelessness.
       Additional funding could also be used to increase the number of 
special needs grants awarded under the GPD program. The program awards 
these grants to reflect the changing demographics of the homeless 
veteran population, and are specifically targeted to women veterans, 
including those with dependent children; the frail elderly; veterans 
who are terminally ill; and veterans with chronic mental illness. These 
grants provide transitional housing and supports for veteran clients as 
organizations work to find longer term supportive housing options in 
their communities.
       2. Change the mechanism for determining ``per diem'' 
allowances--Under the GPD program, service providers are reimbursed for 
the expenses they incur for serving homeless veterans on a formula 
based on the rate of reimbursement provided to state veterans homes, 
and those rates are then reduced based on the amount of funding 
received from other Federal sources. The current ceiling is about 
$33.00 per veteran per day.
       This policy is outdated for two reasons. The first is the 
difference in the cost of custodial care and the cost of comprehensive 
services that help individuals rebuild their lives. Whether provided on 
site or through contracts with partner agencies, the latter requires 
the intervention of highly trained professionals and intense case 
management. Revisions in the reimbursement formula should reflect the 
actual cost of services--based on each grantee's demonstrated capacity 
to provide those that are deemed critical to the success of the GPD 
program and veteran clients--rather than a flat rate based on custodial 
care.
       The second reason is that discounting the amount of an 
organization's ``per diem'' rate due to funding from other Federal 
agencies contradicts the fundamental intent of the program. In order to 
successfully compete for GPD funding, applicants must demonstrate they 
can provide a wide range of supportive services in addition to the 
transitional housing they offer. They should not be penalized for 
obtaining funds to enhance the services they are able to provide, 
regardless of the source of that funding.
Homeless Veterans Reintegration Program
    HVRP is a grant program that awards funding to government agencies, 
private service agencies and community-based nonprofits that provide 
employment preparation and placement assistance to homeless veterans. 
It is the only Federal employment assistance program targeted to this 
special needs population. The grants are competitive, which means 
applicants must qualify for funding based on their proven record of 
success at helping clients with significant barriers to employment to 
enter the workforce and to remain employed. It is one of the most 
successful programs administered by the Department of Labor.
    HVRP is so successful because it doesn't just fund employment 
services, it guarantees job placement and retention. Administered by 
the Veterans Employment and Training Service (VETS), the program is 
responsible for placing a range of 12,000 to 14,000 veterans with 
considerable challenges into gainful employment each year at an average 
cost under $2,000 per client.
<bullet>  Recommendation:
       1. Prevail upon appropriators--to the extent possible--to fully 
fund HVRP at its authorized level. The HVRP program has been authorized 
at a $50 million funding level since 2005, yet the FY 2009 
appropriation was only $26.3 million. The current funding level does 
not allow for growth of the program to meet the demand for assistance. 
Fewer than one-fourth of the organizations receiving GPD funding from 
the VA can receive HVRP funding at the FY 2009 spending level.

    The proven success and efficiency of the program warrants this 
consideration, and DOL-VETS has the administrative capacity, will and 
desire to expand the program.
Prevention
    In October 2006, NCHV participated as a subject matter expert on 
veteran homelessness at the ``Symposium on the Needs of Young 
Veterans'' in Chicago, sponsored by AMVETS. Service providers 
identified their greatest obstacles to providing support to OEF/OIF 
veterans and made recommendations on how to address those issues. It 
was my privilege to prepare the report on homelessness out of the 
Symposium.
    The recommendations in that report were reviewed by the Nation's 
veteran assistance providers at the 2009 NCHV Annual Conference in 
Washington, D.C., May 22, and virtually all of them were endorsed as 
essential components of a comprehensive prevention strategy. The 
Veteran Homelessness Prevention Platform can be viewed on the NCHV Web 
site at www.nchv.org.
    Both the primary causes of veteran homelessness and vital 
prevention initiatives can be grouped into three focus areas--health 
issues, economic issues, and a shortage of low-income and supportive 
housing stock in most American communities. The prevention 
recommendations requiring Congressional action are presented here in 
what NCHV believes is the order of most urgent need:
  <bullet>  Increase Access to Housing
       According to the 2007 VA Community Homelessness Assessment and 
Local Education Networking Groups (CHALENG) Report, one of the highest-
rated unmet needs among veterans in every region of the country is 
access to safe, affordable housing. This has been identified as a 
chronic community problem by many research and public interest groups, 
as well as government agencies and service providers.
       According to an analysis of 2000 Census data performed by Rep. 
Robert Andrews (D-NJ) in 2005, about 1\1/2\ million veterans--nearly 
6.3 percent of the Nation's veteran population--have incomes that fall 
below the Federal poverty level, including 634,000 with incomes below 
50 percent of the poverty threshold.
       1. Continue to increase the HUD-VA Supportive Housing Program 
(HUD-VASH) with another 20,000 Section 8 vouchers beyond the 20,000 
funded since Fiscal Year 2008. The National Alliance to End 
Homelessness (NAEH) released an analysis of available data in 2008 that 
showed up to 65,000 veterans could be classified as ``chronically 
homeless.'' Those are veterans with serious mental illness, chronic 
substance abuse issues and other disabilities; and they will need 
supportive housing over a long period, many for the rest of their 
lives. At a 40,000 voucher level, only two-thirds of this special 
population would be served.
       2. Pass the Homes For Heroes Act--(H.R. 403, Rep. Al Green, D-
TX)--Originally introduced in the 110th Congress and passed without 
opposition, this measure would make available to low- and extremely 
low-income veterans and their families 20,000 Section 8 housing choice 
vouchers; provide $200 million for the development of supportive 
housing units; fund grants to organizations providing services to low-
income veterans in permanent housing; and create the position of 
Veterans Liaison within the Department of Housing and Urban Development 
to ensure the needs of low-income and homeless veterans are considered 
in all HUD programs. The measure is expected to be introduced in the 
Senate by Sen. Charles Schumer (D-NY).
       3. Develop affordable housing programs for low-income veterans--
Every community in the Nation should incorporate into its 10-year plan 
a strategy to develop affordable housing stock to prevent homelessness 
among its low-income and extremely low-income individuals and families, 
with a set-aside for veterans in proportion to their representation in 
the homeless and low-income population estimates. Federal, state and 
local governments should develop incentives to drive this essential 
component of a national veteran homelessness prevention strategy.
  <bullet>  Increase Access to Health Services
       Mental Health--The VA reports that nearly 30 percent of the 
veterans of Iraq and Afghanistan who have sought VA medical care since 
separating from the military have exhibited potential symptoms of 
mental and emotional stress. Close to \1/2\ of those have a possible 
diagnosis of Post-traumatic stress disorder (PTSD). Of equal concern 
was the GAO report that a large percentage of Iraq War veterans whose 
Post-Deployment Survey responses indicated they were at risk of 
developing PTSD were not referred to Department of Defense or VA 
facilities for mental health screening and counseling (GAO Report, May 
16, 2006).
       Primary and Long-term Rehabilitative Care--While the VA has 
greatly increased the capacity and services of its nationwide health 
care system, many communities are under-served by VA programs. Many 
low-income veterans cannot afford health insurance, and many small and 
independent businesses do not offer health insurance coverage. These 
veteran families are one major medical problem removed from severe 
economic hardship that may, and often does, result in an increased risk 
of homelessness.
       1. There should be a national ``open door'' policy that ensures 
access to mental and primary health services to OEF/OIF veterans after 
discharge in (1) areas that are under-served by VA facilities, (2) for 
immediate family Members, and (3) for long-term rehabilitative care. 
Fee-for-service policies--contracts with approved community and private 
health care providers in under-served areas or those with insufficient 
VA capacity to meet demand--must not place additional burdens on 
veterans and their families.
       2. All VA and approved veteran health service providers should 
have access to emergency mental health services on a 24/7 basis, 
whether on site or through approved community mental health programs. 
This critical support must be real-time, face-to-face.
       3. National Veteran Health Insurance Program--Create a program 
based on a premium sliding scale to make health insurance available and 
affordable to all veterans and their families regardless of income 
status.
       4. Congress should ensure funding for the development and 
operation of the VA ``Resource Call Center'' so that veterans--and 
their family Members--who need assistance receive accurate, helpful 
information and referrals to VA and community resources in their area 
on a 24/7 basis.
       5. Require the VA and Department of Defense to produce public 
service announcements (PSA) informing veterans where they can find 
assistance, coined as a benefit earned through their military service 
to reduce the stigma associated with seeking help. Many veterans have 
no idea what benefits or assistance they are eligible for after their 
discharge.
   <bullet>  Increase Access to Income Supports
       For most Americans, economic hardships usually involve 
employment issues and mounting debt. The current housing crisis and 
economic downturn conspire most aggressively against younger veterans 
in terms of both housing cost burden and employment security. Though 
many military occupations prepare veterans for the workforce, many 
combat arms specialties do not, and this affects younger OEF/OIF 
veterans more than other age cohorts.
       OEF/OIF veterans are entitled to return to their pre-deployment 
jobs and pay scale under USERRA protection after their discharge, but 
increasingly many jobs are disappearing because of layoffs and business 
failures. Veterans who cannot find other employment quickly are in 
imminent danger of becoming dependent on shared living arrangements or 
becoming homeless. This issue is now presenting itself on equal footing 
as the health concerns usually associated with increased risks of 
veteran homelessness.
       1. Increase funding for and enforcement of Jobs for Veterans Act 
initiatives--The Jobs for Veterans Act enables the Department of Labor 
to provide homeless veterans and those at risk of homelessness with 
employment preparation assistance and job placement services. There are 
nearly 2,000 employment specialists working with veterans through the 
Veterans Employment and Training Service (DOL-VETS), and the law 
prescribes veteran preferences for Federal contractors and agencies.
       Additional funding would increase the number of DOL-VETS 
employment specialists in the field, create more job opportunities for 
veterans returning from Iraq and Afghanistan, and enhance the program's 
oversight and enforcement capabilities with respect to veteran 
preferences.
       2. Pass emergency legislation to provide unemployment 
compensation to OEF/OIF veterans who are not protected by USERRA (due 
to business failures and layoffs) at a percentage of their base 
military pay for a period of up to 12 months, rather than current 
prevailing local rates. Employment protection is one of the guarantees 
that men and women consider when volunteering to serve in this Nation's 
military--they should not be penalized for making that sacrifice.
       3. Develop a Federal certification project for certain trades 
and occupations that are readily accepted in all the states, and DoD 
and VA should share the cost of certification for OEF/OIF veterans 
within those disciplines for up to 1 year after their discharge. At a 
time of war, when nearly half of the combat forces are Members of state 
militias, this is a moral obligation shared equally by Federal and 
state governments.
In Summation
    Clearly, the homeless veteran assistance programs in place today 
have proven to be effective, efficient interventions that can help a 
majority of veterans overcome the difficulties that caused their 
homelessness. The VA and Department of Labor deserve great credit for 
the development of a national partnership of government and community-
based service providers. This Committee deserves high praise for the 
leadership that made our success possible.
    The infrastructure needed to prevent future veteran homelessness is 
already in place. The same partnership that has turned the tide in the 
campaign to end veteran homelessness has the knowledge and experience 
to help veterans before they lose control of their lives, their 
families and their homes. Continued investment in that infrastructure 
is the key to continued progress.
    NCHV wants to take this opportunity to remind the Nation that we 
were citizens first, before we were veterans. Every government agency, 
every community, our churches and businesses, our local veteran 
organization posts and civic groups have the means to make a difference 
in the lives of our former guardians in crisis. The VA cannot--and 
should not be expected to--bear the burden of veteran homelessness 
prevention alone. This campaign will be won in our communities, one 
veteran at a time.
    We owe this Committee a great debt of gratitude for bringing us to 
this hour and place, where we can focus on prevention far wiser than we 
were when the campaign to end veteran homelessness began.

                                 <F-dash>
  Prepared Statement of Dwight A. Radcliff, Sr., President and Chief 
    Executive Officer, United States Veterans Initiative, U.S. VETS
Organizational History
     United States Veterans Initiative (U.S. VETS) is a 501(c)(3) 
nonprofit corporation established specifically to address the unmet 
needs of homeless veterans and their families.
    Since inception in 1992, U.S. VETS has become a recognized leader 
in the field of service delivery to homeless veterans and the largest 
operator of homeless veteran programs in the country.
    Since 1993, U.S. VETS has expanded and currently operates:

    <bullet>  U.S. VETS--Inglewood, the inaugural site currently 
housing 485 veterans
    <bullet>  U.S. VETS--Long Beach, the largest housing facility for 
homeless veterans in the country, presently housing 525 veterans
    <bullet>  U.S. VETS--Las Vegas, currently housing 261 veterans
    <bullet>  U.S. VETS--Texas, housing 100 veterans and a drop-in 
Service Center at one site and 282 veterans at the Mid-Town site
    <bullet>  U.S. VETS--Arizona, housing 82 veterans in Phoenix, AZ, 
and 62 veterans in Prescott, AZ
    <bullet>  U.S. VETS--Hawaii, housing 210 veterans and operates a 
300 bed State of Hawaii facility for families in Honolulu, HI
    <bullet>  U.S. VETS--Washington, DC, 3 locations within the 
District, housing 40 veterans
    <bullet>  U.S. VETS--Riverside, housing 112 veterans

    Last night, more than 2,200 formerly homeless veterans slept at the 
eleven sites where U.S. VETS operates.
    U.S. VETS programs have served more than 18,000 homeless veterans 
with more than sixty-five percent making successful transitions into 
permanent housing in the community while achieving self-sufficiency.
    These veterans are receiving a wide array of comprehensive services 
according to their needs. We are assisting them to regain the skill 
that lead to self-sufficiency, which provides them with the sense of 
pride that accompanies a productive life. The services that we provide 
include; Outreach, Transportation, Secure and Sober Housing, Food, 
Nutritional Advice, Counseling, Mental Health Treatment, Alcohol and 
other Substance Abuse Services, Case Management Services, Permanent 
Housing Placement and Assistance Services, Education, Job Training, 
Veterans Benefits, Financial and Budget Management, Income Support, 
Legal Assistance and Independent Living Skills. All of our programs are 
collaborative efforts with local area providers, VA Medical Centers, 
and Local government Agencies, bringing the community as a whole into 
the solution for homeless veterans.
Operational Experience
    Since the initial opening of our V.A. Grant and Per Diem Program in 
June, 1997 at the Inglewood, California Site, U.S. VETS has expanded 
and currently operates 727 Grant and Per Diem Transitional Housing beds 
in five States, making it the largest single recipient of Grant and Per 
Diem funding. Our experience and reach over such a large geographic 
area provides us with a broad view of current and varying needs of the 
veterans we serve and has offered an indication of emerging needs for 
new veterans presently exiting military service. Our program 
development and design has always been based on feedback from the 
veterans we are serving, blended with empirical and evidence based 
practices. This approach to program design has led to the successful 
outcomes demonstrated in our comprehensive services.
    Our highly successful programs include:

       Veterans in Progress (VIP); employment re-entry programs in 7 
locations that consistently average an 80 percent employment rate for 
participants and assist more than 1,100 veterans secure full time 
employment each year. U.S. VETS has received national recognition and 
numerous employment awards for their efforts on behalf of homeless and 
unemployed veterans.
       Non-Custodial Father's Program; this unique program concentrates 
on reuniting veterans with their children.
       Advance Women's Program; which includes a module serving female 
veterans suffering from Post-traumatic stress disorder (PTSD) and/or 
sexual trauma.
       High Barriers Program; designed to address additional barriers 
that veterans often face (such as age discrimination, incarceration, 
felony histories) in getting back to work.
       Social Independent Living Skills; designed to assist senior 
veterans in their life transitions and end of life transitions.
       Critical Time Intervention (CTI); a special needs program 
focusing on chronic mental health needs for veterans.
       Service Center; a drop-in resource center for homeless veterans 
seeking information, computer classes and employment leads.
Current Predicament
    The Department of Veterans Affairs offers a wide array of programs 
and initiatives specifically designed to help homeless veterans. The VA 
is the only Federal Agency that provides substantial hands-on 
assistance directly to homeless persons. VA's specialized Homeless 
Veterans Treatment Programs have grown and developed since first 
authorized in 1987.
    Specifically, the Grant and Per Diem Program utilizes, what we 
view, as the most effective model in that it supports collaboration 
with community based organizations. Community Based Organizations 
(CBO), represent the most efficient means of service provision in that 
they are able to do ``more with less''.

    <bullet>  Cost Reimbursement--Current Grant and Per Diem 
regulations allow for payments of up to $34.40 per day based upon cost 
reimbursement, requiring the CBOs to have the initial funding for 
operational start-up. The $34.40 per diem, paid approximately 60-75 
days later, is rarely enough to house, feed and case manage veterans 
enrolled in the program. Additionally, the cost reimbursement model 
necessitates additional administrative burdens leading to costs of up 
to fifteen percent to be subtracted from the daily per diem and 
therefore subtracted from services to the veteran. Programs are left 
with $29.24 per day to provide services.
    <bullet>  Per Diem Rate--The maximum reimbursement rate of $34.40 
per day is hardly enough to provide a high level of comprehensive 
services. Typically, salaries, housing, and food cost consume most of 
the operational revenues. This compels the CBO to focus on acquiring 
other resources to collectively patchwork programs together with 
additional funding oftentimes resulting in the pursuit of streams of 
funding not specifically targeted toward the mission of ``service to 
veterans''.
    <bullet>  Eligible Expenses Exceeding Cost Reimbursement--Grant and 
Per Diem funding is distributed over a 12-month period, with a 
reconciliation of funding at the close of the grantee's fiscal year. 
Necessary costs of operating a successful per diem program oftentimes 
exceed the current per diem rate of $34.40. Each year, per diem 
grantees reconcile grant funds and reimburse the VA if the costs of 
operating the program were less than the grant award. However, if 
expenses for eligible activities exceed the per diem reimbursement, the 
grantee operates the program at a deficit. Programs typically have to 
cut back services to veterans to mitigate the deficit.
    <bullet>  Disaster Relief Reserves--In the event of a natural 
disaster, Grant and Per Diem grantee programs continue to provide 
services to veterans. Sometimes, these services include the relocation 
of veterans from per diem housing to temporary housing or transitioning 
the veterans to other per diem programs. U.S. VETS operates per diem 
programs in Houston, Hawaii, and California, states with high 
probability of natural disasters, and has been impacted in the last 4 
years by Hurricanes Katrina, Rita, and Ike. Program food reserves were 
available; however, the hurricane conditions forced us to execute our 
Disaster Plan and prepare to transition veterans to other locations for 
their safety. Fortunately, the veterans were able to stay in their per 
diem residences, but if the transition were necessary, U.S. VETS would 
have incurred expenses to operate the transition that would have far 
exceeded the per diem cost reimbursement model for the rate amount and 
for the delay in per diem reimbursement.
    <bullet>  Disallowing of Match--Typically, three major Federal 
sources of funding are utilized for these Programs. Department of Labor 
VETS (DOL), Department of Housing and Urban Development (HUD), VA Grant 
and Per Diem are pursued in order to put together the much needed 
funding and resources to operate successful programs. HUD Supported 
Housing Program funding requires matching funds for services for which 
VA funding is not eligible.
Solutions
    U.S.VETS views this testimony as an opportunity to provide input 
from the field that could help solve many of the dilemmas that face 
community based organizations. Organizations like U.S.VETS struggle 
financially on a daily basis to provide the high level of services our 
veterans deserve. The following recommendations are suggested as 
measures the government could take to bring more assistance to veterans 
who have fallen into homelessness:

    <bullet>  Increase and appropriate the Grant and Per Diem rate to 
up to $65 per day, utilizing the current per-diem rates under Federal 
guidelines, which provide consideration to geographic location.
    <bullet>  Require VA to utilize a ``Fees for Services'' model.
    <bullet>  Allow the VA to reimburse per diem grantees at the close 
of the fiscal year if a grantee program exceeds the standard per diem 
rate by utilizing the funding for eligible and necessary services to 
veterans.
    <bullet>  Allow VA Grant and Per Diem grantees to maintain a 
Disaster Relief Reserve in the event of a natural disaster. Either the 
Disaster Relief Reserve can be an additional non-competitive grant for 
per diem programs, or the VA can allow programs to maintain part of the 
per diem funds continuously and not be required to reconcile that fund 
relief during the fiscal year reconciliation process.
    <bullet>  Allow the VA to be utilized as eligible match with other 
homeless Federal sources of funding.
    <bullet>  Approve and appropriate the ``Homes for Heroes Act''.

    Unless the Federal Government demonstrates the political will to 
tackle this problem in a substantial way, there will continue to be 
veterans who fall through the cracks and end up on our streets.

                                 <F-dash>
            Prepared Statement of Marsha (Tansey) Four, RN,
        Director, Homeless Veterans Services, Philadelphia, PA,
         Veterans Multi-Service and Education Center, Inc., and
      Chair, Woman Veterans Committee, Vietnam Veterans of America
    Good morning Mr. Chairman, Ranking Member Buyer, and distinguished 
Members of the House Veterans Affairs Committee. Thank you for giving 
Vietnam Veterans of America (VVA) the opportunity to offer our comments 
on the National Commitment to End Veterans' Homelessness.
    Homelessness continues to be a significant problem for veterans. 
Among male homeless veterans those of the Vietnam Era are still of the 
highest percentage, although it is decreasing. Among women veterans 
this percentage is highest for those of the peace time era after 
Vietnam and before Gulf War I. In part this is due to the fact that 
until the end of the Vietnam Era, woman, by law, were only able to make 
up 2 percent of the Active Duty Force. The VA estimates about one-third 
of the adult homeless population have served their country in the Armed 
Services. Newly released population estimates suggest that about 
131,000 veterans are homeless on any given night and perhaps twice as 
many experience homelessness at some point during the course of a year.
    Homelessness has varied definitions and many contributing factors. 
Among these factors are PTSD, a lack of job skills and education, 
substance abuse and mental-health problems. The homeless require far 
more than just a home. A comprehensive, individualized assessment and a 
rehabilitation/treatment program are necessary, utilizing the 
``continuum of care'' concept. Assistance in obtaining economic 
stability for a successful self-sufficient transition back into the 
community is vital.
    Although many need help with permanent housing, some require 
housing with supportive services, others need long-term residential 
care and some, in reality, will chose to remain in their homeless life 
situation. Will homeless veterans cease to exist . . . I'm not sure 
that is possible. But I do believe that if we continue to work on the 
issues together in a concerted, cohesive, and collaborative fashion, 
committed to the mission, and investing our energies, seeking to 
understand the needs of the veterans and developing programs that meet 
those ever changing needs, we will succeed in providing the best we can 
to those homeless veterans who recognize our passion and commitment to 
them, while holding on to a hope that may have almost disappeared. Some 
have not trusted in a long time and we have to prove we can be trusted 
with their lives and that their lives are worth the saving.
VA HOMELESS GRANT AND PER DIEM PROGRAM
    The VA's Homeless Grant and Per Diem Program has been in existence 
since 1994. Since then, with this investment made by the VA, thousands 
of homeless veterans have availed themselves of the programs provided 
by community-based service providers. In some areas of this country, 
the VA, community-based service providers, and local governments work 
successfully in a collaborative effort to actively address homelessness 
among veterans. The community-based service providers are able to 
supply much needed services in a cost-effective and efficient manner. 
The VA recognizes this and encourages residential and service center 
programs in areas where homeless veterans would most benefit. The VA 
HGPD program offers funding in a highly competitive grant round. VA 
credits HGPD and VA outreach for the drop on the number of homeless 
veterans previously mentioned from 250,000 to as low as possibly 
131,000. VVA also believes that the expansion of the Homeless Veterans 
Reintegration Program (HVRP), used in tandem with the above cited 
programs, has helped homeless veterans and formerly homeless veterans 
obtain and retain employment, thus stabilizing their financial and 
emotional situation, enabling them to keep off the street. HUD VASH 
with its VA case management will certainly provide a great asset for 
those veterans who need to maintain a closer connection with services.
    However, VVA and providers are concerned that the long term effects 
of the current Global War On Terrorism will produce a significant 
impact on the number of homeless from this new generation of veterans. 
The unemployment rate will ``heap on'' increased difficulties adding to 
the spectrum of difficulties and stress that compounds life's burdens 
often leading to homelessness.
    VVA believes that the VA Homeless Grant and Per Diem program is 
vital to the efforts being made to confront and attack the disgrace of 
homeless veterans in this country. Its impact on the reduction of the 
number of homeless veterans in America is profound. VVA also believes 
that the VA's increased partnership with local government agencies has 
played a significant role in bringing the plight of these veterans to 
the forefront in communities across this Nation. And no one can deny 
the powerful role that non-profit agencies have played in providing the 
manpower, services, and assistance that brings an added heart and soul 
to the programs of the VA Homeless Grant and Per Diem initiative. But 
small nonprofits do face difficulties along the way.
    At times it is not easy for nonprofit agencies to forestall debt in 
attempting to accomplish the mission of its homeless programs. For some 
it is the financial challenge of the ``reimbursement'' method utilized 
by VA. According to the understanding of some nonprofits that use the 
accrual basis for accounting, the agency is expected to incur an 
expense and then pay the expense before it can invoice the expense for 
reimbursement. As an example: a $20,000 food expense is incurred in 
June, the invoice is due in thirty days so it is paid in July. Then the 
agency can invoice VA in August for the July paid bill and get 
reimbursed by maybe mid to late September. In real life, nonprofits 
cannot front the expenses for over 2 months before reimbursement. It is 
impossible unless it uses its line of credit which then incurs an 
interest expense that can't be charged off anywhere.
    Another situation that proves challenging for non-profit grant 
recipients is meeting the requirements of proven expenses in order to 
justify an increase in the per diem rate if they are not receiving the 
highest amount available under the law. These agencies must justify the 
need for an increased per diem rate based on the program expenses as 
indicated on the previous fiscal year's annual audit. Therefore the 
non-profit agency must over spend money in order to increase the 
program expenses so that a need for the increased per diem rate can be 
identified and justified. Non-profit agencies exist on nearly bare 
bones dollars and spending beyond their budgets is nearly impossible. 
All programs are budget driven and they work as close to the budget as 
possible in order to remain solvent. So therein lays the dilemma in 
attempting to increase its per diem rate. This process is limiting to 
program function, enhancement, and staffing levels.
    Some Federal agencies and private grant funders structured their 
financial awards in such a way that the budgeted dollars for the coming 
year are projected, requested, and available on a monthly basis. This 
budget is then approved as the cap for the projected program year and 
no more than those funds are made available. It seems that this per 
diem payment structure should be investigated. It also appears to be 
more ``user'' friendly, less complicated, and more feasible for the 
grant recipient. One of the resounding questions that non-profit 
agencies have is, ``Why aren't these programs seen as a ``fee-for-
service'' operation instead of a reimbursement?'' It would be so simple 
to set aside the allowable per diem rate for the number of beds in a 
program on an annual basis and permit the nonprofits to draw down on 
this amount on a monthly basis equal to the number of beds occupied for 
the month. It's pretty hard to imagine that any one wouldn't think that 
$34.40 per day is the best bargain in town to provide housing, care and 
treatment for a veteran. The amount of work and the staff time required 
to accommodate the current system is a drain on the entire system to 
include that of the VA. This request would require a change to the law 
but is one for which we would ask be fully investigate and considered 
and VVA would like to have further discussion on this topic.
OUTREACH
    One of the frontline outreach programs funded by VA HGPD is the Day 
Service Centers, sometimes referred to as Drop In Center. These centers 
reach deep into the homeless veteran population that are still on the 
streets and in the shelters of our cities and towns. Under the VA HGPD 
program they receive per diem at rates based on an hourly calculation 
per diem ($4.30) for the actual time that the homeless veteran is 
actually on site in the center. This amount may cover the cost of the 
coffee and food that they receive but it does not come close to paying 
for the professional staff that must provide the assistance the 
veterans need long after they leave the facility. As one can well 
imagine the needs of these veterans are great and demand enormous 
amounts of time, energy, and manpower in order to be effective and 
successful. It is for this reason, the lack of available funding, that 
many service centers for homeless veterans have closed or could never 
open even after being funded by VA HGPD. This is a tremendous loss to 
the outreach efforts so important in connecting the homeless veterans 
with the VA.
    The reality is that most city and municipality social services do 
not have the knowledge or capacity to provide appropriate supportive 
services that directly involve the treatment, care, and entitlements of 
veterans. It is for this reason that these homeless veterans' service 
centers are so vital. These service centers need help and a re-
vitalization in order to be re-instituted as the effective outreach 
tool that they were designed to be. VVA believes that it is possible to 
create ``Service Center Staffing/Operational'' grants, much like the VA 
``Special Needs'' grants, already in existence. It would not be setting 
precedence. VVA supports and seeks legislation to establish Supportive 
Services Assistance Grants for VA Homeless Grant and Per Diem Service 
Center Grant awardees.
CONSOLIDATION OF VA HGPD PROJECTS
    In the past, some successful VA HGPD residential programs 
identified a need for increased bed space due to the number of veterans 
requesting admission. These programs requested additional beds under a 
``Per Diem Only'' (PDO) grant process and were awarded the ability to 
increase their overall program beds. Here's where it gets tricky. Since 
the original grant and the PDO grant were awarded at different times 
they have separate ``project numbers'' While it is the same program 
with the same expenses, though increased in capacity and costs, they 
are required to divide out by percentage the number of beds under each 
project number in all reporting process. This is also required in 
requesting the per diem rates for the program. Not only is this a very 
time consuming process on the reporting side, it can be detrimental to 
the program in that not only does each project number end up with two 
different per diem rates for the same program, all expenses for the 
program on the bookkeeping side of the agency have to be calculated by 
percentage. VVA believes that if a single program has two different 
project numbers based solely on an approved expansion, that program 
should be treated as a whole and the two projects numbers should be 
merged. To do so would allow an agency to function in a more efficient 
manner, have access to an appropriate and true per diem structure, and 
reduce the paper work for even the VA HGPD offices. VVA request that 
this issue also have further discussion because any changes may also 
require legislation.
WOMEN VETERANS
    Women comprise a growing segment of the Armed Forces, and thousands 
have been deployed to Iraq and Afghanistan. This has particularly 
serious implications for the VA health care system because the VA 
itself projects that by 2010, over 14 percent of all veterans utilizing 
its services will be women.
    The nature of the combat in Iraq and Afghanistan is putting 
servicemembers at an increased risk for PTSD. In these wars without 
fronts, ``combat support troops'' are just as likely to be affected by 
the same traumas as infantry personnel. They are clearly in the midst 
of the ``combat setting''. No matter how you look at it, Iraq is a 
chaotic war in which an unprecedented number of women have been exposed 
to high levels of violence and stress. Nearly 200,000 female soldiers 
have been deployed to Iraq and Afghanistan . . . this compared to the 
7,500 who served in Vietnam and the 41,000 who were dispatched to the 
Gulf War in the early nineties. The death and casualty rates reflect 
this increased exposure.
    There have been few large-scale studies done on the particular 
psychiatric effects of combat on female soldiers in the United States, 
mostly because the sample size has been small. More than one-quarter of 
female veterans of Vietnam developed PTSD at some point in their lives, 
according to the National Vietnam Veterans Readjustment Survey 
conducted in the mid-eighties, which included 432 women, most of whom 
were nurses. (The PTSD rate for women was 4 percent below that of the 
men.) Two years after deployment to the Gulf War, where combat exposure 
was relatively low, Army data showed that 16 percent of a sample of 
female soldiers studied met diagnostic criteria for PTSD, as opposed to 
8 percent of their male counterparts. The data reflect a larger 
finding, supported by other research that women are more likely to be 
given diagnoses of PTSD, in some cases at twice the rate of men.
    Matthew Friedman, Executive Director of the National Center for 
PTSD, a research-and-education program financed by the Department of 
Veterans Affairs, points out that some traumatic experiences have been 
shown to be more psychologically ``toxic'' than others. Rape, in 
particular, is thought to be the most likely to lead to PTSD in women 
(and in men, where it occurs). Participation in combat, though, he 
says, is not far behind.
    Much of what we know about trauma comes primarily from research on 
two distinct populations--civilian women who have been raped and male 
combat veterans. But taking into account the large number of women 
serving in dangerous conditions in Iraq and reports suggesting that 
women in the military bear a higher risk than civilian women of having 
been sexually assaulted either before or during their service, it's 
conceivable that this war may well generate an unfortunate new group to 
study--women who have experienced sexual assault and combat, many of 
them before they turn 25.
    Returning female OIF and OEF troops also face other crises. For 
example, studies conducted at the Durham, North Carolina Comprehensive 
Women's Health Center by VA researchers have demonstrated higher rates 
of suicidal tendencies among women veterans suffering depression with 
co-morbid PTSD. And according to a Pentagon study released in March 
2006, more female soldiers report mental health concerns than their 
male comrades: 24 percent compared to 19 percent.
    VA data showed that 25,960 of the 69,861 women separated from the 
military during fiscal years 2002-06 sought VA services. Of those 
seeking VA services 35.8 percent requested assistance for ``mental 
disorders'' (i.e., based on VA ICD-9 categories). Of these, 21 percent 
was for Post-traumatic stress disorder or PTSD, with older female vets 
showing higher PTSD rates. Also, as of early May 2007, 14\1/2\ percent 
of female OEF/OIF veterans reported having endured military sexual 
trauma (MST). Although all VA medical centers are required to have MST 
clinicians, very few clinicians within the VA are prepared to treat co-
occurring combat-induced PTSD and MST. These issues singly are ones 
that need address, but concomitantly create a unique set of 
circumstances that demonstrates another of the challenges facing the 
VA. The VA will need to directly identify its ability and capacity to 
address these issues along with providing oversight and accountability 
to the delivery of services with qualified therapists and clinicians in 
this regard. All of these issues, traumas, stress, and crises have a 
direct effect on the women veterans who find themselves homeless.
HOMELESS WOMEN VETERANS
    While the overall number of homeless veterans is decreasing, and 
rather significantly over the past few years, the number of women 
veterans in this population is rising. When it was reported that there 
were 250,000 homeless veterans, 2 percent were considered to be female, 
roughly 5,000. Of the current estimate of 131,000, approximately 4-5 
percent are women veterans, which can be as high as 6,550. Striking, 
however, is the fact that the VA also reports that of the new homeless 
veterans (OEF/OIF), they are seeing this is as high as 11 percent for 
woman veterans.
    It is believed that this dramatic increase is directly related to 
the increased number of women now in the military (15 percent-18 
percent). About half of all homeless veterans have a mental illness and 
more than three out of four suffer from alcohol or other substance 
abuse problems. Nearly forty percent have both psychiatric and 
substance abuse disorders. Homeless veterans utilize the entire VA the 
same as any other eligible group of veterans. Therefore all delivery 
systems and services offered by the VA have an impact on homeless 
veterans, as do they on it.
    The VA must be prepared to provide services to these former 
servicemembers in appropriate settings.
    One of the confounding factors with homeless women veterans is the 
sexual trauma many of them suffered during their service to our Nation. 
Few of us can know the dark places in which those who have suffered as 
the result of rape and physical abuse must live every day. It is a very 
long road to find the path that leads them to some semblance of 
``normalcy'' and helps them escape from the secluded, lonely, fearful, 
angry corner in which they have been hiding.
    Not all residential programs are designed to treat mental health 
problems of this very vulnerable population. In light of the high 
incidence of past sexual trauma, rape, and domestic violence, many of 
these women find it difficult, if not impossible, to share residential 
programs with their male counterparts. They openly discuss their 
concern for a safe treatment setting, especially where the treatment 
unit layout does not provide them with a physically segregated, secured 
area. They also discuss the need for gender-specific group sessions.
    Reports also indicate that in mixed gender residential programs, 
women remain fearful, isolated, stifled, and unsafe. This rises from a 
number of fronts. Women have had very different experiences from male 
veterans not only in the military but after also. Some women live as 
victims of extremely violent pasts. They have been used, abused, and 
raped. They trust no one. They fear that any day it could happen again. 
They are suspicious and paranoid.
    Some women have sold themselves for money, taking part in 
unimaginable activities in order to pay for food, a bed, or drugs. Some 
have reported being sold for sex at the age of three. They wake up 
everyday, remembering what they did, encased in total humiliation and 
guilt. They have given away very own children . . . this they also live 
with for the rest of their lives.
    In order to survive on the streets or stay alive moving from house 
to house or bed to bed, they can become callused, aggressive, and 
develop attitude. This behavior can often be a means to remain safe, or 
to keep predators at bay. In light of the nature of some of their 
personal and trauma issues, and the humiliation and guilt they must 
endure, how can anyone expect these women veterans to open up to 
therapy and profit from mixed gendered group therapy. While some 
facilities have found innovative solutions to meet the unique needs of 
women veterans, others are still lagging behind. VVA requests that all 
residential treatment areas be evaluated for the ability to provide and 
facilitate these services, and that medical centers develop plans to 
ensure this accommodation.
SPECIAL NEEDS GRANTS
    The first funded programs utilizing this tremendous asset 
legislated by Congress came online in late 2004 . . . early 2005. The 
grants were developed to provide additional grant funding, in addition 
to VA per diem, for programs that were designed to attend to the needs 
of homeless veterans that were especially challenging. This special 
funding included six categories of homeless veterans: chronically 
mentally ill, the frail elderly, terminally ill, or women and women 
with children. While my comments will address specifically the grants 
for women veterans, in general, they can be reflective of the advantage 
that these funds provide to all the special needs population.
    The need for women-specific programs is easy to understand if we 
take it to the basics. First: there is a powerful need on the part of 
many of the women to avoid men due to the percentage of them who have 
suffered physical, emotional, and sexual abuse at the hands of men. 
Second: we believe that successful programs are those that provide an 
atmosphere where the veteran can remain focused on themselves and their 
recovery, be it from addiction or mental health problems. If a program 
is mixed gendered the veterans have a tendency to ``focus'' on or 
involve themselves with others that may be detrimental to their most 
successful program outcomes.
    While I speak on behalf of VVA, I am employed by The Philadelphia 
Veterans Multi-Service & Education Center, a small nonprofit agency 
with a nearly thirty-year history of working exclusively with veterans. 
I am its Program Director for Homeless Veteran Services and also serve 
as the Program Director for the Mary E. Walker House, its thirty bed 
transitional residence for homeless women veterans. This program was 
awarded one of the first Special Needs Grants. The Walker House opened 
its doors on January 3, 2005. It is the largest women veteran specific 
program funded under VA Grant and Per Diem in the country and accepts 
applications from anywhere in the country. To date we have had 
applications from 13 Veteran Integrated Service Networks (VISN) and 
admitted women from 10 VISNs.
    To date 145 women veterans have chosen to live at the Walker House. 
While they are able to stay for up to 2 years, last fiscal year their 
average length of stay was 305 days.
    Since there are so few women veteran specific long-term residential 
programs from which to collect data for research, I suspect much of my 
comments will not be scientifically proven. But I venture to say that 
anyone who has worked with a female veteran population will support 
what I have personally experienced.
    The reality of the day to day operation of a program such as The 
Mary E. Walker House is complex far beyond imagination. It demands a 
rechargeable battery of patience and a readily available sense of humor 
in order to personally survive the challenges that await daily. The 
work can be exhaustive, in part due to the qualities and 
characteristics of this gender population, and in part due to the 
complexity and multiplicity of presenting problems, issues, histories, 
debt, legal and court issues, employability, and diagnoses of each 
woman.
    As the Director of Homeless Services for the agency, I had years of 
experience with a ninety-five bed transitional residence for male 
veterans. Few women would enter because it was so highly populated with 
men. It was not imagined that an exclusively women veterans program 
would function or demand much more than we were used to providing in 
the men's program. We had not factored into the equation the fact that 
with so few locations available for this gender specific population . . 
. women who fit nowhere else in the system, women who were considered 
``too sick'' for general homeless programs, or those who could not 
survive in other available mixed gender programs. These factors may 
exaggerate our program findings, but if the women veterans of our 
program are a true cross-section of the complicated and complex 
situations faced by homeless women veterans as a specific cohort, then 
I say that without the assistance of the Special Needs Grants, we could 
never find enough resources to fulfill our mission in their regard.
    Their needs are profound as you can see from some of our 
demographics. Of those women admitted to the Mary E. Walker House:

       Age: 4 percent under 25; 21 percent under 40; 51 percent under 
50; 24 percent under 65.
       Era of Service: VN Era--10 percent; Peace Time--54 percent; 
Persian Gulf-- 
     percent; OEF/OIF--2 percent; GWOT--8 percent.
       Service Connected Disability: 36 percent.
       Drug and Alcohol Recovery: 89 percent.
       Sexual Trauma: Childhood--37 percent; Pre/Post military--42 
percent MST-63 percent; multiple categories--48 percent; Combined MST 
and other sexual abuse--80 percent.
       Domestic Violence: 46 percent.
       Mental Health: PTSD-51 percent; Bipolar--26 percent; Adjustment 
Disorder--10 percent; Personality Disorder--12 percent; Self Harm--12 
percent; Cognitive Disorder--5 percent; Schizophrenia--6 percent; 
Depressive Disorder--50 percent; OCD--5 percent; also includes 
Borderline personality disorder, Histrionic disorder, Narcissism, 
Suicidal Ideation, and Paranoia.
       Medical Issues: these are wide and varied, include every system 
of the body to include stroke, cardiac, GYN, diabetes, orthopedics, 
pulmonary, and endocrine to name a few.

    At times, the Mary E. Walker House could be viewed as a Seriously 
Mental Ill (SMI) program. Through the coordinated and team effort of 
reviewing the applications, if the woman veteran meets our eligibility 
criteria and if we feel we are able to bring assistance we will not 
deny admission, no matter how difficult or extraordinary the situation. 
Some of our women have actually qualified for the VA Mental Health 
Intensive Case Management Program (MHICM) and were placed in MHICM upon 
discharge. This program and others like ours did not have the necessary 
and appropriate level of professional staff to address the needs of 
these women they would continue to flounder. The foresight of the 
Special Needs Grant Program to include the ability of the local VA 
Medical Center to request additional grant funding for itself has 
allowed for an expansive infusion of dedicated staff and treatment 
components. This element is vital and must not be lost in the future. 
These enhancements have elevated the special needs programs into a new 
dimension of partnership between the VA with HGPD awardees. The Special 
Needs Grants give recognition to the challenges faced by these defined 
groups of homeless veterans.
    Per Diem alone could never meet the demand for staffing and program 
components to effectively and successfully reach into the complexity of 
their situations. Without the Special Needs Grants, programs such as 
ours, which fill an enormous gap in the system for women veterans and 
other special needs populations, would fail these veterans. They would 
ultimately be lost again, perhaps forever. VVA is in support of the 
renewal of these grants when they must be considered in 2011.
HOMELESS WOMEN VETERANS AND MILITARY SEXUAL TRAUMA (MST) RESIDENTIAL 
        PROGRAMS
    Military sexual trauma is not exclusive to women veterans while 
percentages are higher in the VA for women veterans the actual numbers 
are fairly even. Because we have such a high incidence of this trauma 
in the homeless women veteran population and in some instances it is 
the reason they are homeless I bring forward the follow discussion.
    The VA has given increasingly more attention to the issue of MST. 
Professional staff have been trained, specialist in this arena of 
treatment have been hired. Counselors are located in the Vet Centers. 
But clearly the need is not decreasing. VVA believes more emphasis must 
be made on the qualification and certification of those providing this 
treatment and that more residential gender specific/MST specific 
programs should be initiated.
    Military Sexual Trauma (MST) residential programs do exist within 
the VA. However, if the list of these programs is studied it can be 
noted that not all are specific to MST. Some are PTSD programs that 
have an element of MST. Others are not gender specific. And we believe 
there is only one male specific-MST specific residential program in the 
country at Bay Pines VA Medical Center in Florida. We have been given 
to understand that these programs report that they are meeting capacity 
needs because they can accommodate admissions without a waiting list. 
VVA believes this is an illusion and may be true because they do keep a 
rolling waiting list. Some women veterans are waiting months to make 
access to these programs after they have been referred and have made 
application. During this waiting period these veterans run the very 
real risk of relapse or crisis. Another detriment to applying to these 
few and far between programs is not only the application wait time but 
the distance a veteran must travel to receive this intensive 
residential treatment program. This travel can incur a significant cost 
to the veteran and if they happen to be within the homeless population 
it can be prohibitive. VVA would encourage the VA to establish a gender 
specific-MST specific residential program located within every VISN in 
the country and that there be allowances for the male veterans in an 
alternating gender specific program component. VVA feels this may well 
contribute to the elimination of homelessness among specific cohorts of 
homeless veterans. We also feel that it may play a proactive role in 
the prevention of homelessness.
    VVA was very encouraged by the President's interest and commitment 
on the issue of zero tolerance for homeless veterans, while we will 
work in support of the President's desire to end homelessness among all 
veterans, this will proved be a very challenging undertaking for all 
those who are working in the arena. I thank you for providing me the 
opportunity to speak with you today. This concludes my testimony. I 
will be pleased to answer any questions you may have at this time.

                                 <F-dash>
Prepared Statement of Chief Warrant Officer James S. Fann, USA (Ret.), 
                Director, Manna House, Johnson City, TN
    I am James S. Fann, retired Chief Warrant Officer, U.S. Army, a 
Vietnam Veteran, a Member of Rolling Thunder Chapter 4, and currently 
Director of The Manna House. Manna House, part of Fairview Housing 
Management Corp., is a transitional housing facility for homeless men 
in Johnson City, Tennessee. Manna House is a 21-room transitional 
housing/recovery facility that serves the needs of homeless United 
States Armed Forces veterans seeking to transition toward permanent 
housing. Acquired in 1998 as a boarding house, it was converted in 2001 
into a recovery transitional facility funded by U.S. Department of 
Housing and Urban Development (HUD) and Veteran's Administration (VA) 
funds. We are currently funded under the HUD Continuum of Care (CoC) 
grant and average more than 50 percent veterans as our homeless 
residents.
    Federal officials report more than 154,000 veterans in this country 
are without a place to call home. In the Appalachian Regional Coalition 
on Homelessness' (ARCH) last 24 hour survey and count of the homeless 
in the eight-county area of Upper East Tennessee reported nearly 30 
percent of the 1,600 homeless were veterans. Homelessness is not just a 
problem among middle-age and elderly veterans, younger veterans from 
Iraq and Afghanistan are now showing up in our homeless shelters. At 
this time we have more than twenty men on our waiting list. Ten of 
those men are veterans, four fought in Iraq. Mental illness especially 
post-traumatic stress disorder and substance abuse have long been seen 
as the major causes of homelessness among our veterans. While those are 
certainly factors, they are not the only reasons veterans are left 
homeless. Affordable housing, medical care, mental health counseling, 
case management and education/employment assistance to transfer their 
military jobs into marketable civilian positions need to be expanded in 
an aggressive outreach program for our veterans.
    The HUD and VA CoC grants and other Federal and state grant 
programs have certainly helped to expand our ability to provide 
services for the homeless veterans, however, we need to dedicate even 
more services to help these men, women and families. I personally 
believe that people who don't have shelter are houseless--not homeless! 
Homelessness has nothing to do with a lack of shelter. We can define 
homelessness as an inadequate experience of connectedness with family 
and or community. This fact is now recognized by Habitat, the United 
Nations Human Settlements Programme. Think of the illness, poor 
nutrition, exposure to the elements and even the elective crime some of 
the homeless may be involved in just to be able to eat or have a roof 
over their heads. Also, imagine that, only having contact with people 
in the community who are paid to have contact with you! This is chronic 
homelessness. In my opinion, the vet suffers from all the same problems 
that any other person has who becomes homeless--but add one more 
factor--finding a job that you can do as a civilian that you were 
trained for in the military. This creates a problem for the vet--he is 
trained to fight the enemy and do a job but there are none of those 
jobs available in the civilian world. We need to reeducate and retrain 
our veterans for reentry into the civilian world.
    We are looking for a quick fix solution to the problem--housing 
first--let's give them an apartment--but who are they going to invite 
to their apartment, other homeless people, and how long will they last 
isolated from the community. If the problem was a lack of shelters for 
the homeless, why aren't all the homeless shelters always full? During 
winter they are more busy but more shelters won't solve the problem. 
Give them an address to get their mail, a telephone number for messages 
and a place to get the services they need. They apply for services but 
we cannot reach them to change dates or bring them back to obtain the 
service. Even at the VA, if they miss an appointment, they may be 
dropped from the treatment rolls. We need a way to better communicate 
and case manage the veteran.
    Get to know some homeless in order to understand what they need to 
change their lives. Make the homeless a priority--we can feed the world 
but we let some of our own go hungry. We can rebuild countries but 
cannot make housing affordable for the person who is homeless. Our 
veterans can't get a job, work for a temporary service, or even open a 
bank account because they have no state identification card. In order 
to get the card, they need proof of a physical address, their birth 
certificate, Social Security card and another picture ID card. The VA 
ID card is not acceptable because it does not have the veteran's Social 
Security number on it for privacy reasons. Even if they have all of 
this, they may not have transportation to get to the Driver's License 
station. Without a bank account or physical address, they cannot 
receive their benefit check or other checks designed to help them which 
are required to be direct deposited. Consolidate services that can be 
effective for the average homeless person as well as our homeless 
veterans.
    We at the Manna House believe that the majority of persons 
``falling through the cracks'' of society are middle aged males who are 
perceived as ``drunken lazy bums''. These individuals have the most 
difficulty accessing and ``navigating'' the system because the system 
is designed to defeat them. Manna House is attempting to be a safety 
net for those persons whom society has deemed criminal, worthless, or 
even expendable. Our residents, especially our homeless veterans, are 
real people with real problems that can be solved. We can, and do, set 
them on the path to becoming productive citizens in our community. Our 
discharge history will bear this out.
    The programs we have in place are effective but could be more 
effective if we were to expand our transportation, education and 
communication services for the veteran. Some of our veterans have given 
all for the freedom of the returning veterans, are we as a country 
giving all to insure our returning veterans have what they need to be a 
contributing part of our community and country? Thanks to the Committee 
on Veteran's Affairs and especially my representative, Dr. Phil Roe of 
Tennessee for inviting me to add my comments to this hearing.

                                 <F-dash>
      Prepared Statement of Phil Landis, Chief Executive Officer,
                   Veterans Village of San Diego, CA
    Chairman Filner, Congressman Buyer, Committee Members, My name is 
Phil Landis and I am the Chief Executive Officer of the finest homeless 
veteran only, drug and alcohol treatment facility in the United States, 
Veterans Village of San Diego, formerly known as Vietnam Veterans of 
San Diego. In addition to the Veteran Recovery Center, VVSD provides a 
full range of services to our veterans. Our employment program provides 
on-site testing, assessments, education and training if required, and 
placement into life-sustaining jobs. VVSD annually places over 300 
veterans into jobs with a future, including truck driving, information 
technology, security and medical fields. We also operate a program for 
homeless veterans and their families, and two sober living transitional 
housing complexes. VVSD is the founder of the National Stand Down which 
annually, for 3 days in July, hosts over 700 homeless veterans and 
their families in a tent city where they can access medical and dental 
services, employment services, VA, Social Security, and have available 
to them the services of other providers in the San Diego area. While at 
Stand Down, veterans also have the opportunity to have legal issues 
examined and potentially have misdemeanors and their records cleared at 
``Homeless Court'', also founded by VVSD in partnership with the San 
Diego Public Defenders Office. For the last 8 years the city of San 
Diego has funded an emergency shelter program, two shelters, one for 
the general population and one for veterans only. VVSD has operated the 
Veteran Only Winter Shelter for the city each year of operation. This 
year's shelter program ended on April 2, 2009 and over 400, non-
duplicated Social Security numbers of veterans were recorded. What does 
this mean; the issue of homeless veterans is not going away and may in 
fact be growing. As you can readily see, I am fully engaged with/in 
homeless veteran issues.
    VVSD has been a part of the VA Grant and Per Diem program since 
1996. Our first grant was for our 44 bed sober living facility in 
Escondido, CA. At that time the VA required a 50 percent match of funds 
which we accommodated with grants from other government agencies. 
Presently VVSD has six grant and per diem contracts with the VA which 
range in amounts from $20.41-$29.31 per eligible resident per day.
    The funds from the VA Per Diem are used to provide transitional 
housing services, food services at the residential treatment facility 
and food stipends for the sober living sites. Program and treatment 
services are funded by other Federal, state or local agency grants.
    The VA Grant and Per Diem program is the largest government funder 
of homeless veteran programs in America. This important and successful 
program provides transitional housing and services to thousands of 
homeless veterans through over 300 programs across America.
    What is wrong with the VA Grant and Per Diem Program?
    The program was originally designed to fund transitional housing 
programs for homeless veterans throughout the United States. For this 
important function, the per diem amount paid was sufficient to operate 
a housing facility, maintain it and possibly put money in reserve for 
expansion or major repair projects.
    For a program like VVSD's, where not only is transitional housing 
provided, but also food services, counseling services and therapy in 
some cases, the per diem by itself could only cover the costs for the 
housing and food. Other grants are required to provide the services and 
level of care our veterans deserve. In the case of VVSD, per diem cover 
only about \1/2\ of the cost of operating this comprehensive program.
    The VA presently has only one per diem maximum rate for the entire 
country. As you are fully aware, it costs more to operate an agency 
like VVSD in California or New York than in Kansas or Missouri. What is 
needed is a per diem rate based on the cost of doing business in high 
as well as low expense states, a geographic cost of living rate.
    The VA Grant and Per Diem Program requires of grantees that to open 
any new beds or to receive a per diem rate increase, agencies are 
required to provide a valid, Indirect Cost Rate to determine the cost 
of administrative overhead. This requirement is difficult for homeless 
veteran providers like VVSD to meet for three reasons:

    1.  The amount of work to determine this rate is overwhelming. It 
took our Chief Financial Officer, who has both a Bachelors and Masters 
in Accounting, 4 months to put the required information together.
    2.  The Indirect Cost Rate places a huge financial burden on the 
resources of homeless veteran agencies. Some agencies such as HUD have 
a maximum Administrative Rate of 5 percent. Others, like some city 
grants, pay no administrative overhead. Some government funders provide 
up to a 20-percent rate. Under the Indirect Cost Rate, a small 
nonprofit like VVSD must use its precious and limited non-governmental 
funds to subsidize a grant that pays less than the agency's average 
Indirect Cost Rate.
    3.  Currently, VVSD is in danger of discontinuing our contract with 
the City of San Diego for the 4 month long, 150 bed Emergency Winter 
Shelter for Veterans for the same reason: being required to operate the 
program at a deficit. This would be tragic.

    Most nonprofits receive funding from multiple government agencies: 
Federal, state and local, and they each have different rules and 
allowances for administration. The Indirect Cost Rate places the burden 
of covering administrative overhead on the usually small nonprofit that 
is juggling these grants to provide the best possible services to 
veterans. The Indirect Cost Rate requirement reduces services for 
homeless veterans and should be discontinued.
    In closing, let me be perfectly clear Veterans Village of San Diego 
would not be in existence today were it not for the VA Grant and Per 
Diem program. The VA is far and away our largest funding source and has 
been our partner, supporter and friend for over 25 years.

                                 <F-dash>
        Prepared Statement of Carol L. Adams, Ph.D., Secretary,
                 Illinois Department of Human Services
    Mr. Chairman, Honorable Members of the United States House of 
Representatives Committee on Veterans' Affairs, Ladies and Gentlemen. I 
bring greetings from Honorable Patrick Quinn, Governor of Illinois, and 
the state's 13,000,000 citizens.
    It is an honor to appear before you today to speak to you about the 
efforts of the Illinois Department of Human Services to serve homeless 
people in the State including our courageous Veterans of whom we are 
very proud and owe a real debt of gratitude.
    These data that I will present to you today represent numbers from 
State Fiscal Year 2008, our most current accounting.

    <bullet>  In 2008, the Illinois Department of Human Services 
Emergency Food and Shelter Program served 45,418 people who were 
actually living in shelters. This number does not include people who do 
not access shelters, people who are living with friends and relatives, 
nor does it include people who are receive services in shelters and 
other
    <bullet>  African Americans comprised nearly 60.4 percent of all 
homeless people served by our Homeless Prevention Program. Homeless 
Caucasian and Hispanic peoples totaled nearly 38\1/2\ percent of people 
served, with 1.2 percent indicated as ``other.''
    <bullet>  Thirty-three percent of Illinois' homeless people served 
were between the ages of 41 and 61 years old, with the second largest 
group being between the ages of 22 and 40 years old, (14,060 or 30.95 
percent).
    <bullet>  Twenty-six thousand, six hundred forty-four men, or 58.66 
percent, comprised the largest group by gender. The total number of 
homeless women served was 18,774.
    <bullet>  The total number of homeless Veterans served was 2,562 
people or 5.64 percent; 94.36 percent of homeless people served were 
not Veterans.
    <bullet>  There are 15-beds at the Veterans' Administration 
facility in Manteno. Illinois for Homeless Veterans.

    There is a lottery ticket in the State of Illinois called Veterans' 
CASH. In the past 3 years $6 million has be raised. Of these funds 
$1,106,481 are allocated to not-for-profits that serve Veterans who are 
homeless.
    The Illinois Department of Human Services Homeless Prevention 
Program is designed to help stabilize people and families in their 
existing homes, decrease the amount of time that they live in shelters 
and help individuals and families secure affordable housing.
    Our program provides:

    <bullet>  Rental and or mortgage assistance, security deposit 
assistance, payment of utility bills to bring legal services to prevent 
illegal evictions.
    <bullet>  Rental or mortgage arrears are paid in the amount 
established as necessary to defeat eviction or foreclosure. This 
payment must not exceed 3 months of rental/mortgage arrears.
    <bullet>  Security deposit payments are not to exceed the amount of 
2 months rent.
    <bullet>  Utility payments are brought current.
    <bullet>  Supportive services, where appropriate, are for the 
prevention of homelessness or repeated episodes of homelessness caused 
by illegal evictions.

    Prior to December 1999 people who were at risk of homelessness in 
the State of Illinois would have been referred to a local shelter or 
given a voucher for a short-term stay at a hotel. These short term 
solutions were appreciated and greatly needed for Illinois' chronic 
homeless population who regularly moved in and out of the shelter 
system. On the other hand, for people who were at-risk of 
homelessness--people who were not yet on the streets but had 
experienced temporary economic crises beyond their control--the State 
sought to offer a more tangible response.

    <bullet>  Advocates for homeless prevention--including the Chicago 
Coalition for the Homeless--initiated the ``It Takes a Home to Raise a 
Child'' Campaign which reflected a drastic paradigm shift for dealing 
with concerns related to homelessness. It targeted preventive measures 
to address homelessness as opposed to just short-term sheltering.
    <bullet>  Moreover it was determined that the prevention of 
homelessness was more cost-effective, preserved family self-respect, 
helped to keep families intact, and reduced the need for longer term 
assistance programs. These findings coupled with the on-going campaign 
resulted in the Illinois Homeless Prevention Act, signed into law in 
December 1999, which allowed for maximum flexibility for localities, 
minimum income restrictions, maximum amounts of assistance, and broad 
definitions of allowable uses.
    <bullet>  In January 2000, the Illinois Department of Human 
Services established what is now known as the Homeless Prevention 
Program and designated the Bureau of Homeless Services and Supportive 
Housing to be responsible for all fiscal, programmatic and monitoring 
functions related to the administration of funds.

    People eligible for assistance from the Illinois Department of 
Human Services Homeless Prevention Program include households that are 
of imminent danger of eviction, foreclosure or homelessness, or are 
currently homeless. Applicants for this service must document temporary 
economic crises beyond its control, such as:

    <bullet>  Loss of employment, medical disability or emergency, loss 
or delay of some form of public benefit, a natural disaster, 
substantial changes in-household composition, victimization by criminal 
activity, illegal actions by a landlord, displacement by a government, 
private action or some other condition which constitutes a hardship 
comparable to the conditions referenced here.
    <bullet>  Homeless Veterans or Veterans at risk of homelessness can 
apply for homeless privation funds. The State of Illinois does not have 
a specific set-aside for Veterans.

    Illinois' Homeless Prevention Program support for the Homeless 
Prevention Program is administered by a network called the Illinois 
Continua of Care Systems. The Continua of Care Systems (CoC), developed 
by the United States Department of Housing and Urban Development (HUD), 
is a network that helps people who are or have been homeless, or who 
are at imminent risk of homelessness.
    In Illinois, there are 21--Continua of Care serving the state's 102 
counties and working to fulfill the needs of homeless people.

    <bullet>  The network addresses problems of homelessness by 
providing comprehensive service delivery--from emergency shelters to 
permanent housing. Its strong prevention strategy is designed to 
provide seamless services to help people achieve independent living. 
This approach shifts community responses toward a far broader goal of 
attempting to integrate all available funding and services to address 
homelessness.
    <bullet>  Funding for each Continua of Care is based upon a formula 
that includes poverty and unemployment statistics for each CoC's 
geographic service area as compared to those of the entire State of 
Illinois. The CoC recommends projects for funding to IDHS. The 
Secretary of IDH determines which applications will be funded and the 
final funding amounts.
    <bullet>  In 2000, the Homeless Prevention Program was funded 
through TANF in the amount of $1 million. Allocations for SFY 2008 
totaled $10,990,000, supported entirely by the Affordable Housing Trust 
Fund.
    <bullet>  In SFY 2000, 221 households were served, at an average 
cost per household of $450. The number of families served totaled 
1,472. In SFY 2008, 12,441 households were served with the average cost 
per household at $883, representing 8,098 families.
    <bullet>  In SFY 2000, 1,552 household received rental assistance, 
316 received assistance with utility payments, 230 received security 
deposits and 4,301 received supportive services.
    <bullet>  SFY 2007 was a peak year with the highest number of 
services provided: 9,768 households received rental assistance; 2,529 
households received utilities assistance; security deposits were paid 
for 2,518 families; and supportive services related to illegal 
evictions were provided for 100,709 families.
    <bullet>  By SFY 2008, rental assistance declined by more than 750 
households, utility assistance to households decreased by 403, security 
deposits remained the same and supportive service related to illegal 
eviction had dropped to 85,974, a decrease of nearly 15,000 households.
    <bullet>  In SFY 2008, 299 single males and 338 females, totaling 
637 people were served by the Illinois Department of Human Services 
Homeless Prevention Program. By SFY 2008, the number of single males 
served increase by 1,265 to total 1,451. The number of single females 
increased by 2,954 to total 3,591.
    <bullet>  The number of people in families of females with child or 
children totaled 5,743 people in 2008. The number of people in families 
of males with a child or children totaled 366. The number of couples 
with children totaled 1,989 and couples without children total 752.
Program Challenges
    While the program has clearly demonstrated remarkable success, it 
does present some challenges. It is difficult to secure funding for 
case management (which is currently capped at 10 percent), to serve 
families with no income, to deal with the funding restrictions of TANF, 
(Temporary Assistance to Needy Families funding supplements the program 
budget and can only be used to serve households with children under age 
18), and to handle the high volume of calls (1,000 calls per week in 
the City of Chicago alone). However the successes are worth the effort. 
Coordination has increased significantly, packaging of resources from 
various sources has expanded, we have identified new resources, and 
experienced a flexibility that earlier was virtually unknown in the 
funding world.
Program Successes
    Without question, the Illinois Homeless Prevention Program is 
successful. The program prevented 12,441 households from being, or 
staying, homeless in 2008. Prevention is cost effective--the program 
serves an average of 592 households per Continuum and spends an average 
of only $883 per household compared to $3,400 for an average emergency 
shelter stay. It is estimated that for every $1 million in prevention 
funding, 1,700 households can be served.
    The program has promoted permanent housing options: 86 percent of 
all households served in 2008 were still housed 6 months after the end 
of the fiscal year. On average, 69 percent of participating households 
retain their current housing while 22 percent move into other permanent 
housing. Nine percent of those served by the program are able to move 
from emergency shelters into permanent housing.
    To the people the program has served . . . the benefits are 
priceless. A single mother with seven boys received notice that her 
building was sold and that she had to move immediately. Working as a 
security guard at an airport, she had no money for a security deposit 
on a new place. The Illinois Homeless Prevention Program kept her 
family from being homeless.
    A woman from a wealthy suburb of Chicago had a fall and became 
disabled after working her entire life. The fall prevented her from 
working and she incurred $100,000 in hospital bills. When she filed for 
bankruptcy, she spent her rent money to pay the $1,100 fee to file. The 
Illinois Homeless Prevention Program kept her from being homeless.
Program Evaluation
    The Illinois Department of Human Services conducts an annual 
evaluation measuring the effectiveness of the Homeless Prevention 
Program and its overall impact on reducing homelessness via a 
comprehensive follow-up strategy. The agency requires 6-month follow up 
to be conducted with every household served to help determine if 
participants are maintaining independent living and self-sufficiency.
    Six months after the end of each State fiscal year, agencies 
attempt to contact every household that received assistance through the 
Homeless Prevention Program in that previous fiscal year to determine 
if they remained housed for at least 6 months. A contact attempt is 
made in at least one of the following ways: the household is contacted 
by phone, the landlord is contacted by phone, or a letter is sent to 
the household with a self-addressed, stamped postcard requesting a 
response as to their current housing status.
    On average, 85 percent of all households served by the Homeless 
Prevention Program, every State fiscal year, are still housed 6 months 
after the end of the fiscal year.
State-Wide Homeless Prevention Strategy
    The State of Illinois has a unique opportunity to collaborate and 
coordinate the State's Homeless Prevention funds with funds that 
Illinois will soon receive under the United States Housing and Urban 
Development, American Recovery and Reinvestment Act of 2009 Prevention 
Program. Working with the Illinois Department of Commerce and Community 
Affairs, the Illinois Prevention Program will fill in the gaps not 
covered by HUD's ARRA Prevention Program.
    Specifically, HUD's ARRA Prevention funds cannot be used for 
mortgage assistance. IDHS funds can. People who may have fallen behind 
on their mortgage for up to 3 months can get assistance. Very often 
IDHS sees participants that fall behind on their mortgage due to an 
illness, a loss of a job or some other condition beyond their control. 
The state's homeless prevention program can step in and assist the 
homeowner provided that, once the assistance is granted, the homeowner 
can continue to pay their mortgage.
    By coordinating Illinois Prevention funds with ARRA Prevention 
funds, participants can receive rental assistance for an extended 
period of time. Illinois' Prevention program can pay for up to 3 months 
of rental arrearage, a security deposit and no more than 2 months rent. 
With the addition of ARRA funds a household could conceivably receive 
18 more months of rental assistance, if necessary.
    ARRA funds can be used for activities not covered by the Illinois 
Prevention program. The activities include shallow rent subsidies, 
moving costs, housing search and placement as well as credit repair.
    Through collaboration and a unique partnership with Illinois 
Continua of Care Systems, advocates and stakeholders, Illinois can now 
offer participants an even more holistic approach to homelessness 
prevention. This approach can ensure that families do not become 
homeless, that children remain stable and secure in their homes and 
that homelessness as we know it becomes something that no child has to 
experience.
    On behalf of the people of the State of Illinois we are grateful to 
have had this opportunity to share with you information about our 
program and the commitment to which we are pledged. Thank you.

                                 <F-dash>
          Prepared Statement of Robert V. Hess, Commissioner,
      New York City Department of Homeless Services, New York, NY
    Good morning Chairperson Filner and Members of the Committee on 
Veterans' Affairs. My name is Rob Hess and I am the Commissioner of the 
New York City Department of Homeless Services (DHS). Thank you for 
inviting me to share with you the innovative strategies New York City 
is using to end veterans' homelessness. I'm pleased to join my 
colleague, Secretary Carol Adams of Illinois, and the Members of the 
other panels from around the country, and I'm heartened by their 
dedication to serving the unique needs of homeless veterans. Joining me 
here at the table is a true hero, Ronald Marte. Ronald returned to us 
after a tour in Iraq where he served as a communications specialist. 
With dedication, he recently moved from shelter to a home of his own 
with the assistance of a Veterans Affairs Supportive Housing voucher 
and is living a life of independence. I am more proud of him than words 
can say. As a veteran, myself, I speak from personal experience when I 
say that we have to do everything we can to ensure that the men and 
women who serve their country receive the housing, services and 
supports they need, and are treated with the dignity and respect they 
deserve.
    I'd like to take this opportunity to applaud the leadership of 
President Obama and Secretary Shinseki on this issue. The President's 
Fiscal Year (FY10) budget and the expanded funding to serve veterans, 
including homeless veterans, contained within it will go a long way 
toward preventing and ending veterans' homelessness. As you know, they 
have set the ambitious goal of preventing and ending veterans' 
homelessness for the approximately 150,000 homeless veterans living in 
this country on any given day. When you consider we are a Nation of 
more than 300 million people, targeting permanent housing for 150,000 
seems like a task that is absolutely doable.
    This is the right goal for the country. I believe this because in 
New York City we are already starting to see the success that is 
possible when there is a strong partnership between the U.S. Department 
of Veterans Affairs (VA), the local VA offices and local leaders. This 
is an issue I'm very passionate about--as a veteran myself, and as 
someone who has spent my entire career advocating for, creating policy 
and talking one-on-one with homeless veterans, we cannot stand by and 
allow our fellow veterans who have served and fought for our country to 
live on the streets or to call shelter a home.
    Before I move forward to describe the work we are doing in New York 
City, I would like to stress to those who are here today that much of 
our success was and is as a result of collaboration with many 
government and nonprofit partners. The model we created did not rely 
solely on new funding. Through meaningful dialog with our partners, we 
learned very quickly that much of the infrastructure was already in 
place. This realization paved the way for us to work smarter and in 
true partnership, and ultimately allowed us to reinvest in strategies 
that would move more homeless veterans into permanent housing. I know 
that in these tough economic times, any request for new funding can 
seem daunting, so it is really important to take a critical look at how 
we use existing resources. Now I'd like to share with you how we have 
done this in New York City that may be helpful to other localities.
Moving Toward Ending Veterans' Homelessness in New York City
    In New York City we are continuously moving toward meeting our goal 
of ending homelessness for veterans. In fact, from December 2006 to May 
2009, we have reduced the number of veterans living in our City's 
shelters by 60 percent by creating new short-term housing models and 
other innovative strategies to better serve homeless veterans. However, 
I would not be able to stand before this Committee and tell you of this 
great success had it not been for the shared commitment of New York 
City Mayor Michael Bloomberg and then U.S. Department of Veterans 
Affairs (VA) Secretary James Nicholson. In December 2006, they created 
the Operation Home Task Force and charged it with creating the 
blueprint for a new veterans' service system--a dedicated service 
system outside the traditional homeless services system--that met the 
unique needs of homeless veterans and tied them to the rich array of 
resources already provided by the VA.
    We were ultimately successful in creating our new veterans' service 
system because of the partnership between the Federal and local VA and 
the City that this fostered. However, another key to our success was 
the creation of specific and measurable goals that would transform 
services for homeless veterans, ones that we continuously held 
ourselves accountable to. One tangible first step was an intense effort 
to house 100 veterans in 100 days. We didn't waste a second--as we 
worked to develop the blueprint, we took immediate action to 
permanently house homeless veterans. Much of the lessons we learned 
during this time helped shape our vision and focus for this new system. 
I am happy to report to this Committee that we not only exceeded this 
goal by housing 135 veterans during the first 100 days but since then 
we have helped move 1900 veterans from temporary shelter into permanent 
housing.
    The system we created now includes a multi-service center which 
serves as a single point of access for homeless veterans and for those 
at-risk of becoming homeless. The Center, which has been up and running 
since May 2008, integrates DHS intake services exclusively for homeless 
veterans with access to medical, mental health and substance abuse 
treatment available through the VA medical system, as well as housing 
and other support services. The Center also makes available preventive 
services needed to divert those veterans who are at risk of becoming 
homeless. To date, over 1,066 homeless veterans have been served by the 
program.
    We will soon open the first veteran-specific Safe Haven, a low-
threshold, harm reduction housing model that has proven to be the most 
effective tool for engaging street homeless clients. Once veterans are 
placed in a Safe Haven, they will be able to access on-site social 
services and other supports offered through the VA and various non-
profit partners.
    And we have transformed a former 410-bed congregate shelter for men 
into a new short-housing model comprised of 243 individual living units 
that afford much greater privacy and dignity to the homeless veterans, 
both men and women, residing in the program than the previous 
dormitory-style facility. In addition to the case management and 
medical services provided on-site, eligible veterans also may avail 
themselves of the full complement of VA medical and social services 
while in residence.
    New York City's efforts to end veterans' homelessness have also 
been strengthened by the U.S. Department of Housing and Urban 
Development's Veterans Affairs Supportive Housing Program (HUD-VASH). 
In 2008, a total of $75 million was announced to provide permanent 
supportive housing for an estimated 10,000 homeless veterans 
nationwide. New York City received $9.4 million of this funding to 
permanently house 1,000 homeless veterans with HUD-VASH vouchers. I'm 
happy to report that, as of May 1, 2009, the City has distributed 701 
vouchers.
    I'd like to take this opportunity to thank you and your colleagues 
in Congress for your past commitment to this important funding stream. 
This is a critical resource for veterans, and so I urge you to support 
additional funding for the HUD-VASH program so that we can all continue 
to help more veterans avoid homelessness and instead find permanent 
housing in the community. This is a valuable resource, and we have been 
successful in serving the most vulnerable veterans through careful 
targeting and working with the VA to ensure that vouchers are moving 
veterans to permanency. In addition to supporting the overall funding, 
one way that this Committee can be most helpful in ensuring the success 
of the program is in making sure that the legislative directives 
incorporate the notion of targeting to those most in need.
Conclusion
    Ending veterans' homelessness is the right goal for New York City 
and it is the right goal for the Nation. We all can do this, but, as in 
the case of New York City, it will take strong partnerships between 
both the Federal and local VA and the jurisdictional leaders. But I 
realize that what works in New York City will not work everywhere. 
There cannot be a one-size-fits-all approach. What works in New York 
City may not work in Killeen, Texas. And so, these Federal-local 
relationships will need to be developed with flexibility to the needs 
of each individual locality, and allow them to create their own 
specific and measurable goals to drive their success. The key component 
here is that as a locality, we need a strong Federal partner to help us 
bring our initiatives to scale if we are truly to end veterans' 
homelessness.
    Our continued progress in housing and better serving the needs of 
homeless veterans is a true testament to our strong partnership with 
both our local and national VA; without their collaboration from the 
beginning, this system transformation would not have been possible. 
Once fully implemented, we believe that this system will serve as 
national model for permanently ending veterans' homelessness.
    I look forward to answering your questions and I stand committed to 
working with this Committee and my colleagues around the country in 
ending veterans' homelessness once and for all. Thank you.

                                 <F-dash>
 Prepared Statement of Carol L. Caton, Ph.D., Director, Columbia Center
     for Homelessness Prevention Studies, and Professor of Clinical
   Sociomedical Sciences (in Psychiatry), New York State Psychiatric 
              Institute, Columbia University, New York, NY
    The Columbia Center for Homelessness Prevention Studies (CHPS) is 
an NIMH-funded Advanced Center for Interventions and Services Research 
(P30 ACISR) with a multidisciplinary research agenda focused on the 
prevention of chronic homelessness at both the individual and 
population levels. The Center's investigators bring expertise on many 
issues related to homelessness, housing, mental health, and 
intervention development, and represent a broad range of academic 
disciplines, from public health to psychiatry, medicine, social work, 
and the economic and social sciences. Providers, consumers, and 
stakeholders contribute significantly to the Center's activities and 
play an integral role in carrying out the Center's mission. As the 
Nation's only NIMH-funded Center focused on the public health problem 
of homelessness, the Center values collaborations with colleagues at 
academic centers across the country committed to the development of 
innovative approaches to preventing and ending homelessness.
    The Center's organizational structure facilitates in many ways the 
development and implementation of new research initiatives. The Center 
has three Cores; an Operations Core with responsibility for the 
Center's strategic plan, the Principal Research Core, with 
responsibility for the development of new research efforts consistent 
with the Center's homelessness prevention framework, and the Methods 
Core, a centralized multidisciplinary resource for research methods and 
analysis techniques for the conduct of the range of studies to be 
carried out under the Center's auspices.
    The Center has a pilot studies program for junior investigators to 
fund innovative research efforts that will develop into full-scale NIH 
grant applications. A Grand Rounds program brings accomplished 
researchers, service providers, and policymakers from across the Nation 
to bi-weekly meetings during the academic year to inform Center 
members, and the public at large, of new research findings, new program 
models, and relevant policy issues. The Center's Web site is http://
cchps.columbia.edu.
    The Center is based at Columbia University, the New York State 
Psychiatric Institute, and the Mailman School of Public Health. 
Columbia's Graduate School of Arts and Sciences and the School of 
Social Work also contribute faculty to the Center. The multi-
institutional academic and health sciences enterprise of Columbia 
University coupled with the community laboratory of New York City and 
its environs offers access to a wide array of resources that enrich our 
capacity to conduct research. As the Center has grown, collaborators 
include investigators at other universities and centers in the United 
States. Below is a brief summary of some of the current work of the 
Center focused on homelessness prevention with possible implications 
for the VA Grant Per Diem program and veterans' outreach and special 
needs grants.
A. Ending Chronic Homelessness
    The Federal Interagency Council on Homelessness' Initiative to End 
Chronic Homelessness in 10 Years (www.ich.gov) has inspired over 350 
municipalities nationwide to develop specific plans to end chronic 
homelessness in their communities. Many such plans have adopted 
evidence-based approaches for the provision of housing and treatment 
services to enable street and shelter dwelling adults to achieve stable 
tenure in community housing. The wide-scale implementation of these 
approaches has been credited with contributing to a decline of about 30 
percent in the number of chronic homeless in the United States from 
2005 to 2007 (USHUD AHAR Report 2007).
1. Developing Evidence-Based Approaches to End Homelessness
    Two interventions supported by the Center that have been studied in 
terms of efficacy in helping people to obtain and retain stable housing 
are being developed in important ways: ``Housing First,'' a streets-to-
homes housing and services initiative that does not require sobriety or 
treatment engagement as a prerequisite to obtaining housing; and 
Critical Time Intervention (CTI), a time-limited intensive case 
management approach designed to ease the transition from shelter to 
community living.
    Housing First programs, modeled after Pathways to Housing in New 
York City (Tsemberis et al. 2004; Pearson et al. 2009), have become a 
staple in numerous 10 Year Plans to End Chronic Homelessness (The New 
York Times, July 30, 2008).
    CTI, initially developed to assist long-term homeless mentally ill 
men to transition successfully from shelter life to community living 
(Susser et al. 1997; Herman et al. 2007), has been applied to other 
points of transition in NIH-funded projects, specifically discharge 
from long-term psychiatric hospitalization (Dan Herman of Columbia 
University) and release from prison for men (Draine and Herman 2007) 
and women (Catherine Willging of the University of New Mexico) with 
severe mental illness at risk of homelessness. CTI has also been 
implemented in the VA system (Kasprow and Rosenheck 2007).
    New York City, like the other localities across the U.S. that have 
developed ``10 Year Plans to End Homelessness,'' has implemented a 
number of new initiatives designed to reduce homelessness in the city. 
In conjunction with New York City's Department of Homeless Services and 
with several of the non-profit service providers with which it 
contracts, Center investigators have undertaken a series of studies to 
trace people's movements into or through various parts of New York 
City's homeless service systems (which encompasses community-based 
preventive services, street outreach to the chronically homeless, and 
shelter services for single adults and families), describe how new 
models of service within those systems are being implemented, and 
assess impacts of these on individual outcomes and community rates of 
shelter use. They have also participated in research advisory panels 
and other mechanisms to provide research-informed input on homelessness 
prevention for policy developers and advocacy organizations.
2. Study of New Program Models: Chronically homeless individuals on the 
        streets
    Drs. Peter Messeri and Nancy VanDevanter, in collaboration with the 
Manhattan Outreach Consortium, have been conducting a pilot study 
entitled ``From Streets to Homes.'' The purpose of the study is to 
document the City's new service initiative for the chronically homeless 
``street'' population. The researchers are working closely with the 
city-contracted provider agencies implementing the new service model 
that expands the focus of outreach to this population from engagement 
to placement in permanent housing. The pilot study focuses on program 
implementation and on administrators' and frontline staff perspectives 
on the changing delivery of outreach services. It is the first step in 
a collaborative process expected to lead to an outcome study to 
evaluate the model.
3. Study of New Program Models: Frequent users service enhancement 
        (FUSE)
    Angela Aidala and William McAllister have been evaluating the FUSE 
initiative, jointly developed by the Department of Homeless Services, 
the Corp. for Supportive Housing, and several non-profit supportive 
housing providers. The program offers housing with enhanced services to 
individuals with at least four stays in NYC shelters and four 
incarcerations in NYC correctional facilities. The study is examining 
the housing trajectories of study participants; the effects of the 
housing and service intervention on trajectories; and the reliability 
and validity of a survey instrument used to measure physical, social, 
and fiscal characteristics of individual housing histories over the 
prior 5 years.
B. Homelessness Prevention
1. Home Base: Neighborhood-Based Homelessness Prevention
    An innovative initiative related to ending homelessness is focused 
on an evaluation of a program to prevent families and single 
individuals from losing their existing housing and entering the shelter 
system. The Center is collaborating with the New York City Department 
of Homeless Services to evaluate the City's HomeBase Prevention 
program, a key element in the New York City 10 Year Plan to End 
Homelessness. HomeBase has been targeted at high risk families residing 
in six New York City community districts with high rates of admissions 
to the family shelter system. In an effort to assist families to retain 
their existing housing and avoid shelter entry, the program offers 
neighborhood-based services such as job training, entitlements 
advocacy, assistance with legal issues, housing relocation, and 
financial assistance for the payment of rent arrears or broker's fees. 
The Center's evaluation effort is headed by Professor Brendan 
O'Flaherty and involves using administrative and census data to explore 
program impact at the community district and census tract levels in 
reducing shelter admissions. This study will also help to inform the 
issue of targeting those individuals most in need of homeless 
prevention services.
2. The Process of Becoming Homeless
    Dr. Susan Barrow has been conducting a pilot study on pathways to 
shelter that uses narrative interviews focused on housing and service 
use histories to reconstruct the processes through which unaccompanied 
individuals have arrived at New York City shelters for single adults 
from three upper Manhattan neighborhoods. This study was formulated in 
the context of a collaboration with upper Manhattan homeless service 
providers to develop homeless prevention service networks for single 
adults in their neighborhoods. As a first step, a study was established 
to learn more about how people enter homelessness. Analyses are focused 
on identifying points at which preventive interventions might avert 
shelter entry and findings on intervention implications will be shared 
with policymakers and local service providers.
REFERENCES

Draine J, Herman D, Critical Time Intervention for reentry from prison for 
persons with mental illness, Psychiatr Serv 58(12):1577-1581, 2007.

Herman D, Conover S, Felix A, Nakagawa A, Mills D, Critical Time 
Intervention: An empirically supported model for preventing homelessness in 
high risk groups, J Prim Prev 28(3-4), 295-312, 2007.

Kasprow WJ, Rosenheck RA, Outcomes of critical time intervention case 
management of homeless veterans after psychiatric hospitalization, 
Psychiatr Serv 58(7), 929-935, 2007.

Pearson C, Montgomery AE, Locke G, Housing stability among homeless 
individuals with serious mental illness participating in Housing First 
programs, J Comm Psych 37(3):404-417, 2009.

Susser E, Valencia E, Conover S, Felix A, Tsai WY, Wyatt RJ, Preventing 
recurrent homelessness among mentally ill men: ``critical time'' 
intervention after discharge from a shelter, Am J Public Health 87:256-262, 
1997.

Swarns RL, U.S. reports drop in homeless population, The New York Times, 
July 30, 2008.

Tsemberis S, Gulcur L, Nakae M, Housing first, consumer choice, and harm 
reduction for homeless individuals with a dual diagnosis, Am J Public 
Health 94(4):651-656, 2004.

United States Department of Housing and Urban Development Report, 2007, 
https://egov.azdes.gov/CMS400Min/InternetFiles/Reports/pdf/2007_homeless
ness_report.pdf

                                 <F-dash>
 Prepared Statement of Brendan O'Flaherty, Executive Committee Member,
 Columbia Center on Homelessness Prevention Studies, and Professor of 
 Economics, Department of Economics, Columbia University, New York, NY
    Hi. I'm Dan O'Flaherty. I'm an economist. I teach at Columbia 
University. Thank you for the opportunity to testify. Your staff asked 
me to talk about homelessness prevention.
    Homelessness prevention is hard. It's hard because the onset of 
homeless spells is unpredictable. There is good reason to think that it 
is inherently unpredictable--like guessing which stocks will go up 
tomorrow. For 15 years, really good scholars with really great datasets 
have been trying to predict the onset of homeless spells, and the best 
they can do is isolate groups of families that have pretty high 
probabilities of becoming homeless pretty soon. But risk in these 
super-high risk groups is nowhere near even a half, and most people who 
become homeless are not from these super-high risk groups. No 
comparable studies for single adults have been conducted.
    Reasonable programs that humans could implement (programs that use 
eligibility questions that can be reasonably answered and reliably 
documented) can probably reduce the point-in-time homeless count by no 
more than 5-8 for every hundred non-homeless households they serve. 
(Remember that around 2 out of 100 severely mentally ill people are 
homeless on an average night, and about the same ratio of poor people.) 
The best relevant studies here are those of housing subsidy programs: 
they use a wide variety of methods, but always end up in the 3-7 range. 
I have no reason to think the programs I recommend below will do better 
than this.
    These are prevention programs that begin with people who are not 
homeless at the moment. Some programs that start with homeless people 
rather than non-homeless people can probably do better on this metric, 
but they are not my topic. These programs present another set of 
issues, like moral hazard.
    So prevention is hard, but hard doesn't mean not worth doing. Hard 
means only that you have to think about what you're doing.
    Think about fires. Fires, too, are inherently unpredictable. If you 
knew when and where a fire would occur, it wouldn't occur. 
Unpredictability implies that fire departments don't invest a lot of 
effort in trying to predict individual fires. They don't send fire 
trucks when they think a place is at risk of having a fire. They 
respond in force only to actual fires, since fire this minute is the 
best predictor of fire a minute from now, and try to end these actual 
fires quickly.
    But fire departments still engage in fire prevention. Most 
buildings are covered by fire protection codes, like this one, even 
though this building is quite unlikely to have fire today if the code 
were not in place. When you read that smoke detectors save lives, you 
don't complain that hundreds of millions of smoke detectors in this 
country are being wasted in buildings that are not burning now.
    Fire prevention before the fact is wide and shallow; after the fact 
it is narrow and deep. That seems like a good approach to homelessness, 
too.
    What does this mean for veterans and homelessness? I have two 
recommendations that Rosanne Haggerty and Tim Marx of the Common Ground 
community have assisted me with. I think these programs will help a lot 
of veterans and keep some of them from becoming homeless, and I don't 
think they will cost a lot. But they are novel in some ways and so I 
can offer no direct evidence.
    First, rent insurance. For over 60 years, the VA has been insuring 
the mortgages of veterans who buy homes. I propose that the VA expand 
this insurance to cover veterans who rent apartments. Give veterans who 
rent a safety net so they don't lose their apartments when they're down 
on their luck. A program like this would also make it easier for 
veterans to rent apartments, since landlords have more assurance that 
they won't get stuck with unpaid rent. Rent insurance in the immediate 
future could also reduce foreclosures, since in the Northeast and 
Midwest especially, a large number of the houses being foreclosed are 
2-4 family buildings.
    Finally, rent insurance promotes equity among vets. In the last 
year, I have heard Members of Congress say repeatedly that home 
ownership isn't for everyone. I agree. Hence some veterans are not 
going to buy houses. But every veteran, no matter what form of housing 
he or she chooses, deserves some protection against hard times. So why 
not expand insurance to veterans who rent as well as veterans who buy? 
Since the veterans who rent are generally more vulnerable to 
homelessness than veterans who buy, they seem like the vets who need 
insurance the most.
    How would VA rent insurance work? I'm not an expert, and many 
people could probably make major improvements to my ideas. But let me 
sketch a rough outline of one possible way it could work.
    A veteran looking for an apartment would obtain a certificate of 
eligibility, just like a veteran looking for a mortgage does now. He or 
she gives it to a landlord, probably in lieu of a security deposit. The 
VA is then guaranteeing to the landlord that the veteran's rent will be 
paid. The apartment, of course, would have to meet some standards. A 
small funding fee would be due, as is required for VA mortgage 
insurance, but it might be less than $100.
    The veteran is responsible for the rent, of course, and if all goes 
well, nothing happens. When the veteran moves on, he or she can get 
another certificate of eligibility and rent or buy again. The funding 
fee can be adjusted. (I don't know whether the funding fee for a first-
time buyer should be increased if the veteran has previously used rent 
insurance; I think not, but would defer to experts.)
    The insurance would kick in if the veteran or the household 
experienced some well-defined adverse amount--loss of a job, a serious 
health problem, a relationship that falls apart, or some similar 
disaster. At that point, the VA would cover a fixed amount of rent for 
a fixed number of months--say $1,000 a month for 6 months. After that, 
the veteran would have to find someplace else to live.
    This program won't resolve all problems, but it will resolve a lot. 
Many problems can be resolved in 6 months; the median shelter spell for 
a single adult in 2007 was about 2 weeks. For more long-lasting 
problems, when a veteran (or more likely, a veteran's landlord) started 
to draw down on the insurance, it would signal to the VA that some 
problem was afoot; it would give the VA an early warning so it could 
bring other programs into play before a veteran's situation became 
dire.
    The future consequences for the veteran of a failure to pay rent 
should be similar to the future consequences of a default on a VA-
guaranteed mortgage. A veteran who missed a few months but then got 
back on his feet should be given some grace period to repay the 
insurance--just as homeowners have opportunities to fall behind and 
then catch up. These provisions would use a lot of wisdom to write.
    Rent insurance is not a completely novel idea. In fact, at least 
one private company in the New York area has been providing rent 
insurance for the last several years (Insurent). This company sues a 
tenant who fails to pay for the full amount that it lays out. The VA 
could operate this way too, but I would prefer to follow the analogy of 
the existing mortgage insurance program.
    Notice that rent insurance, administered well, should not be an 
expensive. Almost all veterans will pay on time, and never draw it 
down. To the extent that it provides an early warning signal to the VA 
or averts homelessness, the government's cost will be further reduced.
    Second, shared housing. Today lots of people are hard-strapped for 
cash, worried about foreclosure, and rattling around in-houses bigger 
than they need. For some of them a boarder or a relative who could pay 
some of the expenses would be a godsend. At the same time, there may be 
lots of veterans who could use a temporary cheap place to stay until 
the economy picks up. Why not bring the two sides together? Maybe there 
are some households who would say, ``Gee, we have a spare room and we 
could use some cash.'' Some households might say, ``We have a spare 
room and it would be nice to have someone around to help out with 
chores.'' Some might even say, ``We have a spare room and we'd like to 
help a veteran.''
    This is not for everybody, on either side of the market. It's not 
even for a majority on either side of the market, or even 90 percent. 
Many people have good reasons not to have another person in the house, 
and many veterans don't want to live in someone else's house. But if 
only one household in a thousand offered to house a veteran 
temporarily, over 112,000 offers would come in. A lot of veterans might 
find some of these offers pretty good. Probably a few thousand veterans 
would avoid homelessness. Some homeowners might avoid foreclosure. No 
one would be forced to do anything. Taxpayers would be asked for very 
little. Why can't Congress promote this option?
    As with rent insurance, there are already private companies in the 
roommate-finding business. The VA should not compete with them, and can 
learn much from them. Services like Craigslist have already developed 
most of the software that would be needed. But the VA brings something 
private companies don't have--a level of trust, widespread familiarity, 
the respect that many Americans have for veterans. This is not a 
government intrusion into an existing business.
    Even if the Federal Government does not actively promote shared 
housing, it can stop actively discouraging it. Many Federal programs 
such as food stamps, the housing choice voucher program, and 
supplemental security income actively discourage shared housing. Two 
people living separately get a lot more government assistance under 
these programs than two people who share housing. These programs are 
not under this Committee's jurisdiction, but if this Committee cannot 
stop other parts of the government from discouraging shared housing, it 
probably should actively encourage it.
    In summary, I suspect that this is not what you expected me to say. 
Honestly, it's not what I expected me to say. But the logic compelled 
it. When you cannot forecast who will be affected by a problem and 
when, the best way of preventing it is to treat many people in a cost-
effective and intelligent manner. Wide and shallow before the fact; 
deep and narrow after the fact. That is what fire departments do; that 
is how polio was eradicated; that is why EVERY car has seatbelts, not 
just those we think are going to crash today. Preventing homelessness 
requires building a better safety net for all veterans. The raw 
materials for that better safety net are already in place--in the 
excellent programs the VA has been operating for over 60 years and in 
the respect that most Americans have for veterans. My suggestion is to 
use those extraordinary resources in a new way.
    Thank you.

                                 <F-dash>
Prepared Statement of George P. Basher, Chairman, Advisory Committee on 
         Homeless Veterans, U.S. Department of Veterans Affairs
    Chairman Filner, honorable Committee Members, and distinguished 
guests, I am pleased to be here today to discuss the views of the VA 
Advisory Committee on Homeless Veterans on various programs designed to 
end homelessness among America's Veterans. As Chairman of the Advisory 
Committee I want to thank you for this opportunity.
    Established by Congress in 2001, the VA Advisory Committee on 
Homeless Veterans has worked aggressively to fulfill its charter to 
provide advice and recommendations to the Secretary on the provision of 
benefits and services to homeless Veterans. We have also worked closely 
with our partners at HUD, HHS, Labor, and DoD to integrate VA programs 
for Homeless Veterans with their own efforts. Not one single VA program 
for Homeless Veterans has been improved or adjusted without 
recommendations from the Advisory Committee. Our fifteen Member 
Committee consists of direct service providers, policy makers, and 
program administrators who all are dedicated to the elimination of 
veteran homelessness.
VA Grant and Per Diem Program
    VA Grant and Per Diem (GPD) continues as the workhorse program 
largely responsible for reducing the number of Homeless Veterans over 
40 percent to 131,000 during the past 5 years. However, over the past 
several years the Advisory Committee has recommended a number of 
changes to the program that we feel would improve this record even 
further:

    <bullet>  The funding mechanism, designed over 20 years ago, is 
outmoded. GPD was modeled after the State Veteran Nursing Home Program, 
the only other ``Per Diem'' program VA operated. Small nonprofit 
agencies do not have the same resources or sophisticated staff as state 
governments to comply with the intricate requirements of the GPD 
program. The low fixed rate of the per diem discourages participation 
in higher cost areas--frequently those with high homeless populations. 
One only has to look at the Department of Labor Homeless Veteran 
Reintegration Program grants for a simpler, more user-friendly program. 
Basing the program on actual costs of services provided instead of a 
rigid per diem would allow agencies to tailor programs to local needs 
and costs. The VA special needs grants take this approach and have been 
very successful.
    <bullet>  The Advisory Committee has also recommended that the GPD 
program be authorized at a level of $200 million for FY2010, and that 
sums necessary to successfully sustain the program be appropriated 
thereafter.
    <bullet>  Most homeless programs--with the exception of GPD--are 
covered under the McKinney-Vento Homeless Assistance Act. The Act 
contains a waiver that allows all Federal funds (with the exception of 
those listed in the specific subtitle of Chapter 42, CFR) to be used 
without offset. GPD does not have that waiver, decreasing opportunities 
for participants to leverage a number of resources to increase their 
services to homeless veterans and expand their programs in ways that 
are common in ``mainstream'' programs.
    <bullet>  Inspection of GPD providers is currently the 
responsibility of the local VA Medical Center staff. With the growth of 
the GPD program to hundreds of providers and over 10,000 beds, the 
inspection process has become inefficient and inequitable. Delays in 
performing inspections have resulted in significant delays in opening 
programs, and there is a significant lack of uniformity in the 
application of inspection standards across the country. The Advisory 
Committee has recommended a national standard be established and a 
national contract created for inspections.
Prevention of Homelessness
    The Advisory Committee has been concerned for some time about the 
need to increase efforts to prevent homelessness among those veterans 
returning to a weakened economy and less stable housing. We have noted 
a slow but steady increase in the number of recently returning veterans 
seeking VA assistance through the Health Care for Homeless Veterans 
(HCHV) program, now over 3000 individuals. Over 500 of these have been 
referred to GPD providers for services as well. The current economic 
downturn is also affecting older veterans from Vietnam to the First 
Gulf War as well--exposing those on the economic edge to a greater risk 
of homelessness.

    <bullet>  Returning OEF/OIF soldiers transitioning from active duty 
to veteran status--while all returning combat veterans have eligibility 
in the VA Health Care System--many do not enroll or take advantage of 
the services offered. The Advisory Committee has consistently 
recommended that separating soldiers be automatically enrolled with VA.
    <bullet>  Veterans with PTSD and moderate/severe TBI are 
potentially at a greater risk for homelessness as a result of their 
conditions. The Advisory Committee has recommended that VA and DoD 
continue to work with NIH, SAMHSA, and CDC to develop better screening 
and assessment tools and develop appropriate interventions that 
minimize the risk of homelessness for this population.
    <bullet>  Research has shown that persons who enter the service 
from backgrounds at risk for homelessness often are the most likely to 
experience homelessness once separated from active duty. The Advisory 
Committee recommends further research on this vulnerable population and 
the prevention of homelessness be done as soon as it can be practically 
accomplished.
Outreach to Veterans
    Outreach to Veterans means different things to different people--
there are as many definitions as there are advocates. In the world of 
Homeless Veterans VA has done a good job of outreach to the chronically 
homeless through VA Health Care for Homeless Veterans (HCHV) outreach 
workers and their community partners in providing transitional housing. 
That said, Veterans in HUD or other mainstream programs frequently miss 
opportunities to connect to VA benefits and services because those 
programs do not identify Veterans or opportunities available to them.
    Similarly, those Veterans at risk for homelessness in the community 
are more likely to be noticed first by the community--churches, 
schools, and the criminal justice system--as opposed to the nearest VA 
Medical Center.

    <bullet>  The Advisory Committee has recommended for some time that 
our partners at HUD and HHS identify Veterans in their programs so that 
effective and timely access to VA services can be provided.
    <bullet>  The Advisory Committee has also discussed the need for VA 
to connect with community based resources to develop true local access 
to VA services. Basic education on programs, eligibility, and points of 
contact are necessary to make outreach a true community effort.
HUD-VASH
    Over the past several years the Advisory Committee has recommended 
to the Secretary that while VA Transitional Housing was a good program, 
collected data indicated that a significant number of veterans were 
cycling through the program a number of times. The new HUD-VA 
Supportive Housing (HUD-VASH) provides an opportunity to provide 
significant amounts of permanent housing to Veterans--and also for the 
first time a VA program specifically includes families. Coupling 
Section 8 rental vouchers with VA case management is an innovative way 
to provide housing for Homeless Veterans in conjunction with 
appropriate VA services.

    <bullet>  The Advisory Committee will be reviewing the progress of 
the HUD-VASH program and making recommendations on the need for 
additional vouchers in its 2010 report to the Secretary.
    <bullet>  As with any new program, there are issues in 
implementation. One difficulty with HUD-VASH is the absence of a 
reliable source of funds for things such as security deposits, utility 
deposits, etc. for a population that typically lacks sufficient income 
for these charges. Because of this issue mainstream programs that 
provide such assistance are reluctant to include the Veteran housing 
providers in these programs.
    <bullet>  A careful assessment of the effectiveness of the VA case 
management component needs to be done to determine if the staffing 
levels are appropriate for the workload. The success of the program 
depends heavily on the ability to case manage Veterans--many of whom 
are in permanent housing for the first time in a long time.
    <bullet>  VA should consider contracting with community-based 
agencies to provide case management where appropriate as a way to 
extend the reach of VA staff while providing necessary services. 
Current GPD providers are a logical choice for permanent as well as 
transitional housing in many cases.
Conclusion
    Congress and VA have done an admirable job in reducing the number 
of Homeless Veterans in the Nation--nearly 15,000 GPD beds and 20,000 
Section 8 vouchers are formidable tools to reduce the incidence of 
homelessness amongst Veterans. Much remains to be done, however, 
especially in the areas of prevention and permanent housing. The 
Advisory Committee believes the key to success is providing programs 
that are adequately resourced and sufficiently flexible to meet the 
varied needs of this group of Veterans.
    Mr. Chairman, this concludes my testimony. On behalf of the VA 
Advisory Committee on Homeless Veterans I thank you and the Committee 
for the opportunity today and look forward to working together on this 
issue. I will be glad to answer any questions you may have.

                                 <F-dash>
          Prepared Statement of Peter H. Dougherty, Director,
      Homeless Veterans Programs, Veterans Health Administration,
                  U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss the Department of Veterans Affairs' programs and 
services that help homeless Veterans achieve self-sufficiency. Thank 
you for inviting me to testify on behalf of the U.S. Department of 
Veterans Affairs (VA).
    The President has announced that he has a zero tolerance policy for 
homelessness among Veterans. We welcome his leadership and his 
commitment to this goal. Homelessness for any person is unacceptable; 
however, for those who have honorably served our Nation in the 
military, homelessness should not be allowed to continue. On March 26, 
2009 the President said ``. . . we will provide new help for homeless 
Veterans because those heroes have a home--it's the country they 
served, the United States of America. And until we reach a day when not 
a single Veteran sleeps on the street, our business is unfinished.'' 
This pledge reaffirms our longstanding commitment to end chronic 
homelessness among Veterans. Our focus gains strength every day.
    We are expanding in dynamic ways to not only keep that commitment 
but to extend and to enhance our outreach efforts with new tools to 
prevent homelessness for those Veterans at risk of becoming homeless. 
These unprecedented strides are continuing and creating new 
opportunities to bring together Veterans in need of assistance through 
a wide range of direct services and treatment VA provides, as well as 
those services we offer in partnership with others.
Health Care for Homeless Veterans
    VA is the Nation's largest integrated health care system and the 
largest single provider of homeless treatment and benefits assistance 
services to homeless Veterans in the Nation. VA provides health care to 
more than 100,000 homeless Veterans each year. We do this by 
aggressively reaching out and engaging Veterans in shelters and in soup 
kitchens, on the streets and under bridges. We proactively reach out to 
offer services.
    Last year we reached out and conducted clinical assessments on more 
than 40,000 homeless Veterans. Our effort is designed to encourage them 
to utilize VA's health care and benefits and to engage them with 
community resources and services. Once they are enrolled, we provide 
access to quality primary health care, psychiatric evaluations and 
treatment, and admission in treatment programs for substance abuse 
disorders. It is extremely important that mental health specialists and 
a case manager see these Veterans. VA has adopted strong performance 
measures and a Mental Health Uniform Service Package to ensure that all 
homeless Veterans receive prompt access to mental health and substance 
abuse care. Our objective is to help Veterans receive coordinated care 
and benefits, which, in turn, improve their chances of obtaining and 
maintaining independent housing and gainful employment. Providing this 
assistance should enable Veterans to live as independently as possible 
given their individual circumstances.
    VA makes a significant investment in the provision of services for 
homeless Veterans. We expect to spend nearly $400 million in 2009 on VA 
homeless specific programs and an additional $2.4 billion for health 
care treatments that assist homeless Veterans supported through the 
Veterans Health Administration (VHA).
    Services and treatment for mental health and substance abuse 
disorders are essential both to the already homeless Veteran and to 
those at risk for homelessness. VA's mental health services funding 
increased by nearly $400 million this year, and the proposed budget 
calls for an increase of nearly $300 million. Those funds are used to 
enhance access to mental health services and substance abuse treatment 
programs. Increasing access and availability to mental health and 
substance abuse treatment services are critical to ensure that those 
Veterans who live far away from VA health care facilities are able to 
live successfully in their communities.
Benefit Assistance for Homeless Veterans
    Homeless Veterans Outreach Coordinators (HVOCs) at all Veterans 
Benefit Administration (VBA) regional offices work to identify eligible 
homeless Veterans, advise them of VA benefits and services, and assist 
them by identifying their claims for expedited claims processing. The 
coordinators also network with other VA entities, Veterans Service 
Organizations, local governments, social service agencies and other 
service providers to inform homeless Veterans about other benefits and 
services available to them. In fiscal year (FY) 2008, VBA staff 
contacted 3,277 shelters and assisted over 30,500 homeless Veterans 
with information, referral or expedited claims processing.
    Since FY 2003, regional offices have maintained an active record of 
all compensation and pension claims received from homeless Veterans. 
Procedures for the special handling and processing of these claims are 
in place. In FY 2008, VBA received over 5,700 compensation and pension 
claims. Of the claims granted, 67 percent were compensation claims (736 
awarded benefits) and 33 percent were pension claims (1,169 awarded 
benefits). Among compensation claims awarded the average disability 
rating was 44.7 percent. One hundred twenty-five were rated 100 percent 
disabled. The average processing time for all compensation claims of 
homeless Veterans was 130 days. The average processing time for all 
pension claims of homeless Veterans was 108 days. The number of claims 
identified as a ``homeless claim'' increased by 30 percent during the 
last fiscal year.
    It is important to note that VBA's Loan Guaranty Service program 
allows non-profit entities to purchase VA foreclosed properties. More 
than 200 homes have been sold to non-profit and faith-based 
organizations to help provide thousands of nights of shelter to 
homeless Veterans and other homeless individuals.
Interagency Council on Homelessness (ICH), and Local Relationships
    VA has always been an active partner with Federal departments and 
agencies that provide services to homeless Veterans. I am the Acting 
Executive Director of the U.S. Interagency Council on Homelessness. 
Soon you will see a shift toward ICH devoting more time and attention 
to creating a more coordinated and collaborative approach at the 
Federal level that will make it easier for community providers, 
Veterans and others who find themselves homeless to access services in 
their communities. Federal efforts need to be measured with strong 
platforms to end homelessness at the community level and those plans 
need us to give them greater flexibility to create local 
collaborations. Secretary Shinseki, as the current chair of the 
Council, has expressed his commitment that VA will fully engage in 
efforts to improve the ICH's operations to end veteran homelessness and 
prevent new Veterans from becoming homeless. VA and ICH efforts will 
bring enhanced involvement at Federal, State and local efforts to end 
chronic homelessness.
    VA works closely with many of our Federal partners especially those 
at the Departments of Housing and Urban Development (HUD), Health and 
Human Services (HHS), and Labor (DOL) to ensure those Veterans who want 
and need housing, alternative access to health care and supportive 
services and employment have an opportunity to become productive 
Members of society. Housing and employment are very important because 
we understand from many formerly homeless Veterans that having 
opportunities for gainful employment was vital to their being able to 
overcome psychological barriers that contributed to their homelessness.
Community Homeless Assessment Local Education and Networking Groups 
        (CHALENG) for Veterans
    To strengthen our partnerships with community service providers, 
last year VA medical centers and regional offices sponsored CHALENG 
meetings for over 11,000 participants, including more than 5,000 
current or formerly homeless Veterans. This has lead to better 
coordination of VA services and the development of innovative, cost-
effective strategies to address the needs of homeless Veterans at the 
local level. These meetings showed us what is being done effectively 
and what pressing unmet needs remain.
    This process also helps us to establish, as part of local needs, 
the number of Veterans who are homeless on any given night. The number 
of homeless Veterans is declining. Three years ago, VA estimated there 
were approximately 195,000 homeless Veterans on any given night. In 
fiscal year 2007 the population dropped to 154,000, a 21-percent 
reduction. Based on estimates from last year, we estimate that on any 
given night in 2008 there were approximately 131,000 Veterans among the 
homeless, an additional 15-percent decline from the previous year. This 
represents a 33-percent reduction over the last 3 years. While there 
are still far too many Veterans among the homeless, it demonstrates 
progress we are committed to continuing to bring these numbers down. 
This progress demonstrates to us that this scourge of homelessness, 
while difficult to address, is not impossible. We are confident our 
continued efforts will achieve our goal of ending homelessness among 
all Veterans with particular emphasis on the chronically homelessness 
Veterans.
VA Involvement in Stand Downs
    VA's involvement in stand downs began more than 20 years ago when 
the first stand down for homeless Veterans was held in San Diego. We 
have participated in over 2,500 events since then. Stand downs for 
homeless Veterans are avenues for VA to promote a proven outreach 
effort at the local level through coordination of our programs with 
other departments, agencies, and private sector programs. In calendar 
year 2008, VA employees and volunteers, along with more than 24,000 
community homeless service providers, state and local government 
employees, faith-based organizations, and health and social service 
providers, provided assistance to over 30,000 Veterans and over 4,500 
spouses and children in attendance.
Homeless Providers Grant and Per Diem Program
    VA's largest program involving local communities is the Homeless 
Providers Grant and Per Diem Program. This successful program allows VA 
to provide grants to state and local governments, as well as faith-
based and other non-profit organizations, to develop supportive 
transitional housing programs and service centers for homeless 
Veterans. The Fiscal Year 2009 of Funding Availability (NOFA) has $15 
million for new grant programs. Organizations may also use VA grants to 
purchase vans to conduct outreach and provide transportation for 
homeless Veterans to health care and employment services.
    Since the Grant and Per Diem Program was authorized in 1992, VA has 
fostered the development of nearly 600 programs with more than 10,500 
operational beds today. Plans have already been approved or are in 
process to develop at least 3,500 more transitional housing beds. We 
already have 23 independent service centers and provide funding for 
more than 200 vans to provide transportation for outreach and 
connections with services. Applications are under review and we hope to 
award funding to new programs that will add 1,000 or more additional 
transitional beds by late summer.
Technical Assistance Grants
    With the enactment of Public Law 107-95, VA was authorized to 
provide grants to entities with expertise in preparing grant 
applications. VA solicited applications for technical assistance grants 
earlier this year and we plan to award funding later this year. VA 
hopes these efforts will continue to expand and improve services to 
connect Veteran-specific service providers to other governmental and 
non-government resources.
Grants for Homeless Veterans with Special Needs
    VA also provides grants to its health care facilities and existing 
grant and per diem recipients to assist them in serving homeless 
Veterans with special needs, including women, women who care for 
dependent children, the chronically mentally ill, the frail elderly, 
and the terminally ill. We initiated this program in FY 2004 and 
awarded $15.7 million to 29 organizations; we followed up that effort 
with two notices of funding availability on February 22, 2007, which 
resulted in $8.8 million to continue funding and expanding special 
needs grants. We are now reviewing applications to renew many of the 
existing grants.
Residential Rehabilitation and Treatment Programs (RRTPs)
    VA's Residential Rehabilitation and Treatment Program provides a 
full range of treatment and rehabilitation services to many homeless 
Veterans. Over the past 20 years, VA has established 42 domiciliary 
programs providing 2,146 beds. VA continues to improve access to the 
services offered through these programs. In FY 2008, Domiciliary Care 
programs treated 5,913 homeless Veterans.
Multifamily Transitional Housing Loan Guaranty Program
    The last time I testified before this Committee, we told you the 
Multifamily Transitional Housing Loan Guaranty Program was not meeting 
expectations. We have reviewed the problems and determined that, while 
well-intentioned, it can not efficiently create the housing 
opportunities Veterans need. We have no plans to pursue new sites and 
are convinced that the supportive services grants and the Department of 
Housing and Urban Development-VA Supportive Housing (HUD-VASH) efforts 
are better alternatives.
Services for Operation Enduring Freedom/Operation Iraqi Freedom 
        Veterans
    The best strategy to prevent homelessness is early intervention. 
Many combat-theater Veterans returning from Iraq and Afghanistan have, 
depending on their date of discharge, enhanced enrollment priority for 
up to 5 years in VA's health care system and extended eligibility for 
VA health care at no cost for conditions possibly related to their 
combat-service. This eligibility allows clinical staff to identify 
additional health problems that may, if otherwise left untreated, 
contribute to future homelessness. Over the past 4 years, 1,135 
returning Veterans have needed VA residential services either in VA-
operated programs or in community transitional housing programs such as 
our Homeless Grant and Per Diem Program. The numbers of recent Veterans 
needing homeless specific services is rising, but early access to 
comprehensive care and timely assistance can prevent these Veterans 
from becoming homeless.
Preventing Homelessness Among Veterans
    In the FY 2009 appropriations bill passed in March, Congress 
provided VA and HUD with $10 million to develop a new collaborative 
dynamic pilot that may fund as many as 10 sites where Veterans at-risk 
of homelessness can be assured safe housing, supportive services, and a 
dynamic comprehensive treatment team. VA received $5 million to provide 
a vigorous case management system for Veterans under this pilot. This 
effort is designed to intervene before the Veteran's family unit 
dissolves. These ``at-risk of homelessness'' pilots are a new and 
important step to targeting resources to Veterans and their families 
who are at high risk and will prevent more acute problems later. VA and 
HUD are working on moving this effort forward quickly and hope that 
250-500 Veterans and family Members will be aided with a targeted 
effort to prevent them form ever becoming homeless.
    VA will continue our efforts to end chronic homelessness among 
Veterans, and those efforts are being enhanced with new measures. We 
are confident these steps will have a dramatic impact in advancing our 
goal of zero tolerance for homelessness among Veterans.
Coordination of Outreach Services for Veterans At-Risk of Homelessness
    The Department appreciates Congress' renewal and expansion of 
authority that allows VA and DOL to reduce homelessness among Veterans 
discharged from institutional settings. Each year more than 50,000 
Veterans are discharged from institutional settings such as: long-term 
mental and substance abuse rehabilitative centers; correctional 
facilities; and other long-term care settings. This transition is 
difficult for many Veterans, and this initiative will provide these at-
risk Veterans with increased tools for reintegration into the 
community. Public Law 110-387 Sec. 602 authorizes no less than 12 
demonstration pilots be established. These demonstration sites are to 
be initiated in Fiscal Year 2010. An estimated 2,000-4,000 Veterans are 
expected to be aided through this effort annually. Our Department 
expects to spend $4-$6 million to carry out this homeless prevention 
activity.
    Our efforts, with additional support from the Department of Justice 
(DOJ), will allow us to offer at least 12 demonstration projects 
providing referral and counseling services for Veterans at risk of 
homelessness who are currently in an institutional setting, including 
incarceration. VA and DOL are in discussions and plan to move forward 
with these enhanced opportunities later this year.
HUD-Veterans Affairs Supported Housing (HUD-VASH)
    A little over 17 months ago, Congress provided funding to support 
approximately 10,000 units of permanent housing for Veterans under 
HUD's Housing Voucher Choice program. VA has worked closely with our 
colleagues at HUD to determine where those vouchers should be placed. 
Public notice was made 13 months ago, and since then VA began a process 
to hire nearly 300 dedicated case managers connected to 132 VA medical 
centers. As of April 2009, we have screened 14,250 Veterans for 
placement, placed 9,300 under our case management, and referred 8,600 
Veterans to public housing authorities for vouchers. Of these, 7,300 
have received vouchers and 3,500 are in housing with VA case managers. 
This program is a godsend to many. Our preliminary information shows 12 
percent of units are occupied by women Veterans and 14 percent have one 
or more children in the unit. This is a fantastic opportunity to offer 
Veterans with families, including children, housing services. HUD's 
funding in March 2009 has allowed VA and HUD to work on adding an 
additional 10,000 HUD-VASH vouchers for Veterans and their families, a 
huge step toward ending homelessness among Veterans.
Homeless Research Center
    Last month Secretary Shinseki announced VA will partner with the 
University of Pennsylvania and the University of South Florida to 
create the first Center that will give our Department the research 
capacity to improve our programs and become more effective in the 
future. The National Center on Homelessness Among Veterans' primary 
goal is to develop, promote, and enhance policy, clinical care 
research, and education to improve homeless services so Veterans may 
live as independently and self-sufficiently as possible in a community 
of their choosing. The Center will be co-located with the Philadelphia 
and James A. Haley (Tampa, FL) VA Medical Centers and is designed to be 
a national resource for both VA and community partners. It will improve 
the quality and timeliness of services delivered to at risk or homeless 
Veterans and their dependents. As this Committee knows, VA's extensive 
nationwide network enables it to have one of the best program 
monitoring and evaluation capabilities in the Nation. The new Center 
will allow us to use much of the data systems within VA and across the 
country to improve VA and community service providers' effectiveness in 
reaching out, treating and improving long term discharge outcomes of 
the Veterans we serve.
Summary
    I have been involved in VA's efforts to end homelessness among 
Veterans for two decades. I have never been more confident that our 
efforts will succeed than I am today. There is an unprecedented 
commitment and collaborative relationship at the Federal, state, 
territorial, tribal and local government levels. We have more than 500 
community, non-profit, and faith-based service providers working in 
tandem with our health care and benefits staff to improve the lives of 
tens of thousands of homeless Veterans each night.
    VA continues to make progress in preventing homelessness, as well 
as increasing support and treatment for our homeless Veterans. We still 
have much to do to end chronic homelessness among Veterans, and we are 
eager to work with you to meet that challenge. Developing appropriate 
links to health care, housing, benefits assistance, employment and 
transportation are all components that help bring these Veterans out of 
despair and homelessness. We appreciate all of the assistance Congress 
provides in this noble effort.
    Mr. Chairman, this concludes my statement. I am pleased to respond 
to any questions you may have.

                                 <F-dash>
 Prepared Statement of John M. McWilliam, Deputy Assistant Secretary, 
  Veterans' Employment and Training Service, U.S. Department of Labor
Chairman Filner, Ranking Member Buyer, and Members of the Committee:

    I am pleased to appear before you today to discuss how the 
Department of Labor's Veterans' Employment and Training Service (VETS) 
fulfills its mission of providing veterans and transitioning 
servicemembers with the resources and services to succeed in the 21st 
century workforce and, particularly, VETS' work in helping to combat 
veteran homelessness.
    We accomplish our mission through three distinct functions: (1) 
employment and training programs; (2) transition assistance services; 
and (3) enforcement of relevant Federal laws and regulations. Our 
employment and training programs include a state grant program, which 
is allocated to the states by a statutory formula, and a number of 
competitive grant programs. VETS' transition assistance services are 
provided through employment workshops and direct services for 
separating military Members, including those who are seriously wounded 
and injured. Our enforcement programs include investigation of 
complaints filed by veterans and other protected individuals under the 
Uniformed Services Employment and Reemployment Rights Act (USERRA), 
assessment of complaints alleging violation of statutes requiring 
Veterans' Preference in Federal hiring, and implementation and 
collection of information regarding veteran employment by Federal 
contractors.
    As the primary focus of this hearing is homeless veterans, in my 
testimony I will first describe VETS' enforcement programs, transition 
assistance programs, and employment and training grant programs, and 
conclude with an in-depth description of the Homeless Veterans 
Reintegration Program. All of our activities--enforcement, transition 
assistance, and employment and training--form an effective frontline in 
the prevention of veteran homelessness. Our Homeless Veterans 
Reintegration Program is effective in helping those who do become 
homeless reestablish themselves as self-sufficient, productive and 
valued members of our society.
Enforcement Programs
    VETS has three enforcement programs that protect servicemembers' 
employment and reemployment rights and provide employment opportunities 
for veterans: USERRA, Veterans' Preference, and the Federal Contractor 
Program. Our USERRA and Veterans' Preference programs investigate 
complaints filed by servicemembers and veterans who allege their USERRA 
or Veterans' Preference rights have been violated. USERRA provides 
employment and reemployment rights to returning servicemembers, 
including National Guard and Reserve members, and prohibits 
discrimination due to military obligations. Veterans' Preference 
provides that eligible veterans receive certain consideration when 
applying for Federal employment. VETS provides technical assistance to 
inform veterans, servicemembers and employers of their rights and 
responsibilities, and thoroughly investigates complaints by 
servicemembers and veterans under these laws. We also made it easier 
for a servicemember to file a USERRA or Veterans' Preference complaint 
by providing a system for online complaint filing. VETS promulgates 
regulations, and collects and compiles data on the Federal Contractor 
Program Veterans' Employment Report from Federal contractors and 
subcontractors who receive a Federal contract at an amount at or above 
certain statutory thresholds.
Transition Programs
    VETS provides transition assistance through two programs: 
Transition Assistance Program (TAP) employment workshops and the 
Recovery and Employment Assistance Lifelines (REALifelines) program. 
TAP was established to meet the needs of separating servicemembers 
during their period of transition into civilian life by offering job-
search assistance and related services. TAP employment workshops 
consist of comprehensive workshops at military installations worldwide. 
Workshop attendees learn about job searches, career decision-making, 
current occupational and labor market conditions, resume and cover 
letter preparation, and interviewing techniques. Participants also 
receive an evaluation of their employability relative to the job 
market, as well as information on the most current veterans' benefits. 
Since 1990, TAP employment workshops have provided job preparation 
assistance to over two million separating and retiring military 
members. During Fiscal Year (FY) 2008, VETS held 3,525 workshops in the 
United States for 120,875 participants, and 579 workshops for 9,796 
participants at overseas locations. The Department's FY 2010 budget 
requests an additional $3\1/2\ million to allow TAP to offer expanded 
services for spouses and family members of separating and retiring 
servicemembers, including those with limited English proficiency.
    House Report 108-636, which accompanied the appropriation enactment 
for Fiscal Year 2005, instructed the Secretary of Labor to add a module 
on homelessness prevention to the TAP curriculum. This module, which 
includes a presentation on risk factors for homelessness, a self-
assessment of risk factors, and contact information for preventative 
assistance associated with homelessness, is now included in our TAP 
Manual and in all of our TAP employment workshops.
    VETS developed the REALifelines program in FY 2004 to provide one-
on-one employment assistance to wounded and injured servicemembers and 
veterans to help them transition into the civilian workforce. Through 
the end of FY 2008, the program has served over 7,000 injured and 
wounded servicemembers.
Employment and Training Programs
    VETS administers one formula grant and two competitive grant 
programs.
    Jobs for Veterans State Grants (JVSG): The JVSG program is the 
flagship of VETS' employment and training programs. This program offers 
employment and training services to eligible veterans through formula 
grants to states. Under the formula, funds are allocated to State 
Workforce Agencies in proportion to the number of veterans seeking 
employment within their state relative to the number of veterans 
seeking employment in all states. VETS' transition programs and 
competitive grant programs all work through JVSG-funded staff to access 
the wide array of employment and training services for which veterans 
receive priority access. The grants support two state staff positions: 
Disabled Veterans' Outreach Program (DVOP) specialists and Local 
Veterans' Employment Representatives (LVER).
    DVOP specialists provide intensive services to meet the employment 
needs of disabled veterans and other eligible veterans, with the 
maximum emphasis on serving those who are economically or educationally 
disadvantaged, including homeless veterans, and veterans with barriers 
to employment. DVOP specialists are actively involved in outreach 
efforts to increase program participation among those with the greatest 
barriers to employment. During Program Year (PY) 2007, DVOP specialists 
served 350,318 participants, transitioning servicemembers, veterans and 
other eligible persons, with a 64.2 percent entered employment rate, 
and an employment retention rate of 81.7 percent.
    The role of the LVER is to develop increased hiring opportunities 
within the local workforce by raising the awareness of employers of the 
availability and the benefit of hiring veterans, including those with 
disabilities. LVERs conduct outreach to employers and engage in 
advocacy efforts with hiring executives to increase employment 
opportunities for veterans and help veterans get and keep good jobs. 
During PY 2007, LVER staff served 363,481 participants, transitioning 
servicemembers, veterans and other eligible persons, with a 64.3 
percent entered employment rate and an employment retention rate of 
81.6 percent.
    Another role of LVERs is to facilitate the employment, training and 
placement services furnished to veterans in the state. To meet the 
specific needs of veterans, particularly veterans with barriers to 
employment, DVOP and LVER staff are thoroughly familiar with the full 
range of job development services and training programs available at 
the State Workforce Agency One-Stop Career Centers and Department of 
Veterans' Affairs Vocational Rehabilitation and Employment (VR&E) 
service locations.
    Veterans Workforce Investment Program (VWIP): VWIP funds 
competitively awarded grants and contracts that stimulate the 
development of effective service delivery systems and that assist 
veterans with complex employment problems to reintegrate into 
meaningful employment. In PY 2007, VWIP grants totaling $6.9 million 
provided training for 3,625 veterans, with a placement rate of 61 
percent.
    In FY 2009, VWIP received funding in the amount of $7,641,000 that 
will assist 3,700 veterans. The FY 2010 funding level requested for 
VWIP is $9,641,000, an increase of $2,000,000 over the amount funded 
for FY 2009 that will serve 4,600 participants. Projects that support 
training for green jobs will receive priority consideration.
    Homeless Veteran Reintegration Program (HVRP): HVRP is the only 
Federal nationwide program focusing exclusively on employment of 
veterans who are homeless. HVRP provides employment and training 
services to help reintegrate homeless veterans into meaningful 
employment and address the complex problems they face.
    HVRP grants are awarded competitively to state and local workforce 
investment boards; state agencies; local public agencies; and private 
non-profit organizations, including faith-based organizations and 
neighborhood partnerships. HVRP grantees provide an array of services 
utilizing a holistic case management approach that directly assists 
homeless veterans and provides training services to help them to 
successfully transition into the labor force. Homeless veterans receive 
occupational, classroom, and on-the-job training as well as job search 
and placement assistance, including follow-up services.
    Grantees provide services through a client-centered case management 
approach and network with Federal, State, and local resources for 
veteran support programs. This includes working with Federal, State, 
and local agencies such as the Department of Veterans Affairs, the 
Department of Housing and Urban Development, the Social Security 
Administration, the local Continuum of Care agencies and organizations, 
State Workforce Agencies, and local One-Stop Career Centers.
    VETS requested a total of $35,330,000 for the HVRP for FY 2010, an 
increase of $9,000,000 (34 percent) above the FY 2009 funding level. 
For PY 2008, $23,620,000 was appropriated for HVRP, an 8 percent 
increase over PY 2007. In PY 2008, HVRP grantees will serve 14,000 
homeless veterans; in PY 2009, which will begin in July 2009, HVRP will 
serve 15,500 homeless veterans. VETS plans to serve 21,000 homeless 
veterans in PY 2010. During PY 2007, HVRP grantees served 12,932 
homeless veterans. The employment placement rate was 64 percent. The 
costs for serving this challenging population were $1,686 per 
participant and $2,647 per placement.
    In PY 2008, VETS awarded a total of 91 HVRP grants, including 16 
newly competed grants and 75 current grants for second- and third-year 
funding. HVRP also provided second-year funding for two cooperative 
agreements to assist in developing the HVRP National Technical 
Assistance Center. The Center provides technical assistance to current 
grantees, potential applicants and the public; gathers grantee best 
practices; conducts employment-related research on homeless veterans; 
carries out regional grantee training sessions and self-employment boot 
camps; and performs outreach to the employer community in order to 
increase job opportunities for veterans.
    VETS utilizes a portion of HVRP funds to support stand down 
activities. A stand down is an event held in a local community where a 
variety of social services are provided to homeless veterans. Stand 
down organizers partner with local business and social service 
providers to provide critical services such as: showers and haircuts; 
meals; legal advice; medical and dental examinations and treatment; and 
information on veterans' benefits and opportunities for employment and 
training.
    VETS allows competitive grantees to use $10,000 of their existing 
funds per year to support stand down events, since they are an 
effective means of outreach. Stand down events are a gateway for many 
homeless veterans into a structured housing and reintegration program.
    In addition, VETS funds HVRP eligible entities (that do not have a 
competitive HVRP grant) to support a stand down event. During FY 2008, 
VETS awarded $351,000 in non-competitive grants for 46 stand down 
events that provided direct assistance to 3,789 homeless veterans.
    That concludes my statement, and I would be happy to respond to any 
questions.

                                 <F-dash>
                     Statement of Hon. Steve Buyer,
       Ranking Republican Member, Committee on Veterans' Affairs
Thank you Mr. Chairman,

    While actual numbers are difficult to assess, it is estimated that 
each night, more than a hundred thousand of our Nation's veterans find 
themselves sleeping in doorways, beneath viaducts, in their cars, 
tents, or wherever they can find shelter.
    The issue of homelessness is sad from any perspective, but it is 
especially troubling when formerly proud members of the armed forces 
and defenders of liberty are living on the streets of the country they 
helped defend.
    The data on homeless veterans offers signs of hope and 
encouragement that programs we have implemented are working, yet at the 
same time, we see a rise in some disturbing trends that compel further 
action.
    Overall, the number of homeless veterans is estimated to have 
dropped by nearly half since 2002 when President Bush revitalized the 
Interagency Council on Homelessness and made VA an integral part of a 
larger initiative to end chronic homelessness in the United States.
    VA's emphasis on homeless programs, along with improved 
coordination among Federal agencies, has been wonderfully effective, 
and an enormous number of veterans have escaped the desperate cycle of 
life on the streets
    But along with significant progress, VA data shows that 
demographics have shifted, and there is a marked increase in the number 
of homeless women veterans, many of whom have children.
    These individuals require a safe, supportive environment, and a 
private setting, in which they can regain their footing and acquire 
skills that will lead to meaningful employment and permanent housing, 
and their children can attend school.
    So along with providing continued support for the programs and 
strategies that have proven successful, this Committee must identify 
existing gaps in service, while anticipating future needs that may 
arise.
    This is especially important during the current economic downturn 
when jobs are harder to find--we don't want to see a backslide as a 
result of the recession.
    We must bolster successful programs like HVRP--the Homeless Veteran 
Reintegration Program, which now provides grants to dozens of 
facilities that help homeless veterans re-enter the workforce and take 
active roles in the society they helped defend.
    Most counselors will tell you that accomplishing meaningful work is 
the one thing above all else that gives a person a sense of self-worth, 
and last year, HVRP served thousands of homeless veterans and placed 
about 65 percent in jobs.
    So I was pleased when a measure to extend the HVRP program passed 
the House on March 30.
    I thank Dr. Boozman, Ranking Member of the Subcommittee on Economic 
Opportunity, for introducing H.R. 1171, the HVRP Reauthorization Act.
    I am also especially pleased that H.R. 1171 includes the text of 
H.R. 293, the Homeless Women Veterans and Homeless Veterans with 
Children Reintegration Grant Act, which I introduced to reverse the 
increased trend in homeless women veterans.
    I know you all join me in my hope that the success created by HVRP 
will be replicated by HVRP-W.
    Mr. Chairman, I would like to thank you and my colleagues on both 
sides of the aisle for supporting this important measure.
    I welcome our guests on today's witness panels, I look forward to 
their testimony, and I yield back.

                                 <F-dash>
              Statement of Hon. Stephanie Herseth Sandlin
    Thank you Chairman Filner for holding this important hearing about 
strategies to combat the scourge of homelessness among veterans.
    I agree with President Obama, who said in March that until we reach 
a day when not a single veteran sleeps on the street, our business on 
this issue is unfinished.
    Recently, I was proud to work in a bipartisan manner in the 
Economic Opportunity Subcommittee on Rep. John Boozman's Homeless 
Veterans Reintegration Program Reauthorization Act of 2009. I was 
pleased to see that bill, which helps homeless veterans with items such 
as job training and child care services pass the full House on March 
30.
    My State of South Dakota has had some success in battling this 
problem through the Grant and Per Diem program, although there is more 
work to be done. In Rapid City, the Cornerstone Rescue Mission received 
a grant and opened a 60-bed veterans wing at their facility in 2007.
    Program coordinators report that they have seen steady usage of the 
veterans wing and the success stories are starting to add up with 
struggling veterans coming in and leaving several months later on their 
way to gainful employment and regular housing.
    Given such success, I hope the VA and this Committee will strongly 
consider ways to expand this program's reach so more communities can 
benefit as Rapid City has.
    I thank the panelists for appearing today, and I hope the VA and 
this Committee never loses sight of need to solve this problem.

                                 <F-dash>
 Statement of Mary Cunningham, Senior Research Associate, Metropolitan 
            Housing and Communities Center, Urban Institute
Chairman Filner and Members of the Committee,

    Thank you for inviting me to share my views related to homeless 
veterans. I am a senior research associate at the Urban Institute, a 
nonprofit, nonpartisan research organization in Washington, DC. Most of 
my policy-oriented research over the past decade has focused on 
affordable housing programs, including Housing Choice vouchers and 
public housing. More recently, I have been researching homelessness, 
including writing a policy brief called ``Preventing and Ending 
Homelessness--Next Steps for Policymakers.'' I have been asked to 
address questions about housing and service interventions that prevent 
and end homelessness among veterans. Before I talk about what we know 
from the research and promising strategies, I would like to briefly 
review the scope of the problem.
Veteran Homelessness and Lack of Affordable Housing
    According to the VA, an estimated 131,000 veterans are homeless on 
any given night (Smits and Kane 2009). Many more, some estimate about 
twice as many, experience homelessness over the course of the year. I 
should note that it is notoriously difficult to count the number of 
homeless people and that these numbers should be used as rough 
estimates rather than precision counts. The 131,000 number is, however, 
the best estimate available at this time, and it shows that far too 
many of our Nation's veterans are homeless.
    It is generally accepted that most veterans who are currently 
homeless served during the Vietnam War, but recent VA numbers show that 
veterans returning from serving in Iraq and Afghanistan are trickling 
into VA homeless services. From 2005 to 2008, the VA identified 2,986 
OEF/OIF veterans who were homeless (Smits and Kane 2009). Some 
troubling data, including the high rates of Post-traumatic stress 
disorder (PTSD) and Traumatic Brain Injury (TBI), the recession, and 
the lack of affordable housing in many cities across the country, 
suggest that the number of returning veterans who experience 
homelessness will grow over the next few years.
    Generally speaking, the country's veterans are well housed. They 
have higher rates of home ownership and lower rates of rental housing 
cost burden than civilians (GAO 2007). However, a subgroup--
approximately \1/2\ million low-income veteran renters--had severe 
housing cost burden in 2005 (GAO 2007; National Alliance to End 
Homelessness 2007).This means they are paying more than 50 percent of 
their income on housing. With no room for basic necessities in their 
monthly budget--let alone unexpected expenses due to job loss or 
troubles related to physical or mental health problems--households 
paying such a large share of income for rent are at risk of becoming 
homeless. Unlike chronically homeless veterans, many of whom have 
serious mental illness and substance use disorders, many homeless and 
low-income veterans do not need supportive services to stay housed. 
They just need help paying for their housing.
    These low-income veterans have few places to turn for help with 
housing. The VA has some small programs addressing homelessness and a 
home ownership loan program for veterans who can afford to buy a home, 
but there is little help for low-income veterans who are struggling to 
pay their rent. Another possible place to turn for help are local 
public housing agencies, which administer the U.S. Department of 
Housing and Urban Development's (HUD) Housing Choice vouchers and 
public housing programs. These programs, however, are difficult to get 
into because of long waiting lists and scarce resources.
    The lack of affordable housing is clearly one driver of 
homelessness. As economists Quigley and Raphael (2000, 1) note, 
``Rather modest improvements in the affordability of rental housing or 
its availability can substantially reduce the incidence of homelessness 
in the U.S.'' In basic terms, ``too many poor people are asked to chase 
too few low-cost housing units,'' and the way to solve the problem of 
homelessness is to solve the housing affordability problem (Sclar 1990, 
1,039). This suggests that a targeted housing subsidy program for low-
income veterans is needed.
Ending Homelessness among Veterans
    To end homelessness among veterans, policymakers need to help 
veterans who are currently homeless get back into permanent housing and 
prevent homelessness among those at risk. Because the research 
indicates that affordable housing is the key to preventing and ending 
homelessness and because our current assisted housing programs are 
woefully inadequate to meet current needs, my recommendations focus on 
expanding housing-based rapid rehousing and prevention programs, 
supportive housing, and affordable housing subsidy programs. I 
highlight existing approaches that work--but that need expanding--and a 
few suggestions that are not currently under way. I should note that 
mental health and physical health services and employment programs are 
critical for homeless and low-income veterans, but I will leave these 
topics to panelists with expertise in these issues.
Ending Homelessness among Veterans Who Are Currently Homeless
    To end veteran homelessness, policymakers will have to ``empty the 
queue'' of those who are currently homeless. Congress could take 
several steps that would go a long way in this effort.

    <bullet>  Increase the number of HUD-VASH vouchers by 10,000 
vouchers per year over the next 5 years. HUD-VASH is a supportive 
housing program that links housing choice vouchers with case management 
and clinical services for homeless veterans who would otherwise not be 
able to live independently. Previous research on HUD-VASH programs 
operating in the nineties shows that the intervention can lead to 
positive housing outcomes for homeless veterans with mental illness and 
substance use problems (Rosenheck et al. 2003; O'Connell, Kasprow, and 
Rosenheck 2008). In 2008 and 2009, Congress appropriated funding for 
20,000 HUD-VASH vouchers. This recent influx of HUD-VASH is a good 
start, but it will not meet the needs of all homeless veterans.
    <bullet>  Tightly target HUD-VASH to those with high service needs. 
Given scarce resources, program administrators must make difficult 
decisions about how to prioritize and allocate HUD-VASH vouchers. Since 
HUD-VASH is a service-intensive and costly intervention, it should be 
reserved for homeless veterans who need both a housing subsidy and 
services to exit homelessness and, most especially, to remain housed. 
Ensuring that VA medical centers target HUD-VASH to those with the 
greatest need must be clearly encouraged by the VA and incentivized 
through policy regulations.
    <bullet>  Create a rapid rehousing program for veterans. Some 
veterans who are currently homeless (or about to become homeless and 
are seeking shelter) could get back into housing with the help of some 
short-term assistance, such as short- and medium-term housing subsides 
with transitional case management. Rapid rehousing is a relatively new 
invention, though some communities across the country have been 
administering programs with promising results for some time (National 
Alliance to End Homelessness 2005). Through the American Recovery and 
Reinvestment Act, HUD is administering $1\1/2\ billion in rapid 
rehousing and prevention funding to homeless and housing service 
providers. While homeless and low-income veterans are eligible for this 
program, and many will likely receive it, the program does not target 
veterans. Rather, and as it should, it focuses on rapid rehousing and 
preventing homelessness among all homeless and low-income people who 
meet the eligibility guidelines. Policymakers should consider creating 
a similar program targeted specifically to homeless veterans and 
administered through VA medical centers in partnership with homeless 
service providers. Since we have very little empirical evidence about 
these interventions, any new program should be accompanied by a 
rigorous evaluation.
Preventing Veteran Homelessness in the Future
    As the economic recession continues, many low-income veterans are 
at risk for homelessness. To prevent homelessness from occurring 
requires a certain amount of prediction. Who will become homeless? 
Clearly, not all veterans are at risk. Narrowing down the risk pool to 
those who are extremely poor, have mental health problems, have 
physical disabilities, have dependents, are leaving jail or prison, and 
are paying too much for rental housing is a good place to target 
efforts. But even among this group, some will become homeless and some 
will not. Answering the prediction question is extremely difficult. As 
Shinn and colleagues write, ``attempts to identify individuals at risk 
are inefficient, targeting many people who will not become homeless for 
each person who will'' (Shinn, Baumohl, and Hopper 2001, 95). If you 
cannot narrow down the risk pool further, then you must inoculate the 
entire group by providing affordable housing. As Shinn and colleagues 
note, ``we recommend reorienting homelessness prevention from work with 
identified at-risk persons to efforts to increase the supply of 
affordable housing and sustainable sources of livelihood nationwide or 
in targeted communities'' (Shinn et al. 2001, 95).
    There are two possible vehicles for creating an affordable housing 
program for low-income veterans. Further investigation is needed to 
understand which approach is most feasible and would have the biggest 
impact.

    1.  Congress could fund a housing supplement for low-income 
veterans that is administered by the VA through the Veterans Benefits 
Administration. This program could provide a cash supplement for 
housing (for example, up to 50 percent of the local fair-market rent). 
And the program could be administered through the Veterans Benefits 
Administration to target veterans at a certain income level (for 
example, 50 percent of area median income). The VA could conduct 
outreach at VA medical centers and through VA service organizations to 
ensure program use.
    2.  Congress could authorize and fund 200,000 mainstream Housing 
Choice vouchers for low-income veterans and their families. This 
program could be administered by HUD and modeled after the Housing 
Choice Voucher program. Priority should be given to homeless, disabled, 
and elderly veterans, and those with families. These vouchers could be 
allocated to communities based on a formula that considers the number 
of homeless veterans and the number of veterans who have severe housing 
cost burden. These vouchers would differ from HUD-VASH since they would 
be targeted to veterans who are currently homeless or at risk for 
homelessness for primarily economic reasons. For this reason, they 
would not need intensive case-management services attached to the 
subsidy like HUD-VASH does because that program should be targeting 
veterans with higher service needs.

    In summary, to end homelessness among veterans, policymakers will 
need to create a range of programs that are housing-based and, for 
those veterans who need them, that are linked to services. At the most 
basic level, this means the VA will need to both expand its mission 
beyond health care and benefits administration to include housing and 
continue to foster a strong partnership with HUD.
References

Cunningham, Mary. 2009. ``Preventing and Ending Homelessness--Next Steps 
for Policymakers.'' Washington, DC: The Urban Institute.

GAO. 2007. ``Rental Housing Information on Low-Income Veterans' Housing 
Conditions and Participation in HUD's Programs.'' Washington, DC: GAO.

National Alliance to End Homelessness. 2005. Community Snapshot: Hennepin 
County. Washington, DC: National Alliance to End Homelessness.

National Alliance to End Homelessness. 2007. ``Vital Mission: Ending 
Homelessness among Veterans.'' Washington, DC: National Alliance to End 
Homelessness.

O'Connell, Maria J., Wesley Kasprow, and Robert A. Rosenheck. 2008. ``Rates 
and Risk Factors for Homelessness After Successful Housing in a Sample of 
Formerly Homeless Veterans.'' Psychiatric Services 59(3): 268-75.

Quigley, John, and Steven Raphael. 2000. ``The Economics of Homelessness: 
The Evidence from North America.'' Working Paper W000-003. Berkeley: 
Institute of Business and Economic Research, University of California, 
Berkeley.

Rosenheck, Robert, Wesley Kasprow, Linda Frisman, and Wen Lue-Mares. 2003. 
``Cost-Effectiveness of Supportive Housing for Homeless Persons with Mental 
Illness.'' Archives of General Psychiatry 60:940-53.

Sclar, Elliot. 1990. ``Homelessness and Housing Policy: A Game of Musical 
Chairs.'' American Journal of Public Health 80(9): 1039-40.

Shinn, Marybeth, Jim Baumohl, and Kim Hopper. 2001. ``The Prevention of 
Homelessness Revisited.'' Analyses of Social Issues & Public Policy 1(1): 
95.

Smits, Paul, and Vince Kane. 2009. ``Homelessness and Our Nation's 
Veterans.'' PowerPoint presentation at National Coalition for Homeless 
Veterans Conference, May 20-22.

                                 <F-dash>
                  Statement of Hon. Harry E. Mitchell
    Chairman Filner, thank you for calling this hearing to discuss the 
steps necessary to end homelessness among the men and women--American 
heroes--who have worn the uniform or our Armed Forces. Thank you also 
to the witnesses from VSOs, non-profits, and Federal agencies for 
appearing.
    On any given night, there are likely to be more than 100,000 
homeless veterans on our streets. Nearly half of these veterans suffer 
from mental illness, and nearly three-quarters struggle with some kind 
of substance abuse. Studies show that combat exposure directly 
correlates with illnesses and behaviors that often precipitate 
homelessness. Those who have served in harm's way should be those for 
whom we go the extra mile to prevent homelessness and its underlying 
causes.
    In March, I was proud to join my colleagues on this Committee in 
reporting to the House of Representatives a bill that will help combat 
veterans' homelessness. H.R. 1171, the Homeless Veterans Reintegration 
Program Reauthorization Act of 2009, which was introduced by our 
colleague, Mr. Boozman, passed the House on March 30. I call on our 
colleagues in the Senate to take up this bill that would help 
reintegrate veterans who need a hand with job training and assistance.
    I would also like to say a word about the Madison Street Veterans 
Association, a peer-driven group of homeless veterans in Arizona who 
have started a resource center to help other homeless veterans. They're 
working to provide vocational assistance and basic hygiene and sanitary 
care. These men know the challenges that veterans face, and they have 
stepped up to help. I hope that we can back them up.
    Thank you again, Chairman Filner. I yield back.

                                 <F-dash>
              Statement of Cecil Byrd, Executive Director,
               National Association of Concerned Veterans
    Thank you Mr. Chairman, Members of the Committee and fellow 
Comrades in Arms for your efforts and this opportunity to testify. NACV 
has been serving veterans and their families from the grass roots level 
since 1968.
    Although the National Association of Concerned Veterans (NACV) has 
been silent for a while we have not ceased our efforts and commitment. 
As the Committee Chair mentioned, numbers are difficult to assess and 
it is comforting to quote diminishing numbers, however, we should ask 
ourselves why the numbers are diminishing? I remember over 20 years ago 
when NACV and others challenged the numbers of unemployed veterans 
reported by BLS, DOL, VA and DoD. What we in the trenches discovered 
was that when people give up on the system they stop signing up and 
stop showing up. Those of us who have been in the business also 
remember when it was not smart to let people know you are a veteran. 
There are many other reasons. We know the average age of the WWII, 
Korean and VV era vets. What is the life expectancy of a homeless vet 
on the streets around the country? We also know that about the reported 
high rates of suicide among recent returning troops and vets. How long 
were some of them homeless before they decided they had no other 
option? Here in DC we know that an estimated 80 percent of the reported 
incarcerated veterans have bad paper discharges. Why would someone 
claim to be a vet only to follow it with ``an undesirable, 
dishonorable, less than honorable, bad conduct, etc''? Finally, how 
many homeless veterans is an okay number?
    And less we relax or get too comfortable, we also know or should 
know what is happening around the country with regards to the hundreds 
of thousands of ex offenders who are being released over the next 
twelve months. We all ``know the drill''. Release, no job, no support 
systems, no wrap around services . . . back on the streets and back to 
the old life of drugs, unemployment and crime equals incarceration.
    NACV lauds the efforts of the Congress and the Administration to 
revitalize and expand the Interagency Council. We also know that any 
program to combat homelessness as has been stated must include an 
employment component. The employment piece must include skills and job 
development and employers who are willing to work with and hire tough 
cases. What do we do with the structurally unemployed and disabled?
    NACV would like to re emphasize the tremendous potential offered by 
the National Institute for Severely Handicapped. In our opinion, 
neither NISH, VA, DOL, DoD, SBA nor the Congress realize the potential 
resource and how to develop it, but we must. The beauty of NISH is that 
co occurring and dually diagnosed meet the NISH criteria, add to that 
the severely disabled returnees and we have a tremendous labor 
resource.
    Again, we must restate the special needs of today's military and 
veteran and their family. Not only do we have a marked increase number 
of homeless women veterans but often both father and mother are vets 
and the stressors are far too much for anyone to deal with without a 
comprehensive services plan.
    We also know that a major key is proper prior planning, prevention 
and early intervention. It needs to happen in the Guard and Reserve 
units before, during deployment and after deployment. We need to do a 
better job of not only preparing but implementing controls and safe 
guards.
    We also need to say something about the medical holding companies. 
We need to look closely at the data surrounding medical holding 
companies and what happens to the men and women after they leave the 
holding companies.
    NACV predicts that the relationship between PTSD/TBI and unmet 
readjustment needs and homelessness and suicide are obviously very 
high. NACV is working very closely with a veteran now who was diagnosed 
with PTSD and TBI. He is presently incarcerated has been for over 6 
months and is facing 10 years and is presently being determined 
ineligible for treatment through the VA even though the presiding Judge 
is willing to order the vet to long term treatment in the VA. This vet 
was homeless when he was referred to us.
    It is difficult to hear the Congress and the Administration talk 
about Veteran Jail Diversion Programs for Veterans with PTSD and TBI 
and listen to all the excuses as to why a particular veteran is not who 
the legislation or program meant or intended.
    I would like to recommend another program that NACV would like to 
recommend and suggest that with some retrofitting could have a 
significant impact on the challenges facing veterans and their families 
today. The program was called the Veterans Cost of Instruction Payments 
Program. This program paid post secondary institutions, colleges and 
universities, trade and technical schools per capita veteran enrolled 
and who completed the education and training. The funds could be used 
and tailored to meet the needs of veterans at that institution and in 
that community. The programs included emergency assistance, child care, 
housing, employment training and job development, tutoring, discharge 
review, counseling, transportation, outreach, etc. Although the program 
was never fully funded it provided grantees funding to offer creative 
solutions to the tremendous challenges facing the returning Vietnam 
veterans.
    Finally, I would like to end by informing the Committee of the high 
priority veterans programs in the District of Columbia enjoy. The DC 
Office of Veterans Affairs is presently funded in an amount that 
equates to 12 dollars per estimated veteran. That amount includes the 
family, if applicable. This does not include I may add the amount of 
money the SE Vets Center and Chesapeake Vets center in SE DC receives. 
Still, think about it: $12 bucks a vet. Shame on us all!
    By the way, we continue to challenge anyone that one dollar 
invested in a veteran will bring a return of at least four times the 
investment.
    Thank you for your time, hard work and commitment to the men and 
women who served. NACV would welcome any opportunities to share our 
successes working with the homeless veteran population not only here in 
the DC but nationally. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3876595b4e0801784159505757165b5755">[email&#160;protected]</a>

                                 <F-dash>
  Statement of Mark Johnston, Deputy Assistant Secretary for Special 
        Needs, U.S. Department of Housing and Urban Development
Introduction
    Chairman Filner, Representative Buyer and Members of the Committee, 
I am pleased to represent the Department of Housing and Urban 
Development. My name is Mark Johnston, the Deputy Assistant Secretary 
for Special Needs. I manage the Department's efforts to confront the 
housing and service needs of homeless persons. This responsibility 
includes confronting the needs of one of our most vulnerable 
populations--homeless veterans and their families. As President Obama 
made clear in his election campaign it is unacceptable that anyone who 
had defended our Nation and returns from war must resort to sleeping on 
the streets of America. These veterans may be homeless due to a variety 
of factors, including physical disability, mental health and economic 
distress. HUD provides housing and needed supports to homeless veterans 
through the Department's targeted programs for special needs 
populations, as well as through mainstream HUD resources.
    The Department administers a variety of programs that can serve 
veterans. These include the Housing Choice Voucher Program, Public 
Housing, HOME Investment Partnerships, and the Community Development 
Block Grant (CDBG) program. These programs, by statute, provide great 
flexibility so that communities can use these Federal resources to meet 
their local needs, including the needs of their veterans. In addition 
to these programs, Congress has authorized a variety of targeted 
programs for special needs populations, including for persons who are 
homeless.
    Unfortunately, veterans are well represented in the homeless 
population. HUD is committed to serving homeless veterans and 
recognizes that Congress charges HUD to serve all homeless groups. 
HUD's homeless assistance programs serve single individuals as well as 
families with children. Our programs serve persons who are disabled, 
including those who are impaired by substance abuse, severe mental 
illness and physical disabilities as well as persons who are not 
disabled. HUD provides an array of housing and supportive services to 
all homeless groups, including homeless veterans.
Targeted HUD Homeless Assistance Grants
    In February 2009, HUD competitively awarded a total of 
approximately $1.4 billion in targeted homeless assistance grants. A 
record 6,336 projects received awards. It is important to note that 
veterans are eligible for all of our homeless assistance programs and 
HUD emphasizes the importance of serving veterans in its grant 
application. Communities may submit veteran-specific projects or 
projects that support a general homeless population that includes 
veterans. In 2008 HUD awarded 136 projects that specifically target 
veterans. There were 1079 additional projects awarded that will serve a 
broader population, which includes veterans.
    To underscore our continued commitment to serve homeless veterans, 
we have highlighted veterans in our annual planning and application 
process. In the annual grant application we encourage organizations 
that represent homeless veterans to be at the planning table. Because 
of HUD's emphasis, communities have active homeless veteran 
representation. We also require that communities identify the number of 
homeless persons who are veterans so that each community can more 
effectively address their needs. To that end, in collaboration with the 
Department of Veterans Affairs (VA), we also strongly encourage that 
communities use VA's CHALENG or Community Homelessness Assessment, 
Local Education and Networking Groups data in assessing the needs of 
their homeless veterans when preparing their HUD grant application.
HUD-VASH
    The Congress provided $75 million in both 2008 and 2009 for the 
HUD-Veterans Affairs Supportive Housing Program, called HUD-VASH. The 
HUD-VASH program combines HUD Housing Choice Voucher rental assistance 
(administered through HUD's Office of Public and Indian Housing) for 
homeless veterans with case management and clinical services provided 
by the Department of Veterans Affairs (VA) at its medical centers in 
the community. Through this partnership, HUD and VA expect to provide 
permanent housing and services for approximately 20,000 homeless 
veterans and their family Members, including veterans who have become 
homeless after serving in Iraq and Afghanistan. The VA is charged with 
working with local Continuums of Care to help identify eligible clients 
and provide needed support. HUD-VASH will make a significant impact on 
those who bravely served this great Nation and who have been left on 
our streets.
AMERICAN RECOVERY AND REINVESTMENT ACT (ARRA) FUNDING
    ARRA provides unprecedented funding to HUD and other Federal 
agencies to directly confront the very difficult economic times in 
which we live. Overall HUD is responsible for $13.6 billion in ARRA 
funds for housing and community development. The ARRA Homelessness 
Prevention and Rapid Re-Housing Program (HPRP) is specifically targeted 
to confront homelessness. HPRP will provide $1\1/2\ billion to 
communities nationwide. These funds are being awarded to States, 
metropolitan cities, urban counties and territories.
    The funds will be used by grantees and sub-grantees, including non-
profit organizations, to provide an array of prevention assistance to 
persons, including veterans, who but for this assistance would need to 
go to a homeless shelter. The program will also be used to rapidly re-
house persons who have become homeless. Program funds can be used to 
provide financial assistance (e.g., rental assistance and security 
deposits) and housing stabilization services (e.g., case management, 
legal services, and housing search). The HPRP funding notice expressly 
references that the program can serve homeless veterans and that 
program funds can be used to provide to homeless veterans with security 
deposits and HUD-VASH can be used for long-term rental assistance. HUD 
recently highlighted the potential to use HPRP funds to serve homeless 
veterans at the National Coalition for Homeless Veterans' annual 
conference in May, 2009.
    HPRP represents a unique opportunity for communities. This 
significant level of funding--which equals the approximate level of 
funding historically appropriated by Congress for all of HUD's other 
homeless programs combined--will enable communities to re-shape their 
local homeless systems. For the first time, communities now have 
targeted funding to prevent homelessness. In the past virtually all of 
HUD's homeless-related programs could only assist persons after they 
became homeless. These funds have the potential to assist persons at 
risk, including veterans, stay in their homes rather than be relegated 
to moving themselves and their families to emergency shelters, or 
worse, the streets. HPRP also will allow communities to significantly 
reduce the time that veterans and others must stay in emergency 
shelters, as HPRP can be used to immediately re-house persons in 
conventional housing and also provide temporary supports such as case 
management to help ensure housing stability. These two components--
homelessness prevention and rapid re-housing--have been the missing 
links in each communities' Continuum of Care system. Communities now 
have all the tools they need to effectively confront homelessness. 
Importantly, the new approaches that communities implement with HPRP 
will be able to be carried on thanks to legislation recently passed by 
the Congress and enacted by the President on May 20, 2009.
NEW HUD HOMELESS PROGRAMS
    The recently enacted Homeless Emergency Assistance and Rapid 
Transition to Housing Act (HEARTH) provided unprecedented flexibility 
to confronting homelessness. The Act consolidates HUD's existing 
competitive homeless programs into single, streamlined new program, the 
Continuum of Care Program. The new program provides for previously 
authorized activities as well as two new activities: homelessness 
prevention and rapid re-housing. The program requires that all 
stakeholders--including which includes veterans organizations--to 
determine how the new program will operate. The law also reforms the 
Emergency Shelter Grants program into the Emergency Solutions Grants 
(ESG) program. The new ESG also provides for flexible prevention and 
rapid-rehousing responses to homelessness so that veterans and others 
who are either at risk or literally become homeless may receive 
assistance. Finally, the legislation provides for the Rural Housing 
Stability Assistance Program to provide targeted assistance to rural 
areas. HEARTH includes as a selection criterion for grant award the 
extent to which the applicant addresses the needs of all 
subpopulations, which includes veterans.
VETERAN HOMELESS PREVENTION DEMONSTRATION
    The 2009 Appropriations Act provides HUD with $10 million for a 
demonstration program to prevent homelessness among veterans as part of 
the appropriation for HUD's homeless programs. HUD will work with the 
VA and the Department of Labor to design and implement this initiative. 
Urban and rural sites will be selected, in consultation with these 
other Federal agencies. The demonstration funds may be used to provide 
both housing and services to prevent veterans and their families from 
becoming homeless or to reduce the length of time veterans and their 
families are homeless. HUD intends to conduct an evaluation of this 
demonstration, with funds provided for by the Congress, and then share 
the results widely through HUD's technical assistance resources to 
organizations serving veterans.
INTERAGENCY COLLABORATION ON HOMELESS VETERANS ISSUES
    HUD has been and continues to be a key Member of the U.S. 
Interagency Council on Homelessness (USICH). Currently, the Council is 
chaired by VA Secretary Shinseki. HUD Secretary Shaun Donovan has met 
with Secretary Shinseki to discuss the needs of homeless veterans. In 
addition, the Acting Executive Director of the USICH is Pete Dougherty 
who oversees VA's homeless efforts and works closely with HUD on 
interagency issues affecting homeless veterans.
    Historically HUD and VA have been involved in several 
collaborations related to homelessness among veterans. The agencies are 
currently working together in implementing HUD-VASH. HUD's Deputy 
Assistant Secretary for Special Needs represents HUD on the Secretary 
of VA's Advisory Committee on Homeless Veterans. This important 
advisory group has specifically addressed chronic homelessness among 
veterans.
    In addition to HUD's collaborations with VA, HUD has worked with 
other Federal agencies to solve homelessness. For instance, HUD and the 
Department of Labor joined forces and awarded $13\1/2\ million to five 
grantees nationwide to provide permanent housing and employment 
assistance to chronically homeless persons, including veterans. The 
local partners provided additional needed services such as health care, 
education, and life skills. We believe that the combination of housing 
and jobs has helped chronically homeless persons change their lives and 
become more self-sufficient. HUD has provided $1.47 million in 
subsequent renewal funding through HUD's annual Continuum of Care 
competition for continued housing assistance. Over 400 chronically 
homeless individuals have been provided with housing and services, of 
whom approximately fifteen percent (15%) are veterans. HUD looks 
forward to engaging in more interagency collaborations through the 
USICH.
TECHNICAL ASSISTANCE
    To coordinate veterans' efforts within HUD, to reach out to 
veterans organizations, and to help individual veterans, HUD 
established the HUD Veterans Resource Center. The Center, headed by a 
veteran, has a 1-800 number to take calls from veterans and to help 
address their individual needs. The Center has already taken over 1,400 
calls over the past year. The Resource Center works with each veteran 
to connect them to resources in their own community. Finally, the 
Center also provides information within the Department and with other 
agencies and veterans organizations to better address the needs of 
veterans.
    The new Homelessness Resource Exchange (located at www.HUDHRE.info) 
is HUD's one-stop shop for information and resources for people and 
organizations who want to help persons who are homeless or at risk of 
becoming homeless. It provides an overview of HUD homeless and housing 
programs, our national homeless assistance competition, technical 
assistance information, and more.
    The HUDHRE has a number of materials that address homeless veterans 
issues. For example, HUD dedicated approximately $350,000 to enhance 
the capacity of organizations that do or want to specifically focus on 
serving homeless veterans, update existing technical assistance 
materials, and coordinate with VA's homeless planning networks. As a 
result, we developed two technical assistance guidebooks. The first 
guidebook, Coordinating Resources and Developing Strategies to Address 
the Needs of Homeless Veterans, describes programs serving veterans 
that are effectively coordinating HUD homeless funding with other 
resources. The second guidebook, A Place at the Table: Homeless 
Veterans and Local Homeless Assistance Planning Networks, describes the 
successful participation of ten veterans' organizations in their local 
Continuums of Care. Additionally, we have held national conference 
calls and workshops to provide training and assistance to organizations 
that are serving, or planning to serve, homeless veterans.
Conclusion
    Again, I want to reiterate my and HUD's desire and commitment to 
help our veterans, including those who are homeless. We will continue 
to work with our Federal, state and local partners to do so.
                   MATERIAL SUBMITTED FOR THE RECORD
                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      June 11, 2009

Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Secretary:

    In reference to our Full Committee hearing entitled ``A National 
Commitment to End Veterans' Homelessness'' on June 3, 2009, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on July 24, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,
                                                         BOB FILNER
                                                           Chairman

CW:ds

                               __________
                        Questions for the Record
                   The Honorable Bob Filner, Chairman
                  House Committee on Veterans' Affairs
                              June 3, 2009
          A National Commitment to End Veterans' Homelessness

    Question 1: You spoke about the need to enact a waiver that would 
allow for the use of Federal funds without offset in the Grant and Per 
Diem Program. What benefits would such a waiver have for participants 
in the program?

    Response: The Grant and Per Diem (GPD) program payment mechanism 
was modeled after the State Veteran Nursing Home Per Diem program. At 
the time (1986), this was the only program the Department of Veterans 
Affairs (VA) operated that paid a per diem for services. One of the 
provisions of this model is to offset the per diem by any other funds 
received by the grantee. Subsequent homeless programs developed under 
the McKinney-Vento legislation have a waiver for this provision and 
allow use of other funds without diminishment. Even the State Veteran 
Nursing Home program has received legislative relief from this 
requirement, allowing them to keep Medicaid payments without offset, 
unless the total exceeds the average daily cost of care.
    The current per diem rate of approximately $34 per day does not 
come close to covering the cost of providing care for homeless Veterans 
and the associated services offered by some of the grantees. Most 
programs use a combination of Federal, State, and private resources to 
provide as robust a mix of services as possible for its clients. By 
requiring the offset, programs are thus reducing their use of other 
resources available for providing services to homeless Veterans. The 
net effect is those programs are penalized for partnering with other 
agencies to provide services. Removing the offset will allow for 
expanded, more financially stable programs that provide improved 
services to homeless Veterans.

    Question 2: Your testimony argued that VA must find ways to connect 
with community-based resources to develop a community-based outreach 
effort that can most effectively identify homeless veterans or veterans 
at risk of homelessness and connect them with VA services. What can VA 
do to develop such connections?

    Response: Health care for homeless Veterans (HCHV) outreach workers 
have traditionally worked with shelters and transitional housing 
providers (including GPD providers), as well as working the streets to 
reach out to homeless Veterans. VA's homeless programs have grown 
incrementally over the past 20 years, and VA employees in the field 
frequently find themselves taking on additional duties that reduce 
their ability to do the network building required to link with 
community agencies serving homeless and at risk Veterans.
    Social services, community mental health, alcohol and substance 
abuse services, and housing services, both public and nonprofit, are 
all places that could identify and refer Veterans to VA services, but 
VA needs to either dedicate staff exclusively to this coordination 
effort or contract with a community-based provider to do it for them. 
Community-based organizations such as the GPD providers could offer 
this linkage under contract at a lower cost than adding additional full 
time employees to VA staff.
    The HCHV program has been the primary resource in providing 
outreach services to homeless Veterans or Veterans at risk of 
homelessness in the community. Since its inception more than 20 years 
ago, HCHV has worked collaboratively with community-based homeless 
services (e.g., shelters, soup kitchens, drop-in centers) to identify 
homeless Veterans and link them to appropriate VA services. During 
fiscal year (FY) 2008, over 330 HCHV outreach staff conducted 
approximately 40,000 intake assessments for homeless Veterans 
nationwide.
    The success of the HCHV program in its outreach to homeless 
Veterans or Veterans at risk of homelessness is directly linked to its 
ability to work in unison with community agencies. The growth and 
expansion of the community-based programs that comprise the homeless 
Veteran program continuum of care have greatly increased opportunities 
to build on this collaboration. HCHV outreach workers work jointly with 
these programs to identify those in need of service, link homeless 
Veterans to VA health care, develop effective treatment plans, provide 
advocacy services for Veterans and family members, and assist in 
transition plans for Veterans as they progress in their rehabilitation. 
These are key elements in VA's overall strategy to eliminate 
homelessness among America's Veterans.
    Stand downs provide an additional opportunity to improve the 
collaboration with community providers. Typically, these are 1 to 3 day 
outreach events that involve a broad range of community providers 
brought together in a single location. In 2008, 152 stand downs were 
held serving more than 30,000 Veterans and 4,500 family members, aided 
by 24,500 volunteers. During 2009, we project the number of homeless 
Veteran stand downs to increase to approximately 200.
    Community homelessness assessment, local education and networking 
groups (Project CHALENG) is another example of VA working to 
collaborate with its community partners in outreach to homeless 
Veterans and those at risk. Through surveys and face to face meetings 
in the community, CHALENG provides a forum for community agencies 
serving the homeless to help assess the needs of homeless Veterans 
living in the area. Traditionally, the focus is on health care, 
education and training, employment, shelter, counseling, and outreach. 
There were 11,711 respondents to the 2008 participant survey, a 28 
percent increase from the previous year.

    Question 3a: The first panel expressed some concern with the 
current payment process for the Grant and Per Diem program. Are the 
concerns expressed accurate?

    Response: There were several concerns expressed about the payment 
of per diem. These concerns focused on the timeliness of payment and 
the amount. Regarding timeliness, the GPD program office continues to 
review per diem payments within a 15-day time frame. Additionally, if 
the invoices that are submitted are correct, the local medical center 
pays these invoices within 30 days. Regarding amounts paid, per diem 
rate of payments is determined annually by law, and the maximum amount 
can not exceed the maximum amount provided under VA's State Home 
program. There have been many complaints that that level is 
insufficient in high cost areas.

    Question 3b: Why hasn't the VA assessed changing the payment system 
to one that more mirrors the recommendations from the VA Advisory 
Committee on Homeless Veterans?

    Response: The 2008 report of the VA Advisory Committee on Homeless 
Veterans recommends that the program system be revised through 
legislative change to create a system of payment that pays for 
appropriate care and services and includes allowing VA funds to be used 
as match or leverage of other Federal funds. During the last year, the 
GPD program office has modified the per diem payment system to reduce 
provider wait times for a per diem rate determination to approximately 
15 days. Additionally, the GPD program centralized the payment system, 
moving the processing of payments from individual VA medical centers to 
a single processing site in Austin, TX. This change has ensured that 
providers are paid within 30 days of invoice on average. Both of these 
modifications have assisted community providers considerably. More 
comprehensive changes to the system as suggested by the VA Advisory 
Committee on Homeless Veterans would require legislative changes.

    Question 3c: What are the barriers to changing it? (Please be 
specific in your answer.)

    Response: Legislative changes are needed to allow locality cost 
adjustments, permit VA funds to be used as match, and to remove several 
Office of Management and Budget (OMB) requirements. It is important to 
note that elimination of OMB circular requirements may be contrary to 
existing public policy, as they remove accountability controls over 
taxpayer funds. Changes such as these are weighed carefully through 
legislative and legal reviews.

    Question 4a: You cited an estimate of 131,000 homeless veterans on 
any given night during 2008. Could you describe the methodology for 
deriving this estimate?

    Response: CHALENG point-of-contacts (POC) were asked to provide a 
point-in-time (PIT) estimate of the number of homeless Veterans in its 
service area on any day during the last week of January 2008. This time 
period was selected so CHALENG estimates would coincide with the 
homeless PIT counts executed by the Department of Housing and Urban 
Development's (HUD) continuums of care nationwide. These local HUD 
continuums of care counts provided CHALENG POCs with the primary data 
source for developing estimates on homelessness among Veterans.

    Question 4b: How often is the estimate updated?

    Response: The estimate is reviewed annually and published in our 
CHALENG report.

    Question 4c: Is this figure consistent throughout a given year or 
does it fluctuate?

    Response: A careful review of the literature on this topic 
indicates the numbers of homeless persons seeking assistance at 
shelters and food pantries rise during the winter months. VA estimate 
is made based upon the best information we can get for January each 
year.

    Question 4d: Are there efforts or plans in place to use information 
collected in the upcoming census to build a comprehensive portrait of 
the homeless veteran population?

    Response: The Census Bureau reports that they will conduct an 
enumeration of people experiencing homelessness in an operation called 
service-based enumeration (SBE). The SBE was designed to provide an 
opportunity for people experiencing homelessness to be included in the 
census, by counting individuals at service-based locations who might 
not be included through other enumeration methods. Service-based 
locations include emergency and transitional shelters for people 
experiencing homelessness, soup kitchens, regularly scheduled mobile 
food vans, and pre-identified non-sheltered outdoor locations. VA 
remains engaged to assist Census Bureau officials in its effort.

    Question 5: In your testimony, you note the importance of providing 
homeless veterans with coordinated care and benefits and argue that the 
provision of such assistance ``should enable veterans to live as 
independently as possible.'' Among the homeless veterans who receive 
health care after being reached out to by VA, do you track how many are 
able to obtain and maintain permanent housing? How many obtain and keep 
gainful employment?

    Response: The housing and employment status of all homeless 
Veterans who participate in VA's transitional housing and residential 
treatment programs is reported at the time the Veteran leaves the 
program and again 1 month later. Those programs include the HCHV 
contract residential treatment program which serves about 2,000 
Veterans annually; the GPD program, which serves about 15,000 Veterans 
annually and the domiciliary care for homeless Veterans (DCHV), which 
serves about 6,000 Veterans annually.
    A one time follow-up study conducted by VA tracked housing and 
employment status of a sample of Veterans leaving these three 
residential programs for 1 year. The results of that study, reported in 
2006, indicated 79 percent of Veterans were housed and 76 percent of 
Veterans were employed 1 year after leaving the program.
    The HUD-Veterans Affairs supportive housing (HUD-VASH) program, 
offering HUD-subsidized permanent housing coupled with ongoing case 
management from VA, documents housing and employment status throughout 
each Veteran's participation in the program. Studies of the HUD-VASH 
program have shown that almost 90 percent of program Veterans obtain 
housing and maintain it for at least one year.

    Question 6: What successes has the U.S. Interagency Council on 
Homelessness had in streamlining, coordinating, or otherwise improving 
Federal efforts to treat homelessness among veterans? Moving forward, 
what additional issues should it address as priorities?

    Response: The US Interagency Council on Homelessness (ICH) has 
encouraged and assisted in the establishment of 53 State and 
territorial interagency councils on homelessness and helped more than 
1,000 local jurisdictional leaders to develop more than 350 local 10 
year plans to end homelessness. With assistance from VA these State and 
local efforts have included plans that assist including Veterans. VA 
employees work with these State and local efforts to assist Veterans 
and their families.

    Question 7: In his testimony, Mr. Basher states that the advisory 
committee recommends that HUD and HHS take steps to identify veterans 
in their programs to facilitate the connection of those veterans with 
VA care and services. What can the interagency council do to strengthen 
such collaboration among different Federal agencies and departments?

    Response: The ICH has already made efforts to get these departments 
to coordinate information. This allows common identification such as 
Veteran status. In addition as a result of recent Congressional action 
the ICH is to submit a plan to end homelessness next year.

    Question 8a: Your testimony stressed the importance of preventative 
measures and early identification of health problems in limiting 
homelessness among OEF/OIF veterans. What other lessons has VA taken 
from veterans returning from Vietnam and how have they been applied to 
OEF/OIF veterans?

    Response: The array of homeless services for Veterans returning 
from Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) is 
vastly improved over those present for Veterans returning from the 
Vietnam War. It was not until 1987 that VA had any housing, and case 
management programs for homeless and at-risk Veterans. VA specialized 
homeless program staff at each medical center works with the center's 
OEF/OIF coordinator to ensure that returning Veterans have access to 
the full range of homeless services. Of the approximately 3,000 OEF/OIF 
Veterans contacted by the HCHV program, the average age is 32; in 
contrast the average age of non-OEF/OIF Veterans is 51.
    In addition to prevention, the importance of outreach, screening, 
promoting timely access to primary and specialty mental health care and 
follow up is critical; these are lessons learned from our experience in 
treating Vietnam Veterans. The importance of offering treatment that is 
integrated and evidence based is another important lesson learned. 
Currently VA is providing outreach services to OEF/OIF Veterans and 
their families. Significant efforts are being made to identify risk 
factors and then to provide follow-up services that address these risk 
factors. Veterans are being encouraged to enroll in VA services; once 
enrolled, key screening related to depression, suicide, post traumatic 
stress disorder (PTSD), and problem drinking are conducted on each 
Veteran receiving primary care. Additional new standards for access 
have been established to ensure Veterans receive a comprehensive 
evaluation within 15 days of referral to specialty mental health care. 
Mental health and supportive services have also been enhanced at 
community-based outpatient clinics and at Vet centers in an effort to 
have more community-based treatment options. VA has addressed specialty 
treatment services for women Veterans, and specialty residential 
treatment services are now available for this population. VA has also 
expanded services to include MyHealthEVet, a VA portal that promotes 
access to information and services via the Internet which has extensive 
information on mental health problems and treatment options.

    Question 8b: How do VA and DoD coordinate to identify at-risk 
veterans during the transition process?

    Response: A critical method used to identify and coordinate care 
for those at risk among returning soldiers during the transition period 
back into civilian life is the post deployment health assessment (PDHA) 
and post deployment health reassessment screen (PDHRA) methodology. The 
PDHA is a screening tool administered by the Department of Defense 
(DoD) to all service Members, including National Guards and Reservists, 
and the PDHRA is a follow-up screen administered by DoD approximately 
90 to 180 days after they return from deployment. Both the PDHA and the 
PDHRA include mental health questions on PTSD, depression, and alcohol 
abuse. VA staff from Vet centers and medical centers, including 
benefits officers, attends PDHRA administrations to provide information 
about the range of VA benefits available to returning Veterans. Those 
who screen positive for any of the PDHA and/or the PDHRA questions can 
be referred to VA medical centers and/or Vet centers. Those Veterans 
who come to VA through the PDHRA process are specifically tracked for 
VA services they receive to ensure that the problems for which they 
were referred, and any other issues, are addressed.
    In addition to the PDHA and the PDHRA screening process, DoD 
provides VA with the addresses of returning Veterans so they can be 
contacted by VA as part of our outreach efforts. VA and DoD are also 
addressing the need for an integrated medical record process to promote 
greater integration and coordination of care.

    Question 9: When is the Homeless Research Center scheduled to open?

    Response: The National Center on Homelessness among Veterans was 
announced by Secretary Shinseki on May 22, 2009. Funding for the 
National Center on Homelessness among Veterans began immediately, and 
action to create the Center began as soon as funding was committed. It 
is expected that the new center will be fully operational by the start 
of FY 2010.
    The Center will support the development of a network of excellence 
with the scope and vision that will enable it to have substantial 
impact within the host VA medical centers (VAMC) and Veterans 
integrated service networks (VISN), Philadelphia (VISN 4) and Tampa 
(VISN 8), and across the Nation. In coordination with host academic 
affiliates, the University of Pennsylvania and the University of south 
Florida (Louis de la Parte Florida Mental Health Institute), the Center 
will have an impact along several dimensions of the delivery of care 
for Veterans who are homeless or at-risk for homelessness. These 
include:

    <bullet>  Development of new empirical knowledge and policy that 
can be directly applied to improve services for Veterans who are 
homeless or at-risk for homelessness;
    <bullet>  Development of quality management strategies that promote 
timely access to evidence-based services and/or emerging best 
practices;
    <bullet>  Provision of technical assistance to a broad target 
audience of providers with the ultimate goal of enhancing the delivery 
of high quality services to homeless Veterans and their dependents. A 
particular focus will be on Veterans who are homeless and present with 
mental health, substance use, and traumatic brain injury (TBI);
    <bullet>  Establishment of a systemic and ongoing effort to 
identify potential areas for Federal, State, and local as well as non-
profit and faith-based collaboration in service integration and 
training.

    Question 10: Your testimony states the mission of the Homeless 
Research Center is to be a resource for both VA and community partners. 
Specifically, what will the Homeless Research Center do to support the 
work of community partners?

    Response: The mission of the National Center on Homelessness among 
Veterans is to promote recovery-oriented care for Veterans who are 
homeless or at-risk for homelessness. The proposed Center is designed 
to be a national resource for both VA and community partners, improving 
the quality and timeliness of services delivered to Veterans and their 
dependents that are homeless or at-risk for homelessness.
    The Center will develop new empirical knowledge that can be used to 
improve the care and quality of life for homeless Veterans. This data-
driven knowledge will be shared with community providers, nationwide. 
Specifically, initial studies that will begin within the next 2 years 
promote epidemiological and clinical services research, efficacy and 
effectiveness studies, and outcomes research that supports the mission 
of ending homelessness among Veterans. The Center will disseminate 
evidence-based and emerging best practices to VA and non-VA providers 
related to the care of Veterans who are homeless, and it will support 
the implementation of relevant research findings into clinical practice 
settings in both VA and community provider programs. Additionally, the 
Center will function as a resource hub, increasing awareness and 
knowledge of VA and community provider resources to enhance service 
capacity. The Center will provide education and training for VA and 
community partners regarding the unique needs of Veterans and serve to 
offer technical assistance to a broad target audience of providers, 
with the ultimate goal of enhancing the delivery of high quality 
services to homeless Veterans and their dependents in both VA and 
community provider programs.

    Question 11: How were the Universities of Pennsylvania and south 
Florida chosen as partners for the Homeless Research Center?

    Response: The University of Pennsylvania and the University of 
south Florida, Louis de la Parte Florida Mental Health Institute, were 
selected to initiate the Center because of their affiliations with the 
host VAMCs and its expertise in mental health and homeless services. 
Both academic affiliates, Universities of Pennsylvania and south 
Florida, have a number of researchers with national expertise who have 
published in the areas of homeless population studies, outcome studies, 
homeless case management, homeless prevention services, and homeless 
services capacity and efficiency. The expertise of these institutions 
and the unique nature of their locations offer the Center the initial 
research-base affiliation agreements to begin building a national 
resource for both VA and community partners.
    It is the intention of VA that the National Center on Homelessness 
among Veterans will collaborate with a host of other academic partners 
in the future.

    Question 11a: In reference to the homelessness prevention module 
included in TAP: How is the module administered?

    Response: There is not a homelessness prevention module in the 
standard VA benefits transition assistance program (TAP) presentation. 
During the Veterans Benefit Administration's (VBA) 4 hour TAP 
presentation, all VA benefits are explained including compensation and 
pension programs. VA's pension program is for low-income Veterans, and 
criteria for the pension program are explained in detail. Department of 
Labor (DOL) conducts 2\1/2\ day TAP workshop, which has a module on 
homelessness consisting of 6 slides.

    Question 11b: What is VA's role and what is DOL's role?

    Response: VA's role in TAP is to provide separating and retiring 
service Members information about VA benefits, answer their questions 
about benefits, and assist them in applying for benefits. The military 
service branches work closely with VA and DOL in scheduling TAP 
workshops for separating and retiring service Members. VA's portion of 
the TAP workshop is a 4 hour benefits briefing, and DOL's portion is a 
2\1/2\ day session.

    Question 11c: What is the protocol for follow-up if a veteran 
taking the self-assessment is determined to be at risk?

    Response: VBA does not use a self-assessment at the TAP briefings.

    Question 11d: Is VA notified? If so, what action does VA take?

    Response: VA works closely with DOL to provide assistance to 
homeless Veterans. When DOL notifies VA of a homeless Veteran, VBA's 
homeless Veterans outreach coordinator contacts the Veteran and 
provides assistance as necessary that includes applying for VA 
benefits, tracking and providing expedited claim processing, obtaining 
shelter, referring to community providers, among others.
                The Honorable Stephanie Herseth Sandlin

    Question 1: My caseworkers in South Dakota report that the homeless 
Veterans they have worked with are very distrustful of the VA and 
generally unwilling to go there for assistance. What efforts can the VA 
undertake to overcome such doubts so these Veterans can get the 
assistance they need?

    Response: VA is aware that some homeless Veterans are distrustful 
of VA and have been unwilling to seek services from VA. Two primary 
reasons why Veterans do not seek services from VA include a prior bad 
experience with VA and untreated or undertreated mental health issues 
that lead the Veteran to be overly suspicious and/or confused. In both 
scenarios, the VA homeless outreach worker is taught to be highly 
respectful of the Veteran's desires, but to repeatedly let the Veteran 
know that VA is available as a resource to assist them in exiting 
homelessness. VA has also increased services in its community-based 
outpatient clinics (CBOC) and at Vet centers; both of these programs 
tend to be more of a community-based setting rather than a medical 
setting that some Veterans prefer as a treatment site. VA has the 
capacity, and plans to increase, contract and fee basis care with 
community providers who may generate less distrust among Veterans who 
have trust issues regarding VA services.

    Question 2: You speak of various efforts to do outreach to homeless 
Veterans to get them to take advantage of the programs to help inside 
the VA. Can you tell me more about your outreach efforts to homeless 
Veterans who are struggling with various mental illnesses, how 
effective this outreach has been, and any plans to improve the outreach 
to this group in the future?

    Response: Outreach to Veterans who are homeless or are at-risk for 
homelessness is a cornerstone of VA homeless services. In FY 2008, over 
40,000 unique contacts were made by VA to homeless Veterans assisting 
them with engaging in treatment and connecting them to benefits helping 
them to exit homelessness. Eighty percent of homeless veterans who 
received outreach case management services present with a current or 
past history of mental health or substance abuse treatment. A recent 
requirement of the Mental Health Uniform Services handbook is that 
every VAMC and CBOC serving more than 15,000 Veterans must have 
homeless outreach and case management services available to address the 
needs of Veterans who are homeless or at risk for homelessness. In 
addition, VA has funded specialty substance use case managers to work 
with the homeless outreach and transitional housing providers to better 
address the treatment needs of Veterans who are homeless and/or at risk 
for homelessness. To improve services to this group, VA is developing a 
new model for outreach and case management in rural areas that combines 
homeless and mental health intensive case management services to 
identify and meet the needs of those Veterans.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      June 11, 2009

Honorable Hilda L. Solis
Secretary
U.S. Department of Labor
Frances Perkins Building
200 Constitution Ave., NW
Washington, DC 20210

Dear Madam Secretary:

    In reference to our Full Committee hearing entitled ``A National 
Commitment to End Veterans' Homelessness'' on June 3, 2009, I would 
appreciate it if you could answer the enclosed hearing questions by the 
close of business on July 24, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,
                                                         BOB FILNER
                                                           Chairman

CW:ds

                               __________
                        Questions for the Record
                   The Honorable Bob Filner, Chairman
                  House Committee on Veterans' Affairs
             John C. McWilliam, Deputy Assistant Secretary
               Veterans' Employment and Training Service
                        U.S. Department of Labor
          A National Commitment to End Veterans' Homelessness
                              June 3, 2009
In reference to the homelessness prevention module included in TAP--

    a. How is the module administered?

    Response: The module on homelessness is a mandatory part of the 
Employment Workshop and consists of six slides that are part of the 
larger section dealing with stress during the transition process. The 
instruction provides basic statistics on homeless veterans and teaches 
participants the primary reasons for homelessness among veterans, the 
key risk factors and warning signs, and where to find help and 
resources to assist homeless veterans and those at risk of 
homelessness.

    b. What is the VA's role and what is DOL's role?

    Response: This particular module is included in the DOL Employment 
Workshop.
    DOL provides the facilitators for the workshops, either through 
contract or through DOL funded state veterans employment specialists. 
The VA provides a separate part of the Transition Assistance Program 
for those transitioning service Members who have or may receive a 
disability rating. VA is a Member of the TAP Steering Committee that is 
chaired by DOL. This Committee reviews and approves content for all 
portions of the TAP program, to include the Employment Workshop.

    c. What is the protocol for follow-up if a veteran taking the self-
assessment is determined to be at risk?

    Response: Employment Workshop participants are encouraged to 
contact the resources highlighted in the presentation, specifically a 
Department of Labor Homeless Veterans Reintegration Program (HVRP) 
grantee, the Department of Veterans Affairs, and the National Coalition 
for Homeless Veterans.

    d. Is VA notified? If so, what action does VA take?

    Response: The VA is not notified unless a participant approaches a 
workshop facilitator and requests such notification.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
